APPENDIX

TABLE OF CONTENTS

Page

Opinion of the United States Court of Appeals
for the D.C. Circuit, United States v. Bikundi,
No. 16-3066 (consolidated with No. 16-3067)
(June 11, 2019) .......................................................... 1a
Judgment in a Criminal Case, United States v.
Bikundi, Case No. 14CR30-01 (June 3, 2016) ....... 69a
Judgment in a Criminal Case, United States v.
Bikundi, Case No. 14CR30-02 (June 3, 2016) ....... 84a
Memorandum Opinion of the United States
District Court for the District of Columbia,
United States v. Bikundi, Crim. Case No. 14030 (BAH) (Mar. 7, 2016) ....................................... 98a
Order of the United States Court of Appeals for
the D.C. Circuit Denying Rehearing En Banc,
United States v. Bikundi, No. 16-3066 (consolidated with No. 16-3067) (Oct. 4, 2019) ............... 226a
Statutory Provisions Involved .............................. 228a
Speedy Trial Act of 1974, 18 U.S.C. § 3161
et seq.:
18 U.S.C. § 3161(c)(1) ................................. 228a
18 U.S.C. § 3161(h) .................................... 228a
Mandatory Victims Restitution Act of 1996,
18 U.S.C. § 3663A et seq.:
18 U.S.C. § 3664(e) ..................................... 233a
18 U.S.C. § 982(a)(1)........................................ 233a
18 U.S.C. § 982(a)(7)........................................ 233a
Letter from Supreme Court Clerk regarding
grant of extension of time for filing a petition
for a writ of certiorari (Dec. 11, 2019) .................. 235a

1a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
__________
No. 16-3066
(consolidated with No. 16-3067)
UNITED STATES OF AMERICA,
Appellee,
v.
MICHAEL D. BIKUNDI, SR.,
Appellant.
__________
[Argued October 23, 2018
Decided June 11, 2019]
__________
Before: Rogers, Tatel, and Griffith, Circuit Judges.
Concurring Opinion by Judge Rogers.
Per Curiam:
TABLE OF CONTENTS
INTRODUCTION
I. REGULATORY AND FACTUAL BACKGROUND
II. SPEEDY TRIAL RIGHTS
A. Speedy Trial Act
B. Sixth Amendment
III. SEVERANCE
IV. ADMISSION OF EXHIBIT 439
V. SUFFICIENCY OF THE EVIDENCE
A. Money Laundering and Conspiracy
B. Exclusion-Based Health Care Fraud
C. Health Care Fraud and Conspiracy

2a
VI. JURY INSTRUCTIONS
A. Unanimity
B. Aiding-and-Abetting Health Care Fraud
VII. SENTENCING
A. Restitution
B. Forfeiture
C. Sentencing Enhancements
1. Loss Amount
2. Abuse of Trust
3. Managerial Role
4. Violation of Administrative Order
Florence Bikundi and Michael Bikundi appeal
their convictions by a jury of health care fraud, conspiracy to commit health care fraud, money laundering, and conspiracy to commit money laundering.
Suggesting that the government’s case was premised
on the misconduct of a handful of employees rather
than an entire fraudulent business, appellants challenge the denial of Florence Bikundi’s motion to dismiss the indictment for violation of her statutory and
constitutional rights to a speedy trial; the denial of
Michael Bikundi’s motion to sever his trial pursuant
to Rule 14(a) of the Federal Rules of Criminal Procedure; and the mid-trial admission of a government
report pursuant to Rule 16 of the Federal Rules
of Criminal Procedure. They also challenge their
enhanced sentences, the forfeiture and restitution
orders, and the denial of their motions for judgment
of acquittal notwithstanding the verdicts pursuant to
Rule 29(c) of the Federal Rules of Criminal Procedure. For the following reasons, we affirm.

3a
I.
Florence and Michael Bikundi (hereinafter separately “Florence” and “Michael”) operated Global
Healthcare, Inc. (“Global”) to provide home care
services that were funded through the D.C. Medicaid
program, which, in turn, is funded in part by the
federal government, to provide free or low-cost health
services to low-income individuals. See 42 U.S.C.
§ 1396-1; D.C. Code § 4-204.05; 42 C.F.R. §§ 435.900435.965.
A.
The D.C. Department of Health Care Finance
(“DHCF”) administers the D.C. Medicaid program.
D.C. Code § 7-7701.07. Home care service entities
assist D.C. Medicaid beneficiaries in performing
daily living activities, such as getting out of bed,
bathing, and eating. D.C. Mun. Regs. tit. 22 § 3915.
Because these services are typically not provided by
registered nurses or other medical professionals,
home care service entities are required to conduct
background checks prior to hiring their aides. DHCF
also periodically audits home care service entities for
conformance with physician-approved home care
plans, and DHCF will withhold future payments
upon finding non-compliance with regulatory requirements.
To be eligible to receive D.C. Medicaid payments,
home care service entities must be licensed by the
Health Regulation and Licensing Administration in
the D.C. Department of Health. D.C. Mun. Regs. tit.
22 § 3900. As part of this process, a home care
service entity must submit a provider application and
enter into a provider agreement. When reviewing
the application, the Health and Regulation Licensing
Administration determines whether any individual

4a
holding a five percent or greater ownership in the
entity has been excluded from participation in any
federal health care program by checking an “exclusion list” published by the U.S. Department of Health
and Human Services (“HHS”). The Administration
also conducts annual licensure surveys to ensure that
licensed home care entities operate in accordance
with D.C. regulations.
To qualify for personal care services covered by
D.C. Medicaid, a beneficiary must obtain a prescription from a licensed physician. The beneficiary
presents the prescription to the home care services
entity, which assigns a personal care aide to the beneficiary. A registered nurse conducts an assessment
of the beneficiary’s needs for purposes of preparing
an individualized plan of care. A licensed physician
must approve the plan of care within thirty days and
typically is to re-certify the plan every six months.
A personal care aide administers the services in the
plan of care. Generally, a registered nurse must visit
the beneficiary at home at least once every 30 days to
determine if the beneficiary is receiving adequate
services.
Personal care aides providing services to D.C. Medicaid beneficiaries are to keep track of the services
provided on timesheets. Each timesheet must be
signed by the personal care aide and the beneficiary
to certify that the stated services were provided. The
home care services entity uses these timesheets in
support of claims submitted to DHCF for payment.
B.
Florence was indicted for health care fraud and
money laundering in February 2014. A superseding
indictment filed in December 2014, added eight
co-defendants, including Michael Bikundi. The 27-

5a
count indictment charged Florence and Michael with
health care fraud, conspiracy to commit health care
fraud, seven counts of money laundering, money
laundering conspiracy, and engaging in monetary
transactions in property derived from unlawful activity.1 It charged Florence with health care fraud
based on her exclusion from federal health care programs and making false statements involving federal
health care programs.2 Five other co-defendants
entered into plea agreements that required them to
cooperate with the government.3
Viewing the evidence in the light most favorable to
the government, as we must, see, e.g., Jackson v.
Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979), reveals overwhelming evidence
of pervasive fraud by comprehensive alteration of
employee and patient records in connection with
services claimed to have been provided by Global.
The government presented documentary and testimonial evidence, including the testimony of eight
former employees of Global.

1

18 U.S.C. § 1347 (health care fraud); id. § 1349 (conspiracy
to commit health care fraud); id. § 1956(a)(1)(B)(i) (money laundering); id. § 1956(h) (money laundering conspiracy); id. § 1957
(engaging in monetary transactions in property derived from
specified unlawful activity); id. § 2 (aiding and abetting).
2

18 U.S.C. § 1035 (false statements in health care matters);
42 U.S.C. § 1320a-7b (Medicaid fraud).
3 Two of the co-defendants had not yet been arrested and
remained fugitives at the time of trial. Two former Global
employees who were not named as co-defendants in the indictment separately entered into plea agreements that required
cooperation with the government. Two former Global employees
testified under government assurances that they would not be
prosecuted.

6a
Global had a shaky beginning in view of Florence’s
formal exclusion from participation in federal health
care funding programs as a result of the revocation of
her nursing license by the Commonwealth of Virginia
in 1999. 42 U.S.C. § 1320a-7. The parties dispute
whether Florence received the letter notifying her of
the exclusion decision, but Florence certainly received
and responded to a letter informing her that exclusion proceedings had been initiated. Her license had
been issued in her maiden name, “Florence Igwacho,”
and that name appears on the “exclusion list”
published both online and in the Federal Register by
HHS. Yet in June 2009, Florence submitted a D.C.
Medicaid provider application on behalf of Global
Healthcare, Inc. to DHCF that listed “Florence
Bikundi” as Global’s chief executive officer and listed
“Florence Igwacho Bikundi” as a contact person.
Although Florence and Michael were not married
until September 2009, Florence began using the
name “Bikundi” when they became engaged in 2005.
According to defense testimony by her father, it is
customary in Cameroon, Florence and Michael’s
home country, for a woman to begin using a man’s
last name when he provides a dowry, which Michael
did before they became engaged. DHCF approved
Global’s application on July 30, 2009.
At Global, Florence and Michael hired and fired
employees, approved employee paychecks, and
reviewed the timesheets that were used in support of
D.C. Medicaid claims submitted to DHCF. During
multiple licensure surveys, surveyors from the
Health Regulation and Licensing Administration
found deficiencies in Global’s record-keeping and
personnel files. At trial, former Global employees
testified about rampant falsification of records that
they had made at the direction of Florence and

7a
Michael. Employees testified that to show Global
had complied with licensure surveys, they falsified
employee files and patient records. For employee
files, they altered dates on employees’ certifications,
included fake credentials for employees who were
undocumented immigrants, and created false background checks on them. For patient records, employees created falsified nurse notes, altered dates on
physician prescriptions, and altered physician signatures on plans of care.
Global employees also testified about falsification
of timesheets submitted to DHCF and unlawful
payments to D.C. Medicaid beneficiaries.
The
employees testified about multiple situations where
Florence and Michael were aware that aides were not
actually providing services during time periods claimed
on timesheets. Although Florence and Michael did on
occasion withhold employee paychecks and told personal care aides to cease billing for services they did
not provide, neither Florence nor Michael attempted,
according to these employees, to return the money to
the D.C. Medicaid Program. Employees also testified
about making payments to D.C. Medicaid beneficiaries to sign false timesheets in order to show Global
had provided them with home care services.
From November 2009 to February 2014, D.C.
Medicaid paid Global a total of $80.6 million. An
investigation by the Federal Bureau of Investigation
showed that millions of dollars’ worth of the D.C.
Medicaid payments were deposited directly into
three Global bank accounts, for which Florence
Bikundi and Michael Bikundi were the sole signatories. Within two days, and usually on the same day,
Florence and Michael transferred these funds to
separate Global bank accounts and a bank account
for Flo-Diamond, Inc., a company incorporated by

8a
Florence that was registered to provide home care
services to Maryland Medicaid recipients. From
these secondary accounts, Florence and Michael
transferred the D.C. Medicaid funds to many of the
over one hundred other financial accounts that they
controlled. Among these accounts, Florence and
Michael transferred funds to three accounts in the
name of CFC Home & Trade Investment, LLC
(“CFC”) and Tri-Continental Trade & Development
(“Tri-Continental”); Florence and Michael were signatories on these banks accounts as well. CFC and
Tri-Continental both generated no income and had
no business relationship with Global. Ultimately,
checks were written on these bank accounts to
Florence and Michael personally.
The jury found Florence and Michael guilty as
charged, except on Counts 23, 24, and 25 for engaging in monetary transactions in property derived
from unlawful activity. The district court sentenced
Florence to 120 months’ imprisonment and 36 months’
supervised release, and Michael to 84 months’
imprisonment and 36 months’ supervised release.
The district court required them to pay restitution in
the amounts of $80,620,929.20, jointly and severally.
The district court also required each of them to
forfeit $39,989,956.02 (for the money laundering
offenses) and $39,701,764.42 (for the health care
fraud offenses), assessed concurrently. The district
court denied their motions for acquittal notwithstanding verdicts, and they appeal.
We begin by examining Florence’s speedy trial
claims, then address Michael’s severance claim, and
thereafter turn to their evidentiary objections and
jury instructions challenges. Finally, we address
their challenges to their sentences.

9a
II.
Speedy Trial. Florence raises both statutory and
constitutional speedy trial claims. The statutory
claim focuses on the length of the delay and district
court’s findings about that delay, the constitutional
claim on the length of the delay.
A.
Speedy Trial Act. The Speedy Trial Act provides
that “the trial of a defendant . . . shall commence
within seventy days from the filing date (and making
public) of the information or indictment, or from the
date the defendant has appeared before a judicial
officer of the court in which such charge is pending,
whichever date last occurs.” 18 U.S.C. § 3161(c)(1).
Certain periods of delay are to be excluded from the
seventy-day maximum, including any period of delay
resulting from an “ends-of-justice” continuance. Id.
§ 3161(h)(7).
For an “ends-of-justice” continuance, the district
court must “set forth, in the record of the case, either
orally or in writing, its reasons for finding that the
ends of justice served by the granting of such continuance outweigh the best interests of the public and
the defendant in a speedy trial.” Id. § 3161(h)(7)(A).
Although the “substantive balancing underlying the
decision” to grant an ends-of-justice continuance is
“entrusted to the district court’s sound discretion,”
United States v. Rice, 746 F.3d 1074, 1078 (D.C. Cir.
2014), the findings requirement imposes “procedural
strictness,” Zedner v. United States, 547 U.S. 489,
509, 126 S.Ct. 1976, 164 L.Ed.2d 749 (2006). At the
minimum, the district court’s findings “must indicate
that it ‘seriously weighed the benefits of granting the
continuance against the strong public and private interests served by speedy trials.’ ” Rice, 746 F.3d at

10a
1078 (quoting United States v. Bryant, 523 F.3d 349,
361 (D.C. Cir. 2008)). Although the findings requirement does not call for “magic words” in weighing
the competing interests, id. at 1079, mere reference
to “some rough justice basis” is insufficient, United
States v. Sanders, 485 F.3d 654, 659 (D.C. Cir. 2007).
Similarly, mere “passing reference to the case’s complexity” is insufficient, and a district court’s failure to
make the requisite finding means the delay is to be
counted against the defendant’s speedy-trial period.
Zedner, 547 U.S. at 507, 126 S.Ct. 1976.
The court’s review of Speedy Trial Act claims is
de novo on questions of law and for clear error for
factual findings.
United States v. LopesierraGutierrez, 708 F.3d 193, 202 (D.C. Cir. 2013).
Florence’s Speedy Trial Act clock began running on
February 21, 2014, when she was arraigned on the
initial indictment. The district court granted five
ends-of-justice continuances in the period between
her arraignment and the filing of the superseding
indictment eighteen months later. Florence challenges the sufficiency of the district court’s findings
for the last three continuances, on June 16, July 22,
and September 5. She maintains that the district
court merely relied on the fact that the case was
“complex” without properly acknowledging or weighing the countervailing interests of the defendant
and the public. Our review is limited to those time
periods. See Rice, 746 F.3d at 1077-78.
Florence did not object to any of the continuances
until July 1, 2015, when she moved to dismiss the
superseding indictment. The district court denied
the motion while acknowledging that for ends-ofjustice continuances, it had to find on the record that
“the interest[s] in that continuance outweigh the best

11a
interests of the public and the defendant in a speedy
trial.” Tr. 106 (July 31, 2015 AM). The district court
found that the best interests of justice would be
served by excluding the time periods “[g]iven the
complexity of this case and the reasons stated in
open court.” Id. at 109.
To appreciate the thoroughness with which the
district court addressed the ends-of-justice continuances, it is worth noting that in granting the first
such continuance, on March 7, 2014, the district
court concluded the interests of justice outweighed
“the interests of the parties and the public in a
speedier trial” because the purpose of the continuance was to “permit defense counsel and the government time to both produce discovery and review discovery.” Tr. 5 (Mar. 7, 2014 AM). The court thereby
accounted for the nature of the alleged charges,
including the complexity of discovery for a conspiracy
lasting over five years in which Florence and Michael
were alleged to have altered and created false
documents in support of their claims for Medicaid
reimbursement and in moving reimbursed funds in
and out of multiple accounts. On April 24, and again
on June 16, the district court concluded that the need
for more time remained, referencing “the complexity
of the case and the amount of discovery.” Tr. 52
(June 16, 2014 AM). The district court granted a
fourth continuance, with Florence’s consent, on July
22, as counsel advised that they planned to engage in
further meetings and discussions and assured the
district court that they had been diligent in reviewing discovery and discussing the case. In granting
the final ends-of-justice continuance, the district
court noted that Florence was still “sitting in jail” and
pressed the government to move quickly in procuring

12a
a superseding indictment, while also recognizing that
the government still had to produce more documents
to the defense. Succinctly, the district court stated,
its “finding that this is a complex case continues to
hold,” Tr. 15 (Sept. 5, 2014 AM), and ruled that the
Speedy Trial Act was tolled due to the “complex”
nature of the case, id. at 22.
The district court’s findings on the record in support of the ends-of-justice continuances are similar
to those in Rice and Lopesierra-Gutierrez that were
held to satisfy the statutory findings requirement.
In Rice, the district court justified granting the delay
based on the “large number of defendants, the many
hours of wiretaps to be transcribed and translated,
and the absence of certain defendants still awaiting
extradition.” 746 F.3d at 1079. The district court
took the defendants’ interests into consideration by
noting that the defense would not be in a position to
adequately provide representation until the wiretaps
were complete. In Lopesierra-Gutierrez, the district
court justified the grant of the ends-of-justice continuance on the basis of “the complexity of the case, the
nature of the prosecution, and that it would be
unreasonable to expect adequate preparation for pretrial proceedings or for the trial itself within the time
limits established under the Act.” 708 F.3d at 205.
In both cases, the district court’s conclusion that
a continuance would give the defendant more time
to review discovery and to prepare for trial demonstrated that the district court seriously weighed the
defendant’s interest. See Rice, 746 F.3d at 1079;
Lopesierra-Gutierrez, 708 F.3d at 205.
Similarly, in granting the first continuance, the
district court found that due to the large volume
of discovery underlying the charges in the initial

13a
indictment, a continuance would “permit defense
counsel and the government time to both produce
discovery and review discovery and evaluate the evidence against [Florence].” Tr. 5 (Mar. 7, 2014 AM).
This finding shows the district court weighed
Florence’s interest by considering that a continuance
would give her more time to prepare her defense.
The allegations in the initial indictment spanned a
period of six years, involving numerous submissions
of Medicaid claims. Florence concedes that the
district court’s findings to support this continuance
satisfy the statutory requirements. Appellants’ Br.
37 n.18.
Although “best practice” warrants contemporaneous,
specific explanation by the district court, see Zedner,
547 U.S. at 507 n.7, 126 S.Ct. 1976, and the district
court often did so, in the circumstances here, the
court does not understand the statute to require the
district court to repeat all of the details of its findings
on the record each time it grants an ends-of-justice
continuance, particularly where the charged offenses
indicate why discovery would be prolonged. Not only
were the circumstances regarding discovery essentially unchanged when the district court granted endsof-justice continuances, the district court expressly
stated on June 16, 2014, that the parties were
making arrangements for “the most expeditious way to
get discovery into the hands of the defense counsel.”
Tr. 52 (June 16, 2014 AM). In granting the last
challenged ends-of-justice continuance, the district
court stated that its prior reason for granting an endsof-justice continuance continued to apply because
discovery was ongoing. Whatever ambiguity may
reside in the Speedy Trial Act about when the
district court must place its findings on the record,

14a
see Zedner, 547 U.S. at 506-07, 126 S.Ct. 1976, we
hold that the district court’s consideration of the
lengthy time needed for discovery and its impact on
defense counsel’s ability to prepare for trial demonstrates that the district court adequately weighed
Florence’s interests when considering the complexity
of the case.
The district court also adequately addressed the
public interest. Florence concedes that the district
court’s statements in support of granting the first
two continuances, which referenced the interests of
“the public,” satisfied the statutory requirements.
Tr. 5 (Mar. 7, 2014 AM); Tr. 9 (Apr. 24, 2014 AM);
Appellants’ Br. 37 n.18. But she maintains that the
district court’s findings in support of the last three
continuances were insufficient.
Yet the district
court’s concern that adequate time was needed for
the defense to review the documents produced in
discovery and to prepare the defense was directly
related to the public interest that trial not proceed
prematurely. Florence consented to the next-to-last
continuance, and in granting the final continuance,
the district court referenced the fact that the underlying circumstances regarding discovery had not
changed. When asked by this court during oral
argument what rule was being sought, Florence’s
counsel responded that specific findings to support
an ends-of-justice continuance would require the
district court to state on the record something to the
effect that “I’ve considered the interests of the public
in a speedy trial in this case, and given the facts and
circumstances of this case, the interests of the public
outweigh the interests in a speedy trial.” Oral Arg.
3:34-3:50. The words are slightly different, but the
district court’s on-the-record findings are to the same

15a
effect: considering the public interest in a speedy
trial in light of affording defense counsel the opportunity to prepare a defense to a complex fraud involving $80 million in health care payments. Florence
neither suggests her trial counsel should have
proceeded to trial before discovery was completed nor
challenges the district court’s statement that the
parties were arranging for the “most expeditious way
to get discovery into the hands of defense counsel.”
Tr. 52 (June 16, 2014 AM). The combination of the
district court’s references to the public interest and
the efficient use of resources suffice to show that the
district court seriously weighed the public’s interests.
Therefore, Florence fails to show that the pretrial
proceedings were delayed so as to violate her statutory
speedy trial rights.
B.
Sixth Amendment. The Sixth Amendment to the
United States Constitution guarantees that “[i]n all
criminal prosecutions, the accused shall enjoy the
right to a speedy . . . trial.” U.S. Const. amend. VI.
In Barker v. Wingo, 407 U.S. 514, 530, 92 S.Ct. 2182,
33 L.Ed.2d 101 (1972), the Supreme Court articulated
a four-factor balancing test for determining whether
a defendant has been deprived of this speedy trial
right: the “[l]ength of delay, the reason for the delay,
the defendant’s assertion of his right, and prejudice
to the defendant.” No single factor is necessary or
sufficient to find a deprivation of the right to a
speedy trial because the factors are related and must
be considered together. Id. at 533, 92 S.Ct. 2182. To
trigger the speedy trial analysis, the length of delay
between accusation and trial must “cross[ ] the
threshold dividing ordinary from ‘presumptively
prejudicial’ delay.”
Doggett v. United States, 505

16a
U.S. 647, 651-52, 112 S.Ct. 2686, 120 L.Ed.2d 520
(1992). Generally, a delay of one year is presumptively prejudicial. Id. at 652 n.1, 112 S.Ct. 2686.
The court reviews the district court’s application of
the Barker factors de novo. See United States v.
Tchibassa, 452 F.3d 918, 924 (D.C. Cir. 2006).
Although the delay of approximately eighteen
months in Florence’s case triggered the inquiry, the
Barker factors on balance favor the government. As
to the first and second factors, “the delay that can be
tolerated for an ordinary street crime is considerably
less than a serious, complex conspiracy charge.”
Barker, 407 U.S. at 531, 92 S.Ct. 2182. In LopesierraGutierrez, this court held that a three-and-a-half
year delay was justifiable for a complex conspiracy
charge with complicated evidence and multiple
defendants. 708 F.3d at 203. Given the complex
conspiracy charges at issue here, with voluminous
discovery and multiple defendants, a delay of eighteen
months was justifiable. Florence also filed multiple
pretrial motions as well as an interlocutory appeal
and she consented to continuances granted on July
22, 2014, and October 7, 2014. Although not all of her
motions delayed the trial, they still contributed to
the length of proceedings. Florence does not maintain
that the government acted in bad faith in seeking
ends-of-justice continuances. See id.
As to the third factor, the fact that Florence did not
assert her speedy trial rights until she filed a motion
to dismiss sixteen months after her arraignment also
weighs in the government’s favor. The circumstances
here are like those in United States v. Taplet, 776
F.3d 875, 881 (D.C. Cir. 2015), where the defendant
“either joined in or requested many of the continuances, and he waited fourteen months after his

17a
arraignment before filing a motion to dismiss under
the Speedy Trial Act.” The court held no Sixth
Amendment violation occurred. Similarly, Florence
consented to exclusion of time under the Speedy Trial
Act and did not assert her speedy trial rights early or
often.
Finally, the fourth factor favors the government.
The “presumptive prejudice” arising from delay of
trial for over one year “cannot alone carry a Sixth
Amendment claim without regard to the other
Barker criteria.” Doggett, 505 U.S. at 655-56, 112
S.Ct. 2686; see also Taplet, 776 F.3d at 881. Florence
offers no explanation of how the delay impaired
her defense, and thus fails to show that her Sixth
Amendment right to a speedy trial was violated.
III.
Severance. There is a preference in the federal
system for joint trials. Zafiro v. United States, 506
U.S. 534, 537, 113 S.Ct. 933, 122 L.Ed.2d 317 (1993).
Rule 8(b) of the Federal Rules of Criminal Procedure
permits joinder of defendants in the same indictment
when the defendants “are alleged to have participated
in the same act or transaction, or in the same series
of acts or transactions, constituting an offense or
offenses.” Rule 14(a), however, permits a district
court to sever the defendants’ trials if the joinder of
“offenses or defendants in an indictment . . . or a
consolidation for trial appears to prejudice a defendant
or the government.” District courts retain significant
flexibility to determine how to remedy a potential
risk of prejudice, including ordering lesser forms of
relief such as limiting jury instructions. United
States v. Moore, 651 F.3d 30, 95 (D.C. Cir. 2011) (per
curiam). Still, the Supreme Court has cautioned that
“a district court should grant a severance motion

18a
under Rule 14 only if there is a serious risk that a
joint trial would compromise a specific trial right
of one of the defendants, or prevent the jury from
making a reliable judgment about guilt or innocence.”
Zafiro, 506 U.S. at 539, 113 S.Ct. 933.
Michael contends that the district court erred in
denying his Rule 14(a) motion because of the unfair
prejudice due to spillover effect as a result of the
disparity of evidence against him as compared to
that against Florence and the fact that they were
married. In particular, he points to the evidence
that Florence’s nursing license was revoked and the
repeated references at trial to Florence and Michael
as a single unit, “they.” The court reviews the district
court’s denial of a Rule 14(a) motion for abuse of
discretion, id. at 542, 113 S.Ct. 933, and we find none.
In conspiracy trials, severance is generally not
mandated despite a disparity in evidence when there
is “substantial and independent evidence of each [defendant’s] significant involvement in the conspiracy.”
Moore, 651 F.3d at 96 (quoting United States v.
Tarantino, 846 F.2d 1384, 1399 (D.C. Cir. 1988)). That
is the situation here given the extensive overlapping
evidence against Florence and Michael on all charges
besides those based on Florence’s exclusion. So,
although Florence alone was charged with making
false and fraudulent representations on the Medicaid
Provider Agreement, and no evidence connected
Michael to that charge, the government presented
abundant independent evidence of Michael’s culpable
conduct in operating the Global conspiracies to
commit health care fraud and money laundering.
Employees testified that he instructed them to alter
patient records and even to create records for
employees that included false information.

19a
Michael fails to demonstrate the health care fraud
charges based on Florence’s nursing license revocation involved significantly more serious charges with
prejudicial spillover effect than other evidence of his
own culpability. The evidence regarding Florence’s
license and the Medicaid Provider Agreement was
part of the same overall fraudulent scheme, in
which the government’s evidence showed Florence’s
and Michael’s direct involvement. As the evidence
regarding Florence was presented at trial, the jury
could readily appreciate that the evidence about the
license and Medicaid Provider Agreement involved
only Florence.
Additionally, it is not exactly uncommon for a
husband and wife to be tried together when they are
charged with committing the same or similar crimes.
See, e.g., United States v. Johnson, 569 F.2d 269, 271
(5th Cir. 1978); United States v. Cianciulli, 476 F.
Supp. 845, 848 (E.D. Pa. 1979); see also United States
v. Carbajal-Nieto, 390 F. App’x 295, 296 (4th Cir.
2010). Here, the district court instructed the jury to
consider each defendant’s guilt separately:
[E]ach defendant is entitled to have the issue of
his or her guilt as to each of the crimes for which
he or she is on trial determined from his or her own
conduct and from the evidence that applies to him
or her as if he or she were being tried alone. You
should, therefore, consider separately each offense,
and the evidence which applies to it, and you
should return separate verdicts as to each count of
the Indictment, as well as to each defendant.
Tr. 27 (Nov. 9, 2015 AM). Further, the jury was
instructed that:
The fact that you may find one defendant guilty
or not guilty on any one count of the Indictment

20a
should not influence your verdict with respect to
any other count of the Indictment for that defendant.
Nor should it influence your verdict with respect to
any other defendant as to that count or any other
count in the Indictment. Thus, you may find any
one or more of the defendants guilty or not guilty
on any one or more counts of the Indictment, and
you may return different verdicts as to different
defendants [and] as to different counts.
Id. at 27-28. The jury is presumed to follow the
instructions absent evidence to doubt that they did,
Weeks v. Angelone, 528 U.S. 225, 234, 120 S.Ct. 727,
145 L.Ed.2d 727 (2000) (citing Richardson v. Marsh,
481 U.S. 200, 211, 107 S.Ct. 1702, 95 L.Ed.2d 176
(1987)), and Michael points to no such evidence here.
The verdict form was structured to facilitate a
decision on each defendant’s guilt separately, listing
all of the charges against Florence and Michael
separately within each count.
In view of the abundant evidence of Michael’s
involvement in the Global conspiracies, the references
at trial to Florence and Michael as “they,” even when
considered in combination with the license and Medicaid Provider Agreement evidence against Florence,
do not demonstrate that the district court abused
its discretion in denying his Rule 14(a) motion for a
separate trial.
IV.
Admission of Exhibit 439. Rule 16 of the Federal
Rules of Criminal Procedure broadly mandates
disclosure of material documents within the government’s control upon a defendant’s request. Rule
16(a)(1)(E) provides:
Upon a defendant’s request, the government must
permit the defendant to inspect or copy or photo-

21a
graph books, papers, documents, data, photographs, tangible objects, buildings or places . . . if
the item is within the government’s possession,
custody, or control and (i) the item is material to
preparing the defense; (ii) the government intended
to use the item in its case-in-chief at trial; or
(iii) the item was obtained from or belongs to the
defendant.
Additionally, Rule 16(c) provides:
A party who discovers additional evidence or
material before or during trial must promptly
disclose its existence to the other party or the court
if (1) the evidence or material is subject to discovery or inspection under this rule; and (2) the other
party previously requested, or the court ordered, its
production.
Defense counsel sought discovery well before trial
began in September and yet it was not until three
weeks into the trial, almost at the end of the government’s case-in-chief, that the government disclosed Exhibit 439. A month before trial, the prosecutor asked Don Shearer, the Director of Health Care
Operations at DHCF, if it was possible to quantify
the amount of actual fraud at Global, and Shearer
prepared the report, which purported to show that
567 D.C. Medicaid beneficiaries for whom Global
received Medicaid reimbursements did not receive
personal care services after Global closed.
See
Concurring Op. at [App., infra, 62a-64a] (Rogers, J.).
Defense counsel objected to admission of Exhibit 439
on the grounds that doing so would be “unfair” sandbagging and that identification and production of the
report was “untimely.” Tr. 16 (Nov. 3, 2015 PM).
On appeal, appellants contend that the government
was obligated under Rule 16 to disclose Exhibit 439

22a
and the underlying data, and that its admission with
less than one day’s notice violated their substantial
rights. The government responds that it did not have
an obligation to disclose Exhibit 439 until it received
the report.
The court need not decide whether the government’s terribly late production of Exhibit 439 constituted impermissible sandbagging under Rule 16. See
United States v. Marshall, 132 F.3d 63, 69 (D.C. Cir.
1998). Even if the government violated Rule 16, there
is no basis to conclude that the district court abused
its discretion by not excluding the report. On crossexamination, defense counsel raised doubts about the
probative value of Exhibit 439 for quantifying the
health care fraud. Shearer, who prepared the report,
admitted that he did not know how many of Global’s
previous beneficiaries were no longer receiving
Medicaid services because they were deceased or
disqualified as a result of increased income.
Cross-examination thus took some of the sting out
of the report, much as the district court anticipated
in referring to the report as “ripe fodder” for crossexamination. Tr. 112 (Nov. 3, 2015 PM). Defense
counsel objected that the district court’s suggestion of
an overnight postponement so defense counsel could
interview Shearer would not suffice. But defense
counsel did not request a continuance or move for a
mistrial. Instead defense counsel objected to admission of Exhibit 439 into evidence. Rule 16(d) vests
broad authority in the district court to regulate
discovery, including by “grant[ing] a continuance”
where “a party failed to comply with th[e] rule,” and
the district court found no bad faith by the government in the late production of Exhibit 439. See
Tr. 111 (Nov. 3, 2015 PM). Under the circumstances,

23a
even assuming a Rule 16 violation, appellants fail to
establish the requisite prejudice to their substantial
rights for the court to conclude that the district court
abused its discretion by not excluding Exhibit 439.4
V.
Sufficiency of the Evidence. Florence and Michael
challenge the sufficiency of the evidence on multiple
fronts, arguing that because the government failed to
prove guilt beyond a reasonable doubt the district
court erred in denying their motions for judgment of
acquittal on various counts. We review “de novo the
denial of a motion for acquittal, viewing the evidence
in the light most favorable to the Government.”
United States v. Stoddard, 892 F.3d 1203, 1213 (D.C.
Cir. 2018).
A.
Money Laundering and Conspiracy. Florence and
Michael first claim that the government failed to
prove beyond a reasonable doubt they had the requisite criminal intent to commit money laundering
(Counts 16-22). To overcome this argument, the
government had to present evidence from which a
reasonable jury could find that the transactions
were “designed in whole or in part . . . to conceal or
disguise the nature, the location, the source, the
ownership, or the control of the proceeds of specified
unlawful activity.” 18 U.S.C. § 1956(a)(1)(B)(i).
The government based the seven money laundering
convictions on seven transactions. All seven have the
4 To the extent appellants argue the report was inadmissible
under the Federal Rules of Evidence, this argument is insufficiently developed, Schneider v. Kissinger, 412 F.3d 190, 200 n.1
(D.C. Cir. 2005), and in any event, the objections come too late,
see United States v. White, 116 F.3d 903, 923 (D.C. Cir. 1997).

24a
same basic structure: almost immediately after D.C.
Medicaid deposited reimbursement funds into a
Global intake account, Florence and Michael moved
a substantially identical amount of money to a
different Global corporate account (and, for one
transaction, from that corporate account to an
account owned by Florence’s Maryland business,
Flo-Diamond). From there, Florence and Michael
quickly transferred the money to an account associated with one of two other corporations: CFC or
Tri-Continental. Both Florence and Michael are
signatories to every bank account involved in these
transactions.
According to Florence and Michael, “[n]o rational
juror could conclude” the charged “transactions were
designed to conceal the nature or source of the funds”
because each transaction “transferred money to
accounts on which Appellants had signing authority”
and “that were owned by companies that Appellants
openly owned.” Appellants’ Br. 47-48. A fundamental
logical disconnect lurks in this argument: even if
Florence and Michael made no effort to conceal
the money’s ownership, they are still guilty if they
tried to hide the money’s source. Cf. United States v.
Warshak, 631 F.3d 266, 320 (6th Cir. 2010) (finding
sufficient evidence of intent to conceal “the exact
source of the proceeds” even when “a number of
the transactions were made under relatively open
circumstances”).
And, in fact, the evidence betrayed that Florence
and Michael were attempting to conceal the money’s
provenance. CFC and Tri-Continental had no obvious
connection to the home health care industry or, for
that matter, any legitimate raison d’être. CFC’s articles of incorporation listed its purpose as “real estate

25a
investment” and Florence’s son, Carlson Igwacho,
as the company’s resident agent. Carlson, however,
testified that he never signed CFC’s articles and that
the company “didn’t do any business.” Tr. 67 (Oct.
28, 2015 PM). Records confirmed that — despite its
putative concern with “real estate” — CFC owned a
single piece of real property, purchased with Global
funds, and had no significant expenditures associated with real estate. The record is devoid of evidence
that CFC had any independent income or clients.
Tri-Continental’s story is much the same: although
its listed purpose was the “import/export business,”
there is no evidence it ever imported or exported anything at all.
In a nutshell, the jury had ample basis to conclude
that CFC and Tri-Continental were classic sham
corporations, created for cleansing the money passing
through them of any association with D.C. Medicaid.
This court has recognized that such “funneling” of
“illegal funds through various fictitious business
accounts” is a hallmark of money laundering. United
States v. Adefehinti, 510 F.3d 319, 323 (D.C. Cir.
2007) (quoting United States v. Esterman, 324 F.3d
565, 572 (7th Cir. 2003)).
Other hallmarks of an intent to conceal populate
the broader landscape of Florence’s and Michael’s
finances. For instance, Florence and Michael routinely
engaged in “convoluted financial transactions” and
“inter-company transfers” with no clear purpose.
Id. (quoting Esterman, 324 F.3d at 572). All told,
Florence and Michael controlled at least 122 bank
accounts, only a fraction of which had any immediate
connection to the health care industry. Nonetheless,
over a five-year period, a towering ninety percent of
the money passing through those accounts came from

26a
D.C. Medicaid (with Maryland Medicaid being one of
the “main sources” of the remaining ten percent). Tr.
131 (Nov. 3, 2015 AM). In that same period, Florence
and Michael engaged in many transactions —
indeed, over seven million dollars’ worth — involving
cashier’s checks.
As the government’s agent
testified, one advantage of cashier’s checks, from a
money launderer’s perspective, is that the “recipient
wouldn’t know the actual source that’s funding the
check.” Tr. 96 (Nov. 4, 2015 AM). Predictably, then,
aspiring launderers “frequently use . . . cashier’s
checks to . . . make the transfers that are charged as
money laundering.” United States v. Willey, 57 F.3d
1374, 1386 n.23 (5th Cir. 1995). A reasonable jury
could find based on the frequent use by Florence and
Michael of such checks, considered alongside their
various other financial maneuvers, that they sought
to conceal the source of these funds.
Florence and Michael search in vain for aid from
the handful of cases where this court has reversed
money laundering convictions. First, they invoke the
principle, articulated in United States v. Law and
United States v. Stoddard, that “when faced with
an innocent explanation sufficiently supported by
the evidence to create a reasonable doubt about the
defendant’s guilt, the [g]overnment’s burden is to
present evidence sufficient to dispel that doubt.”
Stoddard, 892 F.3d at 1214 (quoting Law, 528 F.3d
888, 896 (D.C. Cir. 2008)). But neither of the two
explanations offered by Florence and Michael for the
transactions creates such doubt. First, they claim the
companies were Global’s “corporate siblings.” That
threadbare explanation raises more questions than it
answers: why is Global, a company with real human
clients and an independent revenue stream, sending
millions of dollars to its “siblings” that apparently do

27a
no business at all? Second, Florence and Michael
claim that they sought to avoid becoming victims of
fraud themselves after someone attempted to draw a
fraudulent check on a Global account. This explanation is equally far-fetched: it might explain why they
sought to move money out of the targeted account,
but it does nothing to clarify why they created sham
corporations.
Shifting gears, Florence and Michael turn to
United States v. Adefehinti where this court held that
the money laundering statute “has no application
to the transparent division or deposit of ” criminal
proceeds. 510 F.3d at 322. The court applied that
principle to the proceeds of a real estate fraud
scheme in which the defendants flipped properties
from fake sellers to fake buyers. Id. at 321. The
charged transaction in Adefehinti began with a
settlement check from one of these fictional sellers.
Id. at 322. The check included the address of the
property sold and identified the funds as the sale’s
proceeds. Id. After being endorsed to yet another
fictional person (unconnected to the original real
estate transaction), the same check was negotiated in
person at a bank. Id. “Immediately thereafter,” the
proceeds were split four ways: into two accounts
for which the defendants were signatories, into one
unrelated account, and into cash. Id. Observing that
these were “simple transactions that can be followed
with relative ease,” this court held that no juror
could find an intent to conceal the source of the funds
because “all the proceeds of the initial check were
either cashed or went directly into accounts in the
name of defendants or their associates without passing through any other person’s account.” Id. at 323
(internal quotation marks omitted).

28a
The instant case differs fundamentally from Adefehinti. True, both involve fake entities beyond those
participating in the initial fraud (there, the fake
person negotiating the check; here, CFC or TriContinental). Crucially, however, in Adefehinti the
check used to settle the transaction and later deposited into the defendants’ accounts retained a visible
link to the source of the funds — the real estate
transaction — until it entered the defendants’
personal accounts. Not so here. As the investigating
agent testified, once the money went into a CFC
or Tri-Continental account, observers “would have
absolutely no way of knowing that the money . . .
came from the D.C. Government to Global Health
Care.” Tr. 75 (Nov. 4, 2015 AM). And although Florence and Michael also claim that, as in Adefehinti,
the investigator admitted she could easily trace the
transactions at issue, that position rests on a mischaracterization of the agent’s testimony. True, the
agent said that the necessary records were “readily
accessible,” Tr. 97 (Nov. 3, 2015 PM), but she also
clarified that the job of actually untangling the
Bikundis’ complicated finances was laborious, requiring “many months . . . working on it seven days a
week for probably eight, ten hours a day,” Tr. 74
(Nov. 4, 2015 AM).
Having woven such an intricate web, Florence and
Michael were doing more than just divvying up or
spending the proceeds of fraud — conduct which
might have given them a better claim for acquittal
under Adefehinti. Instead, the government presented
evidence on which a reasonable jury could find that
Florence and Michael created an elaborate network
of bank accounts involving two sham corporations
and funneled money into them, effacing any obvious
link to D.C. Medicaid or the health care business.

29a
Nor were these “simple transactions . . . followed with
relative ease,” 510 F.3d at 323; nothing in Adefehinti
requires a jury to acquit when the defendants’
schemes are vulnerable to dogged investigation. The
government’s evidence allowed a reasonable jury to
find Florence and Michael had the intent to conceal,
and the substantive money laundering convictions
must therefore be affirmed.
Florence and Michael also challenge their money
laundering conspiracy convictions (Count 15). The
jury found that, as objects of the conspiracy, Florence
and Michael planned to conceal the source of the
funds, in violation of 18 U.S.C. § 1956, and to engage
in transactions using the proceeds of their fraudulent
conduct, in violation of 18 U.S.C. § 1957. As long as
the evidence is sufficient to support one of those two
objects, the court must affirm. See United States v.
Johnson, 216 F.3d 1162, 1165 (D.C. Cir. 2000) (“[A]
verdict cannot be overturned on the ground that the
evidence is sufficient as to [only] one of [multiple
charged acts].”). Florence and Michael’s sole challenge to the concealment object entirely duplicates
their argument on the substantive money laundering
charges, namely that no reasonable juror could conclude the transactions were designed to conceal the
nature or ownership of the D.C. Medicaid proceeds,
and those arguments are equally unsuccessful in the
conspiracy context. We therefore affirm the conspiracy convictions for the same reasons we affirm their
substantive convictions, without reaching the § 1957
object.
B.
Exclusion-Based Health Care Fraud. Florence
claims that the two counts premised on founding and
operating Global despite her exclusion from federal

30a
health care programs — health care fraud in Count
13 and making false statements in a health care
matter in Count 14 — cannot be sustained because
the government failed to prove beyond a reasonable
doubt that she knew about that exclusion.
As the parties agree, to convict on both counts, the
government had to prove beyond a reasonable doubt
that Florence had knowledge of her federal exclusion.
See 18 U.S.C. § 1347(a) (Count 13); 42 U.S.C.
§ 1320a-7b(a)(3) (Count 14).
Direct evidence of
knowledge being rare, the government is likely to
rely on circumstantial evidence. United States v.
Torres, 894 F.3d 305, 311 (D.C. Cir. 2018). “Such
indirect evidence might include a defendant’s
conduct before, during, or after the charged criminal
acts, or the facts and circumstances known to [her]
when [s]he acted.” Id.
The government’s strongest, even compelling,
evidence is a Global employee’s resume, seized from
Florence’s house, featuring two handwritten notations nearly side-by-side. Gov. Ex. 428 at 1. The
first appears to be a reminder related to a different
employee’s resume. Id. (“Need Resume of Administrator (James Mbide)”). The second is the complete
URL web address linking to the HHS’s searchable
online database of everyone who has been excluded
from federal health care programs — a database
that includes Florence’s maiden name.
Id.
(“http://oig.hhs.gov/fraud/exclusions.asp”). Florence’s
own brother testified that the handwriting on the
first notation, written in the same color as the URL
address, belonged to Florence. Florence fights the
obvious inference that she penned the second notation
too, noting that her brother was unable to identify
the URL handwriting as hers. Worse still, she claims,
the jury heard no expert testimony at all about the

31a
handwriting. These arguments needlessly make the
perfect the enemy of the good — the jury required no
definitive identification or expert analysis to apply
its own common sense. Cf. 28 U.S.C. § 1731 (“The
admitted or proved handwriting of any person shall
be admissible, for purposes of comparison, to determine genuineness of other handwriting attributed to
such person.”); Fed. R. Evid. 901(b)(3) (“A comparison
with an authenticated specimen by an expert witness
or the trier of fact ” may satisfy “the requirement of
authenticating or identifying an item of evidence.”
(emphasis added)). Given our standard of review,
the key question is what “rational juror[s]” could
conclude, not what they had to conclude. United
States v. Williams, 836 F.3d 1, 7 (D.C. Cir. 2016).
And a reasonable juror — looking at the annotated
resume found in Florence’s house and armed with
her brother’s testimony — reasonably could find that
Florence wrote the website address herself.
Having identified the handwriting as Florence’s,
the jury could then reasonably infer that Florence
actually visited the listed site and typed her own
maiden name into the database. Indeed, it is more
difficult to reach the opposite conclusion, knowing as
we do that Florence indisputably learned her eligibility was in serious jeopardy when she received a letter
HHS telling her as much. That small step furnishes
the final piece of the puzzle: typing her name into the
database would have put Florence on actual notice
that she was excluded from federal health care programs, including Medicaid.
The government correctly argues that Florence’s
habit of using her married name on health carerelated forms (well before she was actually married)
further supports the inference of guilty knowledge. It
takes no logical leap to conclude that such a practice

32a
was designed to avoid triggering a hit when regulators cross-checked Florence’s paperwork against the
HHS database. As Florence points out, she deviated
from this pattern on certain occasions, including
once on Global’s Medicaid provider application form.
But a jury could reasonably find that these isolated
incidents resulted from sloppiness rather than
innocence. Florence also tells us that her use of
“Bikundi” aligns with the Cameroonian custom of
using a married name after a dowry has been paid.
Superficially attractive, this explanation falls apart
on closer scrutiny. Indeed, Florence signed one nonhealth care form (a mortgage application) using her
maiden name just days before her wedding, years
after Michael supposedly paid the dowry. Combined
with the resume notation, and viewing the evidence
as favorably as possible for the government as we
must, Florence’s selective use of “Bikundi” on health
care-related forms suggests she actually knew that
using “Igwacho” might trigger a hit in the exclusion
database. Added to the rest, the evidence is more
than adequate to sustain Florence’s exclusion-based
convictions.
C.
Health Care Fraud and Conspiracy. Michael claims
there was insufficient evidence to support his conviction by the jury on health care fraud (Count 2) and
the two objects of the health care fraud conspiracy
(Count 1). Once again, it is common ground that
both charges require proof Michael intended to
defraud D.C. Medicaid. See 18 U.S.C. §§ 1347(a),
1349. Michael’s position is that he had no such goal.
According to Michael, the district court should
have inferred that he lacked the necessary intent
based on a laundry list of things he did not personally

33a
do, including creating Global, recruiting or paying off
bogus beneficiaries, or falsifying certain categories
of documents. See Appellants’ Br. 79. To call this
argument cherry-picking would be a considerable
understatement. Michael asks us to ignore heaps
of relevant evidence showing that he intended to
defraud D.C. Medicaid authorities. To hit just some
of the highlights:
(1) Michael knew about and encouraged Global’s
efforts to fake or destroy records. For example, he
supervised the progress of nurses who used white-out
to alter patient records while auditors were on site
waiting for those records. On another occasion, he
gave Florence’s personnel file to a Global employee
and instructed her to shred it just one day after auditors requested it.
(2) Regardless of whether Michael personally
recruited or paid patients, he knew about and tolerated Global’s practice of keeping patients ineligible
for Medicaid benefits on its rolls. In fact, when
one employee suggested reassessing and discharging
some potentially unfit patients, Michael demurred,
telling the employee to “put a business hat on [his]
head.” Tr. 22 (Oct. 19, 2015 AM).
(3) Michael knew that at least some Global
employees lacked current qualifications required by
D.C. regulations. He directed one staff member to
erase and replace expired dates on employee certifications.
(4) Michael once argued with Florence about the
quality of Global’s document alteration, staking out
the less-than-virtuous position that the results did
not look real enough.
Given this evidence, Michael’s claim that his case
is just like United States v. Rufai, 732 F.3d 1175

34a
(10th Cir. 2013), fails.
There, the defendant,
Olalekan Rufai, assisted a long-time acquaintance by
setting up a company that the acquaintance concededly used to defraud Medicare. Id. at 1193. The
Tenth Circuit reversed Rufai’s health care fraud
conviction, concluding the prosecution “presented no
evidence that Mr. Rufai interacted with Medicare” or
“knew that [his acquaintance] was planning to or did
submit false bills for Medicare reimbursement,” and
Rufai was “never on site when [the company] was
billing Medicare.” Id. How different a position
Michael finds himself in: the government’s evidence
showed Michael did interact with D.C. Medicaid, he
did know Global was falsifying records, and he was
on site for billing and other fraudulent practices.
Perhaps sensing the uphill nature of his climb,
Michael claims for the first time in his reply brief
that multiple government witnesses who testified
about his misdeeds at Global were “inherently
incredible.” Appellants’ Reply Br. 32. As we must
view the evidence in the light most favorable to the
government, Stoddard, 892 F.3d at 1213, the bar
Michael must clear to succeed on the inherently
incredible argument, assuming it is not forfeited, is
high indeed. Credibility determinations are properly
entrusted to the jury. See Johnson v. United States,
426 F.2d 651, 655 (D.C. Cir. 1970) (en banc) (“Of all
the issues which are in the highest order for a jury
one is hard pressed to suggest one more firmly
intended and more plainly suited for jury determination than that of credibility.”). Michael misses that
bar by a mile. His argument rests primarily on the
fact that several of the government’s witnesses were
cooperating co-defendants. But here their cooperator
status alone cannot mean that the testimony was

35a
necessarily “inherently incredible.” His remaining
objections amount to nothing more than quibbles
that the government’s evidence could have been even
stronger on certain issues, but that tells us nothing
about whether the evidence the government actually
presented was strong enough to convict.
Simply put, the government provided ample evidence
for the jury to find beyond a reasonable doubt that
Michael intended to defraud D.C. Medicaid. That
finding, in turn, suffices to sustain his substantive
health care fraud conviction and at least one object
of the health care fraud conspiracy count (namely,
the very health care fraud that is the basis of the
substantive conviction). As with the money laundering conspiracy, then, we need not address whether
the evidence was sufficient to support the second
object the jury found (making false statements in a
health care matter). See Johnson, 216 F.3d at 1165.
Michael’s health care fraud convictions must therefore be affirmed.
VI.
Jury Instructions. Florence and Michael attempt
two challenges to the jury instructions. First, they
claim that the jury should have been charged that it
had to agree unanimously on a single health care
fraud incident. Second, Michael protests the district
court’s decision to give an instruction on aiding and
abetting health care fraud. Because they failed to
raise these issues in the district court, our review is
for plain error. These arguments can only succeed if
“(1) the District Court erred, (2) the error was clear
or obvious, (3) the error affected [their] substantial
rights, and (4) the error ‘seriously affect[ed] the
fairness, integrity or public reputation of judicial
proceedings.’ ” United States v. Moore, 703 F.3d 562,

36a
569 (D.C. Cir. 2012) (quoting United States v. Olano,
507 U.S. 725, 732-36, 113 S.Ct. 1770, 123 L.Ed.2d
508 (1993) (second alteration in original)).
A.
Unanimity. Florence and Michael claim that the
district court erred in failing, without prompting,
to instruct the jurors that they not only had to
unanimously find Florence and Michael guilty of
health care fraud in general, they also all had to
agree on the same particular fraudulent claim for
reimbursement. It is unclear whether they ground
this objection in the Fifth Amendment’s protection
against duplicitous indictments or the Sixth Amendment’s requirement for a unanimous jury verdict.
Either way, however, the argument fails.
We do not consider this issue on a blank slate.
In an unbroken line of precedent stretching back
over thirty years, addressing both Fifth and Sixth
Amendment concerns, this court has repeatedly
declined to find plain error under similar circumstances. United States v. Brown, 892 F.3d 385, 393
(D.C. Cir. 2018) (“Because there is no precedent of
the Supreme Court or this court requiring a district
court to give a special unanimity instruction sua
sponte in circumstances like those in this case, the
district court’s failure to do so cannot constitute plain
error.”); United States v. Hurt, 527 F.3d 1347, 135256 (D.C. Cir. 2008) (“The district court did not plainly
err in failing to deliver a sua sponte special unanimity
instruction.”); United States v. Klat, 156 F.3d 1258,
1266-67 (D.C. Cir. 1998) (“We cannot conclude that
it was plain error not to give a special unanimity
instruction” where “an indictment charges more than
one act.”); United States v. Mangieri, 694 F.2d 1270,
1281 (D.C. Cir. 1982) (“We cannot conclude, however,

37a
that it was plain error not to give the more particularized [unanimity] instruction in this case.”).
Florence and Michael have not pointed to any
intervening legal developments that have changed
that conclusion. They cite three cases to support
their claim that this error was plain, but none help.
Two of these cases — United States v. Bruce, 89 F.3d
886, 890 (D.C. Cir. 1996), and United States v. Clark,
208 F. App’x 137, 141 (3d Cir. 2006) — approved of a
district court’s decision to give a special unanimity
instruction; neither addressed whether failure to give
such an instruction would have been error. The third,
United States v. Adkinson, 135 F.3d 1363, 1377-78
(11th Cir. 1998), does say, in dicta, that failing to
give such an instruction was plain error. But Adkinson relies chiefly on United States v. Gipson, 553
F.2d 453 (5th Cir. 1977), which a plurality of the
Supreme Court has cast significant doubt on, see
Schad v. Arizona, 501 U.S. 624, 635, 111 S.Ct. 2491,
115 L.Ed.2d 555 (1991) (“We are not persuaded that
the Gipson approach really answers the question.”).
The Supreme Court’s misgivings ultimately led this
circuit to reject Gipson’s reasoning in United States
v. Harris, 959 F.2d 246, 255-56 (D.C. Cir. 1992) (per
curiam). Regardless of whether Schad and Harris
leave open the possibility that unanimity might be
required under a theory different from Gipson’s, the
district court here did not plainly err by failing, sua
sponte, to apply out-of-circuit precedent with such a
dubious pedigree. Accordingly, the failure to give a
special unanimity instruction was not plain error.
B.
Aiding-and-Abetting Health Care Fraud. Michael
further claims that the district court plainly erred
when it gave an aiding and abetting instruction on

38a
the health care fraud count. But giving the instruction was not error — much less a plain one —
because the evidence supported it. See supra pp.
[App. 29a-32a] (listing evidence of Michael’s involvement in facilitating Global’s health care fraud).
Moreover, any error was harmless because the
evidence was also sufficient to convict Michael as a
principal. See id.; United States v. Smith, 697 F.3d
625, 637 (7th Cir. 2012) (aiding and abetting instruction was not prejudicial where the “evidence overwhelmingly supported the jury’s guilty verdict based
on [the defendant] acting as the principal”). The
aiding and abetting instruction provides no basis to
overturn the jury’s verdict.
VII.
Sentencing. Finally, Florence and Michael challenge
their sentences, specifically the restitution orders,
forfeiture judgments, and sentencing enhancements
imposed by the district court. We reject each of these
challenges.
A.
Restitution.
As restitution, the district court
ordered Florence and Michael each to pay D.C.
Medicaid approximately $80.6 million. This sum, the
district court found, represented the total payments
from D.C. Medicaid to Global — and thus the total
loss suffered by D.C. Medicaid due to Florence and
Michael’s fraud. Florence and Michael were ordered
to make restitution “jointly and severally” with each
other and the other defendants, meaning each
defendant is liable for D.C. Medicaid’s entire loss,
but D.C. Medicaid may recover no more than that
amount from all of the defendants combined. See
18 U.S.C. § 3664(h); Honeycutt v. United States, –––
U.S. –––, 137 S. Ct. 1626, 1631-32, 198 L.Ed.2d 73

39a
(2017); United States v. Cano-Flores, 796 F.3d 83,
95 (D.C. Cir. 2015). We review restitution orders for
abuse of discretion. United States v. Fair, 699 F.3d
508, 512 (D.C. Cir. 2012).
The Mandatory Victims Restitution Act (“MVRA”)
directs federal courts to impose restitution when
sentencing defendants convicted of various crimes,
including certain frauds in which an identifiable
victim suffered a monetary loss.
18 U.S.C.
§ 3663A(c)(1). In such cases, the district court “shall
order” the defendant to “make restitution to [each]
victim of the offense” in “the full amount of each
victim’s losses as determined by the court and
without consideration of the economic circumstances
of the defendant.” Id. §§ 3663A(a)(1), 3664(f )(1)(A).
Restitution is “essentially compensatory,” not punitive:
it simply “restore[s] a victim, to the extent money
can do so, to the position [the victim] occupied before
sustaining injury.” Fair, 699 F.3d at 512 (quoting
United States v. Boccagna, 450 F.3d 107, 115 (2d Cir.
2006)). Thus, restitution is “limited to the actual,
provable loss suffered by the victim and caused by
the offense conduct.” Id. The burden of proving “the
amount of the loss” is borne by the government, but
the “burden of demonstrating such other matters as
the court deems appropriate shall be upon the party
designated by the court as justice requires.” 18
U.S.C. § 3664(e). The amount of restitution ordered
by a district court must be supported by a preponderance of the evidence. Id.
Florence and Michael contest the amounts of their
restitution. They argue that the government did not
carry its burden of proving loss because the evidence
failed to distinguish between fraudulent services and
“legitimate services” performed by Global. Appellants’

40a
Br. 85-87. By legitimate services, Florence and
Michael appear to mean the necessary services that
Global personal care aides actually provided to real
Medicaid beneficiaries. See id. at 85. Amounts paid
for such services, they argue, were not “losses”
suffered by D.C. Medicaid. After all, in exchange
for such payments, beneficiaries received necessary
services covered by D.C. Medicaid, and if the payments had not gone to Global, they simply would
have gone to a different provider. Thus, because D.C
Medicaid did not lose the entire $80.6 million it paid
to Global, restitution in that amount violates the
MVRA. See id. at 86-88.
As the district court acknowledged, there was
testimony presented at trial about legitimate services
being both needed and provided by Global personal
care aides to D.C. Medicaid beneficiaries. But the
district court found that “the defendants’ fraud makes
it impossible to determine what, if any, services were
legitimately rendered, let alone what the [values]
associated with those legitimate services are.” Tr. 34
(June 1, 2016 AM). “Not only were the time sheets
falsified, but the defendants also supervised and
directed the creation of phony employee background
checks, fake nurse notes, and fraudulent plans of care.”
Id. This “rampant fraud . . . permeated Global’s
operations,” potentially infecting “every patient and
employee file there.” Id. at 36.
Due to the pervasive fraud, Florence and Michael
were “in a much better position than the government
to ascertain the particular facts at issue,” specifically
whether any services were truly legitimate. Fair, 699
F.3d at 515. Indeed, on this record, only they know
the full extent of their fraudulent operations, so they
were far better-equipped to identify any services that

41a
were unaffected by fraud in licensing, care plans,
provision, or billing.
In such circumstances, although the ultimate
burden of proving loss always remains with the
government, the MVRA authorizes the district court
to place on the defendant a burden of producing evidence of any legitimate services. 18 U.S.C. § 3664(e);
see Fair, 699 F.3d at 515 (citing United States v.
Archer, 671 F.3d 149, 173 (2d Cir. 2011)). If the
defendant carries this burden of production, the
prosecution must then prove the fraudulent nature
of those services. See Archer, 671 F.3d at 173. But,
if the defendant does not produce evidence of
legitimate services, the prosecution need not show
that each and every service was fraudulent. Rather,
the prosecution may rely on the existence of a pervasive fraud to argue that all services were infected by
fraud in some way, and therefore that payments for
all services represent loss under the MVRA. See id.
at 173-74. The district court then determines the
amount lost by a preponderance of the evidence.
18 U.S.C. §§ 3663A(a)(1), 3664(e). This approach
helps ensure that fraudsters do not benefit from the
comprehensive alteration of their own records. See
Fair, 699 F.3d at 515; United States v. Hebron, 684
F.3d 554, 563 (5th Cir. 2012).
Here, against significant evidence of pervasive
fraud, Florence and Michael failed to produce any
specific evidence of the value of any legitimate
services. Indeed, the district court found that they
“haven’t even attempted to undertake that daunting
task because they likely can’t tell” whether any
services were legitimate. Tr. 35 (June 1, 2016 AM).
“Certainly, no witness at trial . . . who worked at
Global was able to say which employee or patient

42a
files might have been completely legitimate and
clean of fraud.” Id. Because Florence and Michael
did not carry their burden of production as to
any legitimate services, the district court properly
concluded that the $80.6 million in payments from
D.C. Medicaid to Global constituted loss under the
MVRA.
B.
Forfeiture. The district court also ordered Florence
and Michael each to forfeit approximately $39.7
million (for the health care fraud offenses) and $40.0
million (for the money laundering offenses) to be
assessed concurrently, meaning that money forfeited
by Florence counts toward her forfeiture judgments
for both health care fraud and money laundering,
and the same goes for Michael. In total, therefore,
each must forfeit approximately $40.0 million.
To calculate the forfeitures, the district court first
found that Global’s Medicaid proceeds of approximately $80 million (less a few minor deductions)
were subject to forfeiture under the statutes for both
health care fraud, 18 U.S.C. § 982(a)(7), and money
laundering, id. § 982(a)(1). The court then divided
the approximately $80 million equally between Florence and Michael, reasoning that they were “equally
responsible” and should each forfeit half of the funds
because they “jointly obtained . . . the illicit funds
through their shared management and control over
Global, and they effectively treated the proceeds as
joint property.” Tr. 27-28 (Apr. 27, 2016 AM). The
court also ordered Florence and Michael to forfeit
specific pieces of property, including cash, vehicles,
jewelry, and real property, with the values of the
forfeited properties to be credited on a fifty-fifty basis
toward each of their forfeiture money judgments.

43a
Reviewing such forfeiture judgments, we examine
the district court’s fact finding for clear error and its
legal interpretations de novo. United States v. Emor,
785 F.3d 671, 676 (D.C. Cir. 2015).
Florence and Michael contest the forfeiture
judgments in three ways; none is persuasive. First,
they argue that the relevant statutes do not authorize forfeiture of the entire $80 million. A defendant
convicted of health care fraud must forfeit property
“that constitutes or is derived, directly or indirectly,
from gross proceeds traceable to the commission of
the [health care fraud] offense.” 18 U.S.C. § 982(a)(7).
This does not cover Global’s total proceeds, they
maintain, because the Medicaid payments for certain
legitimate services were not connected to the health
care fraud offenses.
Their argument overlooks the breadth of the
forfeiture statute: “Gross proceeds traceable to” the
fraud include “the total amount of money brought in
through the fraudulent activity, with no costs deducted or set-offs applied.” United States v. Poulin, 461
F. App’x 272, 288 (4th Cir. 2012); cf. United States
v. DeFries, 129 F.3d 1293, 1313-15 (D.C. Cir. 1997)
(rejecting the argument that forfeiture of RICO
“proceeds” should be reduced to reflect defendants’
tax payments). And whereas other forfeiture statutes
allow credit for “lawful services,” see, e.g., 18 U.S.C.
§ 981(a)(2)(B), the statute for health care fraud does
not. Here, the district court found that Global “would
not have operated but for [each] defendant’s fraud,”
and that the approximately $80 million “was only
paid due to the defendants’ persistent and rampant
fraudulent conduct.” Preliminary Order of Forfeiture
(“Florence POF”), United States v. Florence Bikundi,
No. 1:14-cr-0030-1 (D.D.C. Apr. 22, 2016), ECF No.

44a
493 at 3 (emphasis added); Preliminary Order of
Forfeiture (“Michael POF”), United States v. Michael
Bikundi, No. 1:14-cr-0030-2 (D.D.C. Apr. 22, 2016),
ECF No. 494 at 3 (emphasis added); Tr. 27 (Apr. 27,
2016 AM) (emphasis added); see also Tr. 33 (June 1,
2016 AM) (incorporating Tr. 25 (Apr. 27, 2016 AM):
Global’s “continuing operations were maintained based
on fraudulent records in employee and patient files
and fraudulent timesheets submitted for reimbursement”). Because the pervasive fraud was integral
to each and every Medicaid payment to Global, the
district court properly determined that the total
payments “constitute[d]” or were “derived, directly
or indirectly” from “gross proceeds traceable” to each
of their health care fraud offenses.
18 U.S.C.
§ 982(a)(7).
Florence and Michael also argue that neither of
their concurrent forfeitures for money laundering
are authorized by statute. A defendant convicted of
money laundering must forfeit “any property, real or
personal, involved in such offense, or any property
traceable to such property.” Id. § 982(a)(1). The
district court calculated these forfeitures by starting
with approximately $80.6 million, i.e., “the total
value of D.C. Medicaid payments” deposited into
three Global Intake Accounts. Florence POF at 4;
Michael POF at 4. The district court then reduced
that sum by the balance remaining in the Global
Intake Accounts, which represented “the value of
property that was not transferred out of a Global Intake Account into other financial accounts controlled
by the defendants.” Id. This left a “forfeiture amount”
of approximately $80 million ($79,979,712.05, to be
exact), which the court divided equally between

45a
Florence and Michael by ordering each to forfeit
approximately $40 million. Id.
Florence and Michael challenge this calculation by
pointing out that the government showed only that
seven transactions (amounting to $2.61 million)
constituted actual money laundering. This argument
was not raised in the district court, so we review its
merits for plain error. See Brown, 892 F.3d at 397.
This argument ignores that the money laundering
forfeiture statute applies not only to funds that
are actually laundered — here, the $2.61 million —
but also to those more broadly “involved in” money
laundering. 18 U.S.C. § 982(a)(1). The statute
sweeps broadly because “money laundering largely
depends upon the use of legitimate monies to
advance or facilitate the scheme.” United States v.
Puche, 350 F.3d 1137, 1153 (11th Cir. 2003) (quoting
United States v. Tencer, 107 F.3d 1120, 1135 (5th Cir.
1997)). Although we have not addressed the issue,
other circuits have held that funds “involved in”
money laundering include those that “facilitate” the
money laundering scheme, which encompasses unlaundered funds when they are transferred “in order
to conceal the nature and source” of fraudulent proceeds. See id.; United States v. McGauley, 279 F.3d
62, 76-77 (1st Cir. 2002); United States v. Baker,
227 F.3d 955, 969-70 (7th Cir. 2000); United States
v. Bornfield, 145 F.3d 1123, 1135 (10th Cir. 1998);
Tencer, 107 F.3d at 1134-35. The government offered
evidence that Florence and Michael used unlaundered funds to facilitate the money laundering conspiracy and conceal their proceeds by, for example,
“shuffl[ing] fraud proceeds and commingled untainted
funds through multiple corporate, personal, investment,
trust, and international accounts” and “utiliz[ing]

46a
commingled funds in corporate accounts in the name
of CFC and Tri-Continental to create the appearance
that they had a legitimate real estate investment
business and an import-export business.” Gov’t Mot.
for Preliminary Order of Forfeiture, United States v.
Florence Bikundi, No. 1:14-cr-0030-1 (D.D.C. Jan. 21,
2016), ECF No. 426 at 18-20; Gov’t Mot. for Preliminary Order of Forfeiture, United States v. Michael
Bikundi, No. 1:14-cr-0030-2 (D.D.C. Jan. 21, 2016),
ECF No. 427 at 18-20. Based on this evidence, the
district court found that the funds transferred out
of Global’s Intake Accounts were “involved in” the
offense because they facilitated the money laundering conspiracy, and the funds were thus subject to
forfeiture under § 982(a)(1). Florence POF at 4;
Michael POF at 4. Given the lack of controlling
precedent in our circuit and the state of the law
elsewhere, we cannot say the district court plainly
erred.
Second, Florence and Michael contend that the
forfeiture judgments are inconsistent with Honeycutt
v. United States, ––– U.S. –––, 137 S. Ct. 1626, 198
L.Ed.2d 73 (2017), because they impose joint and
several liability. There, the Supreme Court held that
the drug-crime forfeiture statute does not authorize
joint and several liability; instead, such forfeiture
“is limited to property the defendant himself actually
acquired as the result of the [drug] crime.” Id. at
1635. Florence and Michael maintain that Honeycutt’s logic extends to the forfeiture statutes at issue
here, limiting their forfeitures to the criminal
proceeds personally attributable to each defendant
and “no other.” Appellants’ Br. 89-90 & n.37 (citing
United States v. Sanjar, 876 F.3d 725, 749 (5th Cir.

47a
2017), which applied Honeycutt in the context of a
forfeiture under § 982(a)(7)).
The forfeiture statutes at issue in this case arguably define forfeitable property more broadly than
that in Honeycutt, so it is unclear whether Honeycutt’s logic extends to Florence’s and Michael’s forfeitures. Compare 18 U.S.C. § 982(a)(1), (7) (subjecting
to forfeiture the property “involved in” money laundering and the “gross proceeds traceable to” a health
care fraud), with 21 U.S.C. § 853(a)(1) (subjecting
to forfeiture the drug-crime proceeds “obtained” by a
defendant). But we need not resolve that question
because the forfeitures here do not impose joint and
several liability. In calculating the forfeitures under
both § 982(a)(1) and § 982(a)(7), the district court
found that both Florence and Michael were integrally
involved with Global’s fraudulent operations, and thus
they “jointly obtained” and were “equally responsible
for” the criminal proceeds. Tr. 27-28 (Apr. 27, 2016
AM). Based on that finding, the court ordered each
defendant to forfeit half of the criminal proceeds.
That’s not joint and several liability, but rather an
equal division of liability between the two masterminds of the conspiracy. And since Florence and
Michael “effectively treated the proceeds as joint
property,” id., ordering them each to forfeit half of
the proceeds reasonably ensured that the forfeiture
judgments did not exceed an amount that each
defendant “actually acquired,” Honeycutt, 137 S. Ct.
at 1635.
Third, Florence and Michael argue that the forfeiture judgments violate the Eighth Amendment,
which prohibits “excessive fines.” U.S. Const. amend.
VIII. “[A]t the time the Constitution was adopted,
the word ‘fine’ was understood to mean a payment to

48a
a sovereign as punishment for some offense.” United
States v. Bajakajian, 524 U.S. 321, 327, 118 S.Ct.
2028, 141 L.Ed.2d 314 (1998) (internal quotation
marks omitted). The Excessive Fines Clause thus
“limits the government’s power to extract payments,
whether in cash or in kind, as punishment for some
offense.” Timbs v. Indiana, ––– U.S. –––, 139 S. Ct.
682, 687, 203 L.Ed.2d 11 (2019) (quoting Bajakajian,
524 U.S. at 328, 118 S.Ct. 2028). “Our analysis
under the Excessive Fines Clause entails two steps:
(1) determining whether the government extracted
payments for the purpose of punishment; and
(2) assessing whether the extraction was excessive.
The first step determines whether the Excessive
Fines Clause applies, and the second determines if
the Clause was violated.” Consol. Commc’ns of Cal.
Co. v. FCC, 715 F. App’x 13, 15 (D.C. Cir. 2018)
(unpublished per curiam) (citation omitted); see
Bajakajian, 524 U.S. at 328, 334, 118 S.Ct. 2028.
At the first step, the district court held that the
Clause does not apply because the forfeitures were
not punitive, but rather “purely remedial.” Tr. 32-33
(Apr. 27, 2016 AM). Florence and Michael argue that
this was error, see Appellants’ Br. 91-92, but we need
not address the issue. For even if the forfeitures
are punitive and thus the Excessive Fines Clause
applies, the forfeitures do not run afoul of the Clause
at the second step.
A punitive forfeiture violates the Excessive Fines
Clause “if it is grossly disproportional to the gravity
of a defendant’s offense.” Bajakajian, 524 U.S. at
334, 118 S.Ct. 2028. At the outset, we “note the
Court’s admonition that, though this is a constitutional injury, ‘judgments about the appropriate
punishment for an offense belong in the first instance

49a
to the legislature.’ ” Collins v. SEC, 736 F.3d 521,
527 (D.C. Cir. 2013) (quoting Bajakajian, 524 U.S. at
336, 118 S.Ct. 2028). In authorizing large forfeiture
judgments for the crimes of which Florence and
Michael were convicted, Congress determined that
the offenses are grave, which carries significant
weight in our analysis. See id. Moreover, the total
forfeiture levied against Florence and Michael for
health care fraud corresponds one-to-one to the amount
they derived from their fraud, and the total forfeiture
levied concurrently for money laundering likewise
corresponds one-to-one to funds involved in that
crime. Given the close match between the amounts
of the illicit funds and the ensuing judgments,
the penalties were not “grossly disproportional” to
Florence’s and Michael’s crimes.
Bajakajian confirms this conclusion. There, the
Supreme Court discussed four factors: (1) the essence
of the crime; (2) whether the defendant fit into the
class of persons for whom the statute was principally
designed; (3) the maximum sentence and fine that
could have been imposed; and (4) the nature of
the harm caused by the defendant’s conduct. See
Bajakajian, 524 U.S. at 337-40, 118 S.Ct. 2028; see
also United States v. Varrone, 554 F.3d 327, 331 (2d
Cir. 2009) (describing the four factors). These factors
“hardly establish a discrete analytic process,” but
we have “review[ed] them briefly to see if there
are danger signals” when upholding a civil penalty
challenged under the Excessive Fines Clause.
Collins, 736 F.3d at 526-27.
All four factors confirm that the forfeitures
imposed against Florence and Michael do not violate
the Excessive Fines Clause. (1) The essence of their
crime was grave. They personally orchestrated a

50a
sprawling fraud involving falsified licenses, timesheets,
and bills. And far from being a one-off violation,
the scheme lasted for years and involved numerous
misdeeds. (2) Florence and Michael fall squarely
within the class of criminals targeted by the relevant
forfeiture statutes: health care fraudsters and money
launderers. (3) The statutes of conviction and the
Sentencing Guidelines authorize heavy prison sentences and fines. See 18 U.S.C. § 1347(a) (10-year
maximum prison sentence for health care fraud); id.
§ 1956(a)(1) (20-year maximum sentence for money
laundering, along with a fine of twice the value of
the property involved in the money laundering transaction); U.S.S.G. §§ 2B1.1, 3B1.1, 3B1.3, 2S1.1, 5A.
(4) Florence and Michael caused significant harm by
defrauding D.C. Medicaid out of millions of dollars
meant for the needy. Such harm is unlike that
deemed “minimal” in Bajakajian, where the defendant
failed to follow a reporting requirement, “[t]here was
no fraud on the United States, and [the defendant]
caused no loss to the public fisc.” 524 U.S. at 339,
118 S.Ct. 2028.
Florence and Michael ask us to consider one more
factor: their ability to pay the forfeitures. On their
telling, the forfeitures are grossly disproportional
because the forfeitures are “so large that Appellants
will surely never be able to pay them,” and they
effectively “sentence Appellants to lifetimes of bankruptcy.” Appellants’ Br. 91.5 Because Florence and
5 Although most circuits assess proportionality without
considering a defendant’s ability to pay, see, e.g., United States
v. Beecroft, 825 F.3d 991, 997 n.5 (9th Cir. 2016); United States
v. Smith, 656 F.3d 821, 828-29 (8th Cir. 2011); United States
v. 817 N.E. 29th Drive, 175 F.3d 1304, 1311 (11th Cir. 1999),
appellants’ argument draws support from the First Circuit, see
United States v. Levesque, 546 F.3d 78, 84-85 (1st Cir. 2008),

51a
Michael did not raise this argument in the district
court, we will reverse only if the district court plainly
erred, meaning that the error must be “obvious” or
“clear under current law.” Hurt, 527 F.3d at 1356;
United States v. Sumlin, 271 F.3d 274, 281 (D.C. Cir.
2001). That did not occur here. The Excessive Fines
Clause does not make obvious whether a forfeiture
is excessive because a defendant is unable to pay,
and “[n]either the Supreme Court nor this court has
spoken” on that issue. Hurt, 527 F.3d at 1356; see
Timbs, 139 S. Ct. at 688 (noting that the Supreme
Court has “tak[en] no position on the question
whether a person’s income and wealth are relevant
considerations in judging the excessiveness of a fine”
(citing Bajakajian, 524 U.S. at 340 n.15, 118 S.Ct.
2028)). Thus, the district court did not plainly violate
the Excessive Fines Clause by ordering forfeitures
without considering Florence’s and Michael’s ability
to pay them.
C.
Sentencing Enhancements. Finally, Florence and
Michael challenge four of the sentencing enhancements imposed by the district court. Both challenge
the enhancements for (1) committing crimes involving
and from scholarship arguing that the original meaning of the
Excessive Fines Clause prohibits fines so severe as to deprive a
defendant of his or her “contenement” or livelihood, understood
as the ability to secure the necessities of life, see Nicholas M.
McLean, Livelihood, Ability to Pay, and the Original Meaning of
the Excessive Fines Clause, 40 Hastings Const. L.Q. 833, 854-72
(2013). In a similar vein, the Supreme Court recently described
the Clause as tracing its “venerable lineage” back to Magna
Carta, which safeguarded the “contenement” of Englishmen and
“required that economic sanctions . . . not be so large as to
deprive an offender of his livelihood.” Timbs, 139 S. Ct. at 68788 (citations, internal quotation marks, and brackets omitted).

52a
a loss of approximately $80 million and (2) abusing
positions of trust. Michael challenges his enhancement for (3) playing a managerial role in the crimes,
and Florence contests hers for (4) violating an administrative order. Upon appeal of such enhancements,
“[p]urely legal questions are reviewed de novo; factual
findings are to be affirmed unless clearly erroneous;
and we are to give due deference to the district court’s
application of the [sentencing] guidelines to facts.”
United States v. Vega, 826 F.3d 514, 538 (D.C. Cir.
2016) (quoting United States v. Day, 524 F.3d 1361,
1367 (D.C. Cir. 2008)). Due deference “presumably
falls somewhere between de novo and clearly erroneous.” United States v. Bisong, 645 F.3d 384, 397
(D.C. Cir. 2011) (quoting United States v. Kim, 23
F.3d 513, 517 (D.C. Cir. 1994) (alterations omitted)).
1.
Loss Amount. First, the enhancements for loss.
The Sentencing Guidelines provide that, for crimes
such as Florence and Michael’s fraud, the offense
level is to be increased based on the loss involved.
See U.S.S.G. § 2B1.1(b)(1). The district court increased
Florence’s and Michael’s respective offense levels by
twenty-eight points based on a loss of approximately
$80 million — the total amount D.C. Medicaid paid
to Global. See U.S.S.G. § 2B1.1(b)(1)(M) (24-point
increase when loss exceeds $65 million); id. § 2B1.1(b)(7)
(additional 4-point increase when loss exceeds $20
million and the offense involves a federal health care
program). Reprising its earlier argument against
the MVRA loss, Florence and Michael contend that
D.C. Medicaid did not suffer a Guidelines loss of $80
million because Global performed some legitimate
services. Just as this argument failed earlier, it fails
here. The district court properly applied the Guide-

53a
lines’ rules for calculating loss, particularly the general rule, the special rule, and the credit rule.
Under the “general rule” of Guidelines § 2B1.1, loss
is “the greater of actual loss or intended loss.”
U.S.S.G. § 2B1.1 cmt. n.3(A). Actual loss is “the
reasonably foreseeable pecuniary harm that resulted
from the offense”; intended loss is “the pecuniary
harm that was intended to result from the offense.”
Id. cmt. n.3(A)(i)-(ii). The Guidelines also provide a
“special rule” that “shall be used to assist in determining loss” when sentencing defendants “convicted
of a Federal health care offense involving a Government health care program.” Id. cmt. n.3(F)(viii).
There, “the aggregate dollar amount of fraudulent
bills submitted to the Government health care
program shall constitute prima facie evidence of the
amount of the intended loss.” Id. This evidence is
“sufficient to establish the amount of the intended
loss, if not rebutted.” Id.
Here, the district court properly found that the
pervasive fraud at Global meant that approximately
$80 million was fraudulently billed. Indeed, as
discussed already in Sections VII.A and B, Global
“would not have operated but for [each] defendant’s
fraud,” and approximately $80 million “was only paid
due to the defendants’ persistent and rampant
fraudulent conduct.” Florence POF at 3; Michael
POF at 3; Tr. 27 (Apr. 27, 2016 AM). That amount
constituted “the aggregate dollar amount of fraudulent bills submitted to the Government health care
program.” U.S.S.G. § 2B1.1 cmt. n.3(F)(viii). Under
the special rule, these fraudulent billings are “sufficient to establish the intended loss,” unless rebutted,
which Florence and Michael made no effort to do. Id.

54a
Approximately $80 million was therefore the appropriate Guidelines loss.6
Florence and Michael object that they performed
some legitimate services, so the loss calculation
should have been reduced under what we will call
the Guidelines’ “credit rule.” See Appellants’ Br. 9596. This rule directs that “loss shall be reduced by
. . . the fair market value of . . . the services rendered
. . . by the defendant or other persons acting jointly
with the defendant, to the victim before the offense
was detected.” U.S.S.G. § 2B1.1 cmt. n.3(E)(i).
The government suggests that the credit rule is
overridden by the special rule for calculating loss in
health care fraud cases. See Appellee’s Br. 112-13.
On this point, however, we agree that both rules
apply in health care fraud cases. The special rule
states that it applies “[n]otwithstanding” the general
rule, but makes no such exception for the credit rule.
U.S.S.G. § 2B1.1 cmt. n.3(F). Furthermore, “the
drafters of [the loss rules] knew how to indicate that
no credits would be permitted.” United States v.
Nagle, 803 F.3d 167, 182 (3d Cir. 2015). For example,
the special rule for misrepresentation schemes requires
that loss be calculated without using the credit rule
to reduce loss according to the value of the misrepresented services. See U.S.S.G. § 2B1.1 cmt. n.3(F)(v).
But not so for health care fraud cases. Because “the
6 One clarifying point: although Global billed D.C. Medicaid
for approximately $81 million, the district court calculated the
“fraudulent bills” as $80 million based on the amount D.C. Medicaid paid to Global. That may have been an error because only
fraudulent bills, not actual payments, establish intended loss
under the special rule. See U.S.S.G. § 2B1.1 cmt. n.3(F)(viii).
Any error, however, was harmless because it resulted in a lower
loss calculation: approximately $80 million instead of $81
million.

55a
Sentencing Commission speaks clearly when it wants
to exempt specific types of cases from the default
practice of crediting against loss the value of services
rendered by the defendant,” the credit rule applies
here. United States v. Harris, 821 F.3d 589, 605 (5th
Cir. 2016); accord Nagle, 803 F.3d at 182.
Even under the credit rule, Florence and Michael
fail to show that the loss calculation should be
reduced by the value of services rendered. U.S.S.G.
§ 2B1.1 cmt. n.3(E)(i). The overall burden of proving
loss under the Guidelines always remains with the
government. See In re Sealed Case, 552 F.3d 841,
846 (D.C. Cir. 2009). But for the same reasons that
the district court may place on a defendant the
burden of producing evidence of legitimate services
when calculating restitution, see supra Section VII.A,
the district court may impose on a defendant the
burden of producing evidence of “services rendered”
with a market value warranting credit under the
credit rule. As we previously explained, Florence and
Michael did not produce evidence of such services
with any specificity, see id., so the district court
properly refused to use the credit rule to reduce the
loss calculation. We therefore affirm the Guidelines
loss calculation and the accompanying enhancements.
2.
Abuse of Trust. Florence and Michael also challenge the enhancements they received for abusing
positions of trust, which increased their offense levels
by two points. This enhancement applies if a defendant “abused a position of public or private trust . . .
in a manner that significantly facilitated the commission or concealment of the offense.” U.S.S.G. § 3B1.3.
A position of trust is “characterized by professional or
managerial discretion (i.e., substantial discretionary
judgment that is ordinarily given considerable defer-

56a
ence).” Id. cmt. n.1. “Persons holding such positions
ordinarily are subject to significantly less supervision
than employees whose responsibilities are primarily
non-discretionary in nature,” and the position “must
have contributed in some significant way to facilitating the commission or concealment of the offense
(e.g., by making the detection of the offense or the
defendant’s responsibility for the offense more difficult).” Id. We have embraced the following factors
as guides in determining whether a defendant held a
position of trust:
The extent to which the position provides the
freedom to commit a difficult-to-detect wrong,
and whether an abuse could be simply or readily
noticed; defendant’s duties as compared to those of
other employees; defendants’ level of specialized
knowledge; defendant’s level of authority in the
position; and the level of public trust.
United States v. Robinson, 198 F.3d 973, 977 (D.C.
Cir. 2000) (quoting United States v. Shyllon, 10 F.3d
1, 5 (D.C. Cir. 1993)).
Until now, we have not addressed “whether those
who seek payment from the government for the
provision of medical services” — like Florence and
Michael — “occupy positions of trust vis-à-vis the
government.” United States v. Wheeler, 753 F.3d
200, 209 (D.C. Cir. 2014). The majority of circuits
that have considered the issue have held that certain
providers may, id. at 209-10 (citing four other circuits),
but the Eleventh Circuit has disagreed, see United
States v. Williams, 527 F.3d 1235, 1250 (11th Cir.
2008).
Consistent with the majority of circuits, we hold
that Florence and Michael occupied and abused a
position of trust. DHCF depended on Florence and

57a
Michael to properly exercise substantial discretion,
which is the touchstone of our inquiry under the
Sentencing Guidelines. See U.S.S.G. § 3B1.3 cmt. n.1.
For example, although DHCF has some ability to
police home care agencies through licensing and
audits, DHCF entrusts agencies like Global with
ensuring that actual beneficiaries receive adequate
services from qualified aides based on appropriate
plans of care, and DHCF relies on the leaders of such
agencies to maintain records and submit bills that
accurately reflect such services. These responsibilities are not rote paperwork-processing. Rather, they
call for decisions and judgments that occur outside
of DHCF’s “supervision” and receive considerable
“deference” from DHCF, id., leaving the leaders of
home care agencies with ample “freedom to commit a
difficult-to-detect wrong,” Robinson, 198 F.3d at 977
(internal quotation marks omitted). In exercising
their discretion, the leaders of home care agencies
are invested with weighty duties and a high “level
of public trust,” id., because their actions affect
the receipt of necessary health care by individual
Medicaid beneficiaries and, more generally, the continuing effectiveness of the D.C. Medicaid program.
Instead of honoring that public trust, Florence and
Michael used their positions to commit and conceal
numerous offenses.
Florence and Michael claim that the enhancement
can’t apply because they had only “an arm’s-length
business relationship” with D.C. Medicaid, not the
“fiduciary relationship” commonly present in abuseof-trust cases, such as those involving doctors or
other medical professionals. Appellants’ Br. 102,
106. But the plain text of the Sentencing Guidelines
and their application notes do not require a fiduciary

58a
relationship. Rather, they examine whether a defendant’s position was characterized by “professional or
managerial discretion,” U.S.S.G. § 3B1.3 cmt. n.1,
which may be exercised by defendants who are not
physicians and run commercial entities, such as
Global, see, e.g., United States v. Adebimpe, 819 F.3d
1212, 1219 (9th Cir. 2016) (applying the enhancement
to medical equipment suppliers because “Medicare
entrusted [them] with ‘substantial discretionary
judgment’ in selecting the proper equipment, and
gave them ‘considerable deference’ in submitting
claims that accurately reflected patients’ medical
needs” (citing U.S.S.G. § 3B1.3 cmt. n.1)); United
States v. Willett, 751 F.3d 335, 344-45 (5th Cir. 2014)
(medical equipment supplier); United States v. Bolden,
325 F.3d 471, 504-05 (4th Cir. 2003) (nursing home
administrator); United States v. Gieger, 190 F.3d 661,
665 (5th Cir. 1999) (ambulance company owners).
Florence and Michael also assert that they did not
abuse a position of trust because they did not submit
bills directly to DHCF, but rather used medical billing companies owned by Edward Mokam. In support,
Florence and Michael invoke an Eleventh Circuit
case, United States v. Garrison, which held that a
fiscal intermediary made the defendant’s relationship
with Medicare “too attenuated” for the abuse-of-trust
enhancement. 133 F.3d 831, 842 (11th Cir. 1998).
Because this argument is made for the first time on
appeal, we review for plain error. See Brown, 892
F.3d at 397.
We find no plain error because the case they invoke
is from another circuit and it is easily distinguishable
from this case. In Garrison, the intermediary was
“charged with the responsibility of ensuring that
Medicare payments [were] made to healthcare

59a
providers only for covered services.” 133 F.3d at 834.
To that end, the intermediary shouldered a “specific
responsibility . . . to review and to approve requests
for Medicare reimbursement before submitting those
claims to Medicare for payment,” and the intermediary could reject or adjust claims, including when it
determined that the claims involved fraud or willful
misrepresentation. Id. at 834 & n.5, 841. The intermediary here, Mokam, lacked comparable obligations.
He submitted bills based on the timesheets and documents provided by Global, which he assumed were
correct. Mokam was not responsible for investigating
whether services were legitimate, nor certifying that
the information contained in the bills was truthful.
If anything, this case resembles United States v.
Adebimpe, which involved an intermediary who
performed only “limited review,” i.e., processing
and certifying claims “as a matter of course, rather
than scrutinizing their validity.” 819 F.3d 1212,
1220 (9th Cir. 2016). Distinguishing Garrison, the
Ninth Circuit explained that the “mere presence” of
such an intermediary “d[id] not destroy the defendants’ position of trust with respect to Medicare.” Id.
This case is likewise distinguishable from Garrison,
which in any event is out-of-circuit authority. The
district court therefore did not plainly err in applying
the abuse-of-trust enhancement despite Mokam’s
involvement.
Finally, Florence and Michael point out that the
Guidelines prohibit the enhancement when “an
abuse of trust . . . is included in the base offense level
or specific offense characteristic.” U.S.S.G. § 3B1.3.
Their federal health care offenses, they say, already
accounted for an abuse of trust. See U.S.S.G. § 2B1.1(b)(7).
We again review for plain error. See Brown, 892
F.3d at 397.

60a
Florence and Michael rely once more on Garrison,
which held in the alternative that the enhancement
could not be used when the conduct that formed the
abuse of trust was also the basis for the underlying
fraud. See 133 F.3d at 843. But the Eleventh Circuit
itself has since called Garrison’s conduct-based
approach “dicta.” United States v. Bracciale, 374 F.3d
998, 1007, 1009 (11th Cir. 2004). And other circuits
have applied the enhancement to defendants convicted
of Medicare and Medicaid fraud, rejecting the argument that “an abuse of trust is the essence of the
crime and therefore is already accounted for in the
base level offense.” United States v. Ntshona, 156
F.3d 318, 320 (2d Cir. 1998) (per curiam); see also
United States v. Loving, 321 F. App’x 246, 249 (4th
Cir. 2008) (unpublished per curiam). Given this
state of the law, plain error did not occur. We affirm
the abuse-of-trust enhancements.
3.
Managerial Role. Although both Florence and
Michael received enhancements for their aggravating
roles in the conspiracy, only Michael challenges the
enhancement on appeal. Michael’s offense level was
increased by three points under the managerial-role
enhancement, which applies if the defendant “was
a manager or supervisor (but not an organizer or
leader) and the criminal activity involved five or
more participants or was otherwise extensive.”
U.S.S.G. § 3B1.1(b). Applying this enhancement,
courts “should consider” the following factors:
[T]he exercise of decision making authority, the
nature of participation in the commission of the
offense, the recruitment of accomplices, the claimed
right to a larger share of the fruits of the crime, the
degree of participation in planning or organizing

61a
the offense, the nature and scope of the illegal
activity, and the degree of control and authority
exercised over others.
Id. cmt. n.4. No single factor is dispositive, but
all defendants receiving the enhancement “must
exercise some control over others.” United States v.
Olejiya, 754 F.3d 986, 990 (D.C. Cir. 2014) (quoting
United States v. Graham, 162 F.3d 1180, 1185 (D.C.
Cir. 1998)).
Michael argues that he played “a lesser role” at
Global and did not control Global employees or
manage the conspiracy. Appellants’ Br. 107. But as
explained in Section V, that is not what the evidence
showed. To the contrary, Michael managed and
supervised the health care fraud and money laundering conspiracies through his control of Global
employees. He was, as the district court found,
“integrally involved as a boss at Global.” Tr. 54
(June 1, 2016 AM).
4.
Violation of Administrative Order. Finally, Florence
contests the two-level enhancement she received
because her fraud involved a knowing “violation of [a]
prior, specific . . . administrative order,” specifically
the HHS order excluding her from participating in
federal health care programs. U.S.S.G. § 2B1.1(b)(9)(C)
& cmt. n.8(c).
To challenge this enhancement,
Florence reiterates that she did not know she had
been excluded. See Appellants’ Br. 107. The evidence,
however, supported that Florence knew. See supra
Section V.B.
For the foregoing reasons, we affirm the convictions
and sentences of Florence and Michael.
So ordered.

62a
Rogers, Circuit Judge, concurring:
I join the court’s opinion and write separately
regarding the government’s failure to comply with
Rule 16 of the Federal Rules of Criminal Procedure.
Rule 16 requires the government to produce, upon
a defendant’s request, “books, papers, documents,
data, photographs, tangible objects, buildings or
places,” if the item is “within the government’s
possession, custody, or control and: (i) the item is
material to preparing the defense; (ii) the government
intended to use the item in its case-in-chief at trial;
or (iii) the item was obtained from or belongs to the
defendant.” Fed. R. Crim. Pro. 16(a)(1)(E). Over time,
Rule 16 has been amended to provide for broader
discovery in criminal prosecutions. Adv. Comm. Note
to 1993 Amendment; Adv. Comm. Note to 1966
Amendment; see also 2 CHARLES ALAN WRIGHT &
ARTHUR R. MILLER, FEDERAL PRACTICE & PROCEDURE
§ 251 (4th ed. 2018). The Supreme Court and this
court have recognized that broad discovery promotes
informed plea decisions, minimizes unfair surprise,
and helps ensure guilt is accurately determined.
Wardius v. Oregon, 412 U.S. 470, 473-74, 93 S.Ct.
2208, 37 L.Ed.2d 82 (1973); United States v. Marshall,
132 F.3d 63, 69-70 (D.C. Cir. 1998); United States v.
Machado-Erazo, 901 F.3d 326, 339-40 (D.C. Cir. 2018)
(Rogers, J., concurring); see also Adv. Comm. Notes
to 1993 and 1974 Amendments.
In determining the scope of obligations under Rule
16, this court has looked to “the plain language” of
the Rule. For instance, the court held that as written
the Rule does not compel the conclusion that inculpatory evidence is immune from disclosure, reasoning
that “just as important to the preparation of a
defense [is] to know its potential pitfalls as it is to

63a
know its strengths.” Marshall, 132 F.3d at 67.
Defense counsel in the instant case requested well
before trial, in July 2015, that the government identify “all patients” alleged to be involved with Global
Healthcare’s Medicaid submissions and “false and
fraudulent claims.” The trial date was continued on
multiple occasions in order to enable the government
to complete discovery so that defense counsel could
prepare for trial. Yet three weeks into the trial,
just before the government rested its case-in-chief,
the government disclosed for the first time a report
purporting to show that 567 D.C. Medicaid beneficiaries for whom Global Healthcare had received
Medicaid reimbursements did not qualify for or did
not receive personal care services. A month before
the trial the prosecutor had requested that Don
Shearer, the Director of Health Care Operations at
the D.C. Department of Health Care Finance
(“DHCF”), figure out how to “quantify” the scope of
the fraud by Florence and Michael Bikundi at Global
Healthcare. Trial Tr. 113 (Nov. 4, 2015 AM). The
prosecutor proposed to introduce the report into
evidence through Mr. Shearer’s testimony at trial.
Defense counsel, caught unawares, objected to
admission of the report, claiming that allowing the
report into evidence at this point would be “unfair”
sandbagging and its identification and its production
were “untimely” under Rule 16. Trial Tr. 16 (Nov. 3,
2015 PM).
The district court judge acknowledged that the
Assistant U.S. Attorney’s timing in disclosing Mr.
Shearer’s report after the trial had been underway
for three weeks was “not great.” Id. The judge also
acknowledged that the delay impaired the defense’s
“ability to scrutinize [the report] in terms of the

64a
beneficiaries.” Id. at 110. Recognizing the difficult
situation in which the prosecutor had placed the
defense and the trial court, the judge proposed to
delay Mr. Shearer’s testimony until the next day in
order to allow defense counsel the opportunity to
interview him. Defense counsel objected that an
overnight continuance would hardly “cure[ ] the problem,” because what the defense needed was time to
investigate the data and conclusions in the report.
Id. at 19. Defense counsel reiterated that Florence
and Michael were “being ambushed.” Id. The judge
ruled the report could be admitted into evidence and
delayed Mr. Shearer’s testimony until the next day,
observing that “any testimony from Mr. Shearer is
ripe fodder for cross-examination about the legitimacy of whatever conclusions can be drawn from this
exhibit.” Id. at 112.
Florence and Michael contend that, in response to
their pretrial discovery request, the government was
obligated under Rule 16 to disclose Mr. Shearer’s
report and its underlying data, and that “admission
of the report on less than one day’s notice to [them]
violated their substantial rights” to mount a defense.
Appellants’ Br. 57. They pointed out that the government had had control over the data, which was
central to the prosecution, and that the government
had had access to the data in preparing its case for
trial. If the data had been timely disclosed to the
defense, Florence and Michael maintain that they
could have investigated the listed Global Healthcare
clients to determine whether they stopped making
D.C. Medicaid claims for legitimate reasons and
thereby “undermine[d] the inference [of fraud] the
government asked the jury to draw.” Id.

65a
In response, the government properly does not
maintain that the report falls within the scope of the
bar in Rule 16(a)(2) of discovery of internal government documents, for the defense is to be allowed to
examine documents material to preparation of its
defense. See United States v. Armstrong, 517 U.S.
456, 463, 116 S.Ct. 1480, 134 L.Ed.2d 687 (1996).
The prosecutor’s pretrial efforts to obtain what he
knew would be “compelling evidence” of appellants’
fraud fits comfortably within the mandatory disclosure obligations of Rule 16(a)(1)(E). Trial Tr. 154
(Nov. 9, 2015 AM). Instead, the government maintains it had no disclosure obligation under Rule 16
until it received the report. When it did, it disclosed
the report to the defense and the district court during
trial. This is so, the government maintains, notwithstanding defense counsel’s spot-on discovery request
and the prosecutor’s knowledge that Mr. Shearer was
preparing an important report in response to his
pretrial request to show the full scope of appellants’
fraud, and that the report was not in hand when the
trial began.
In maintaining it did not violate Rule 16, the
government asserts that the data used to prepare
the report was not within its control, relying on Marshall, 132 F.3d at 68. In Marshall, the prosecutor
had learned during trial of a prior arrest record
for the defendant from the Prince George’s County,
Maryland Police Department. See id. at 66. The
district court judge criticized the late disclosure of
the county police records, attributing it to the “sloppy
police work and insufficient investigation” by the
U.S. Attorney’s Office. Id. at 67. But finding the
decision to conduct additional investigation mid-trial
was not a product of bad faith, the judge allowed

66a
testimony about the police records at trial. On
appeal, this court affirmed, reasoning that the local
Maryland county law enforcement agencies were not
under the control of the U.S. Attorney’s Office for
purposes of Rule 16 discovery. Id. at 68.
The government, at best, overreads Marshall. This
court may have held Rule 16 did not encompass
documents that were in possession of a state law
enforcement agency, see id., but the court did not
suggest in Marshall that the local police department
had been centrally involved in the federal investigation and prosecution, much less been asked to
prepare a report for introduction at the trial. Here,
by contrast, the D.C. Medicaid data and records of
Global Healthcare were at the heart of the federal
government’s prosecution of Florence and Michael.
DHCF investigates Medicaid fraud and refers investigations to the U.S. Attorney’s Offices for prosecution. In the prosecution of Florence and Michael, Mr.
Shearer was also a key witness at trial. Significantly
as well, unlike in Marshall, 132 F.3d at 66, the new
evidence in the form of his report was not discovered
during trial. On cross examination, Mr. Shearer disclosed that prior to trial the prosecutor had requested he prepare a report to “quantify the amount . . .
of actual fraud.” Trial Tr. 113 (Nov. 4, 2015 AM).
Upon producing the report at trial, the prosecutor
acknowledged that it was an important part of the
government’s case-in-chief, telling the judge that the
report was “highly relevant” and necessary “to establish the full extent of the fraud.” Trial Tr. 15 (Nov. 3,
2015 PM). In closing argument, the prosecutor told
the jury that the report provided “very compelling
evidence that Medicaid had to pay almost
$29,500,000 for 567 people [who] . . . did not qualify

67a
for or need personal care services.” Trial Tr. 154
(Nov. 9, 2015 AM).
Today, the court is able to assume without deciding
that the government violated Rule 16’s mandates
because of the fortuitous circumstance that cross
examination of Mr. Shearer diminished much of the
sting of his report. Not completely, however, for the
report laid out the scope of appellants’ fraud in an
organized form that the jury would readily comprehend. But insofar as the report did not address
whether there were legitimate reasons the listed
beneficiaries stopped receiving services, the district
court could reasonably conclude “any testimony from
Mr. Shearer is ripe fodder for cross-examination”
about the conclusions to be drawn from this report.
Trial Tr. 112 (Nov. 3, 2015 PM).
Of course, the fortuity of effective crossexamination to ameliorate if not neutralize the
prejudice arising from the Rule 16 violations does
not mean the prosecutor’s pretrial request and
knowledge a report was being prepared were not
material to preparation of the defense. The district
court judge’s response at trial upon learning of the
report makes this clear. Any defense counsel would
want to know the report was being prepared before
having it “sprung” at trial when, as any prosecutor
would be aware, a district court judge would be unlikely to allow a lengthy delay of trial to afford the
defense time to investigate the data and conclusions
in the report. By proceeding as it did, the government defeated the aim of Rule 16 to avoid “gamesmanship.” In forceful terms, this court instructed
in Marshall, that “a prosecutor may not sandbag a
defendant by the simple expedient of leaving relevant
evidence to repose in the hands of another agency

68a
while utilizing his access to it in preparing his case.”
132 F.3d at 69 (quotation omitted). Regrettably, the
court’s instruction was prescient of what occurred in
the prosecution of Florence and Michael. The U.S.
Attorney’s “interest . . . in a criminal prosecution is
not that it shall win a case, but that justice shall be
done,” see Berger v. United States, 295 U.S. 78, 88, 55
S.Ct. 629, 79 L.Ed. 1314 (1935), and in prosecuting
with “vigor,” id., to do so in accordance with the rules
of criminal procedure, see id. In other circumstances,
such conduct as occurred here would raise concerns
identified by the Supreme Court and this court in
view of the underlying purposes of Rule 16 that
would oblige a district court judge to ensure an
appropriate sanction for a violation of Rule 16.

69a
UNITED STATES DISTRICT COURT
DISTRICT OF COLUMBIA
__________
Case Number: 14CR30-01
USM Number: 33326-016
UNITED STATES OF AMERICA
v.
FLORENCE BIKUNDI A.K.A. FLORENCE NGWE
A.K.A. FLORENCE IGWACHO
__________
[Filed June 3, 2016]
__________
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:
❑ pleaded guilty to count(s) _______________________
❑ pleaded nolo contendere to count(s) ______________
which was accepted by the court.
was found guilty on count(s) 1, 2, 13, 14, 15, and
16-22 after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

18 USC
1349 and
1347

Conspiracy to Commit
Health Care FraudFraudulent Billings

February
2014

Count
1

70a
The defendant is sentenced as provided in pages 2
through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
The defendant has been found not guilty on
count(s) 23-25
❑ Count(s) _________ ❑ is ❑ are dismissed on the
motion of the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States attorney of material
changes in economic circumstances.
6/1/2016
Date of Imposition of Judgment
/s/ Beryl A. Howell
Signature of Judge
Beryl A. Howell
U.S. District Chief Judge
Name and Title of Judge
June 2, 2016
Date

71a
ADDITIONAL COUNTS OF CONVICTION
Title &
Section

Nature of
Offense

Offense
Ended

18 USC
1347
and 2

Health Care FraudFraudulent Billings
and Aiding and Abetting and Causing an
Act to be Done

February
2014

2

18 USC
1347
and 2

Health Care FraudExclusion from Program and Aiding and
Abetting and Causing
an Act to be Done

February
2014

13

42 USC
1320a7b(a)(3)
and
18 USC 2

Making or Causing to
be made False Statements or Representations Involving Federal
Health Care Programs
and Aiding and Abetting and Causing an
Act to be Done

February
2014

14

18 USC
1956(h)
and 1347

Money Laundering
Conspiracy

February
2014

15

18 USC
1956(a)(1)
(B)(i)
and 2

Laundering of Monetary Instruments and
Aiding and Abetting
and Causing an Act to
be Done

February
2014

16-22

Count

72a
IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
CONCURRENT TERMS OF ONE HUNDRED
TWENTY (120) MONTHS ON COUNTS 1, 2, 13,
AND 15 THROUGH 22; AND SIXTY (60) MONTHS
ON COUNT 14.
The court makes the following recommendations
to the Bureau of Prisons:
That the Bureau of Prisons designate incarceration
at an institution located in the proximity of the
Washington, D.C. area or, in the alternative, at the
Federal Prison Camp Alderson in Alderson, WV.
The defendant is remanded to the custody of the
United States Marshal.
❑ The defendant shall surrender to the United
States Marshal for this district:
❑ at _______ ❑ a.m. ❑ p.m. on ______________
❑ as notified by the United States Marshal.
❑ The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
❑ before 2 p.m. on ____________________________
❑ as notified by the United States Marshal.
❑ as notified by the Probation or Pretrial Services Office.

73a
RETURN
I have executed this judgment as follows:
Defendant delivered on ___________ to ___________
a ___________, with a certified copy of this judgment.
_____________________________________
UNITED STATES MARSHAL
By _____________________________________
DEPUTY UNITED STATES MARSHAL

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of:
CONCURRENT TERMS OF THIRTY-SIX (36)
MONTHS ON EACH OF COUNTS 1, 2, AND 13
THROUGH 22.
The defendant must report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug
tests thereafter, as determined by the court.

74a
The above drug testing condition is suspended,
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon. (Check, if applicable.)
The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check,
if applicable.)
❑ The defendant shall comply with the requirements
of the Sex Offender Registration and Notification
Act (42 U.S.C. § 16901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in which he
or she resides, works, is a student, or was convicted of a qualifying offense. (Check, if applicable.)
❑ The defendant shall participate in an approved
program for domestic violence. (Check, if applicable.)
If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.
The defendant must comply with the standard
conditions that have been adopted by this court as
well as with any additional conditions on the attached
page.

75a
STANDARD CONDITIONS OF SUPERVISION
1) the defendant shall not leave the judicial district
without the permission of the court or probation
officer;
2) the defendant shall report to the probation officer
in a manner and frequency directed by the court
or probation officer;
3) the defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions
of the probation officer;
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful
occupation, unless excused by the probation officer
for schooling, training, or other acceptable reasons;
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;
7) the defendant shall refrain from excessive use
of alcohol and shall not purchase, possess, use,
distribute, or administer any controlled substance
or any paraphernalia related to any controlled
substances, except as prescribed by a physician;
8) the defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;
9) the defendant shall not associate with any
persons engaged in criminal activity and shall not
associate with any person convicted of a felony,
unless granted permission to do so by the probation officer;

76a
10) the defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement
to act as an informer or a special agent of a law
enforcement agency without the permission of
the court; and
13) as directed by the probation officer, the defendant shall notify third parties of risks that may
be occasioned by the defendant’s criminal record
or personal history or characteristics and shall
permit the probation officer to make such notifications and to confirm the defendant’s compliance
with such notification requirement.
ADDITIONAL STANDARD CONDITIONS
OF SUPERVISION
Special Assessment – The defendant shall pay a
$1,200.00 Special Assessment, which is comprised of
$100.00 on each of Counts 1, 2, and 13 through 22.
The Special Assessment shall be due immediately
and shall be payable to the Clerk of the Court for
the United States District Court for the District of
Columbia.
Restitution Obligation – The defendant shall pay
restitution in the amount of $80,620,929.20, jointly
and severally with Florence Bikundi, Melissa A.
Williams, Elvis N. Atabe, Carlson M. Igwacho,
Irene M. Igwacho, Bernice W. Igwacho, and Nicola

77a
C. White (14cr216). Restitution payments shall be
made to the Clerk of the Court for the United States
District Court for the District of Columbia for disbursement to the victim, DC Department of Health
Care Finance, One Judiciary Square, 441 4th Street,
NW, Suite 1000 S, Washington, DC 20001.
Change of Address – Within 30 days of any change of
address, the defendant shall notify the Clerk of the
Court for the United States District Court for the
District of Columbia, of the change until such time as
the financial obligation is paid in full.
SPECIAL CONDITIONS OF SUPERVISION
Restitution Obligation – The defendant shall pay
the balance of any restitution owed at a rate of
no less than $200 each month and provide verification
of same to the Probation Office. The defendant may
make payments on the restitution through her participation in the Bureau of Prison’s Inmate Financial
Responsibility Program. She shall notify the Probation Office, which shall then notify the Court, within
60 days of any material change in her economic
circumstances that might affect her ability to pay the
restitution so that the Court may adjust the payment
schedule or require immediate payment in full.
Financial Disclosure – The defendant shall provide
the Probation Office with her income tax returns,
authorization for release of credit information, and
information about any business or finances in which
she has a control or interest until all restitution is
satisfied.
Financial Restrictions – The defendant is prohibited
from incurring new credit charges, opening additional
lines of credit, or negotiating or consummating

78a
any financial contracts without the approval of the
Probation Office.
Employment Restrictions – The defendant is restricted
from securing and engaging in employment that
involves unmonitored access to financial accounts,
funds, billing or negotiable instruments.
Deportation Compliance – The defendant shall
comply with the Bureau of Immigration and Customs
Enforcement’s immigration process. If deported,
the defendant shall not re-enter the United States
without legal authorization during the period of
supervision. Should she receive permission to return
to the United States, the defendant shall report to
the U.S. Probation Office in the area where she
intends to reside within 72 hours of her return.
The Court finds that the provision for submission
of periodic drug tests, as required under 18 USC
3563(a) and 3583(b), is suspended, as the defendant
is believed to pose a low risk of future substance
abuse.
The Probation Office shall release the presentence
investigation report and/or Judgment and Commitment
Order to the Bureau of Immigration and Customs
Enforcement (ICE) to facilitate any deportation proceedings as well as to all appropriate agencies in
order to execute the sentence of the Court.
Pursuant to Rule 32.2(a) of the Federal Rules
of Criminal Procedures, the defendant, Florence
Bikundi, is ordered to forfeit all rights, title and
interest in all assets, which are subject to forfeiture
and identified as related to the offenses of conviction,
as set out in the Preliminary Order of Forfeiture,
ECF No. 493, which pursuant to Rule 32.2(b)(4)(A),
now becomes final as to the defendant. (Preliminary
Order of Forfeiture attached).

79a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

$ 1,200.00

Fine

Restitution

$ 0.00 $ 80,620,929.20

❑ The determination of restitution is deferred until
__________________. An Amended Judgment in a
Criminal Case (AO 245C) will be entered after
such determination.
The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Name of Payee
DC Department of Health Care Finance
One Judiciary Square
441 4th Street, NW, Suite 1000 S
Washington, DC 20001
Total Loss*
Restitution Ordered
$80,620,929.20
Priority or Percentage

TOTALS

$0.00

$80,620,929.20

80a

❑ Restitution amount ordered pursuant to plea
agreement $______________.
❑ The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before the fifteenth
day after the date of the judgment, pursuant to
18 U.S.C. § 3612(f ). All of the payment options on
Sheet 6 may be subject to penalties for delinquency
and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
the interest requirement is waived for the
❑ fine
restitution.
❑ the interest requirement for the ❑ fine
❑ restitution is modified as follows:
* Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title
18 for offenses committed on or after September 13,
1994, but before April 23, 1996.

81a
ADDITIONAL TERMS FOR CRIMINAL
MONETARY PENALTIES
Any restitution payment made by defendant Florence
Bikundi shall be credited toward her individual restitution obligation of $80,620,929.20 and toward the
toal amount of $80,620,929.20 that the DC Department of Health Care Finance can recover. If the
balance remaining on the total amount that the DC
Department of Health Care Finance can recover
becomes less than the restitution balance owed by
any other defendant, then the other defendant’s
restitution balance shall also be credited to ensure
that the other defendant’s balance does not exceed
the total remaining amount that the DC Department
of Health Care Finance can recover.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A

Lump sum payment of $1,200.00 due immediately, balance due
❑ not later than _______________, or
or

in accordance ❑ C, ❑ D, ❑ E, or

F below;

B

❑ Payment to begin immediately (may be combined with ❑ C, ❑ D, or ❑ F below); or

C

❑ Payment in equal ______________ (e.g., weekly,
monthly, quarterly) installments of $___________
over a period of _________ (e.g., months or years),
to commence _________ (e.g., 30 or 60 days) after
the date of this judgment; or

82a
D

❑ Payment in equal ______________ (e.g., weekly,
monthly, quarterly) installments of $___________
over a period of _________ (e.g., months or years),
to commence _________ (e.g., 30 or 60 days) after
release from imprisonment to a term of supervision; or

E

❑ Payment during the term of supervised release
will commence within ____________ (e.g., 30 or 60
days) after release from imprisonment. The court
will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

F

Special instructions regarding the payment of
criminal monetary penalties:
The defendant shall pay a $1,200.00 special
assessment and $80,620,929.20 restitution.
These amounts are due and payable to the
Clerk of the U.S. District Court, DC. The
defendant may make payments through her
participation in the Bureau of Prison’s Inmate
Financial Responsibility Program. The Clerk
shall disburse the restitution amount to the
victim, DC Department of Health Care Finance.
Upon her release the defendant shall make
payments at a rate of no less than $200.00 per
month and provide verification to the Probation
Office.

Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons Inmate Financial Responsibility
Program, are made to the clerk of the court.

83a
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.
Total amount of $80,620,929.20 joint and several
with Florence Bikundi, Melissa A. Williams,
Elvis N. Atabe, Carlson M. Igwacho, Irene M.
Igwacho, Berenice W. Igwacho, and Nicola C.
White (14cr216).
❑ The defendant shall pay the cost of prosecution.
❑ The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest
in the following property to the United States:
All assets, which are subject to forfeiture and
identified as related to the offenses of conviction,
as set out in the Preliminary Order of Forfeiture,
which pursuant to Rule 32.2(b)(4)(A), becomes
final as to the defendant. (Preliminary Order of
Forfeiture attached).
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including
cost of prosecution and court costs.

84a
UNITED STATES DISTRICT COURT
DISTRICT OF COLUMBIA
__________
Case Number: 14CR30-02
USM Number: 33507-016
UNITED STATES OF AMERICA
v.
MICHAEL D. BIKUNDI, SR.
__________
[Filed June 3, 2016]
__________
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:
❑ pleaded guilty to count(s) _______________________
❑ pleaded nolo contendere to count(s) ______________
which was accepted by the court.
was found guilty on count(s) 1, 2, 15 and 16
through 22 after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

18 USC
1349 and
1347

Conspiracy to Commit
Health Care FraudFraudulent Billings

February
2014

1

18 USC
1349
and 2

Health Care FraudFraudulent Billings
and Aiding and Abetting and Causing an
Act to be Done

February
2014

2

Count

85a
The defendant is sentenced as provided in pages 2
through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
The defendant has been found not guilty on
count(s) 23 through 25
❑ Count(s) _________ ❑ is ❑ are dismissed on the
motion of the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States attorney of material
changes in economic circumstances.
6/1/2016
Date of Imposition of Judgment
/s/ Beryl A. Howell
Signature of Judge
Beryl A. Howell
U.S. District Chief Judge
Name and Title of Judge
June 3, 2016
Date

86a
ADDITIONAL COUNTS OF CONVICTION
Title &
Section

Nature of
Offense

Offense
Ended

18 USC
1956(h)
and 1347

Money Laundering
Conspiracy

February
2014

15

18 USC
1956(a)(1)
(B)(i)
and 2

Laundering of Monetary Instruments and
Aiding and Abetting
and Causing an Act to
be Done

February
2014

16-22

Count

IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
CONCURRENT TERMS OF EIGHTY-FOUR (84)
MONTHS ON EACH OF COUNTS 1, 2, AND 15
THROUGH 22.
The court makes the following recommendations
to the Bureau of Prisons:
That the Bureau of Prisons designate incarceration
at the Federal Medical Center Butner in Granville
County, NC or, in the alternative, at an institution
designed to handle the defendant’s medical needs.
❑ The defendant is remanded to the custody of the
United States Marshal.
❑ The defendant shall surrender to the United
States Marshal for this district:
❑ at _______ ❑ a.m. ❑ p.m. on ______________
❑ as notified by the United States Marshal.

87a
The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
❑ before 2 p.m. on ____________________________
❑ as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this judgment as follows:
Defendant delivered on ___________ to ___________
a ___________, with a certified copy of this judgment.
_____________________________________
UNITED STATES MARSHAL
By _____________________________________
DEPUTY UNITED STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of:
CONCURRENT TERMS OF THIRTY-SIX (36)
MONTHS ON EACH OF COUNTS 1, 2, AND 15
THROUGH 22.
The defendant must report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.

88a
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug
tests thereafter, as determined by the court.
The above drug testing condition is suspended,
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon. (Check, if applicable.)
The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check,
if applicable.)
❑ The defendant shall comply with the requirements
of the Sex Offender Registration and Notification
Act (42 U.S.C. § 16901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in which he
or she resides, works, is a student, or was convicted of a qualifying offense. (Check, if applicable.)
❑ The defendant shall participate in an approved
program for domestic violence. (Check, if applicable.)
If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.

89a
The defendant must comply with the standard
conditions that have been adopted by this court as
well as with any additional conditions on the attached
page.
STANDARD CONDITIONS OF SUPERVISION
1) the defendant shall not leave the judicial district
without the permission of the court or probation
officer;
2) the defendant shall report to the probation officer
in a manner and frequency directed by the court
or probation officer;
3) the defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions
of the probation officer;
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful
occupation, unless excused by the probation officer
for schooling, training, or other acceptable reasons;
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;
7) the defendant shall refrain from excessive use
of alcohol and shall not purchase, possess, use,
distribute, or administer any controlled substance
or any paraphernalia related to any controlled
substances, except as prescribed by a physician;
8) the defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;

90a
9) the defendant shall not associate with any
persons engaged in criminal activity and shall not
associate with any person convicted of a felony,
unless granted permission to do so by the probation officer;
10) the defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement
to act as an informer or a special agent of a law
enforcement agency without the permission of
the court; and
13) as directed by the probation officer, the defendant shall notify third parties of risks that may
be occasioned by the defendant’s criminal record
or personal history or characteristics and shall
permit the probation officer to make such notifications and to confirm the defendant’s compliance
with such notification requirement.
ADDITIONAL STANDARD CONDITIONS
OF SUPERVISION
Special Assessment – The defendant shall pay a
$1,000.00 Special Assessment, which is comprised of
$100.00 on each of Counts 1, 2, and 15 through 22.
The Special Assessment shall be due immediately
and shall be payable to the Clerk of the Court for
the United States District Court for the District of
Columbia.

91a
Restitution Obligation – The defendant shall pay
restitution in the amount of $80,620,929.20, jointly
and severally with Florence Bikundi, Melissa A.
Williams, Elvis N. Atabe, Carlson M. Igwacho,
Irene M. Igwacho, Bernice W. Igwacho, and Nicola
C. White (14cr216). Restitution payments shall be
made to the Clerk of the Court for the United States
District Court for the District of Columbia for disbursement to the victim, DC Department of Health
Care Finance, One Judiciary Square, 441 4th Street,
NW, Suite 1000 S, Washington, DC 20001.
Change of Address – Within 30 days of any change of
address, the defendant shall notify the Clerk of the
Court for the United States District Court for the
District of Columbia, of the change until such time as
the financial obligation is paid in full.
SPECIAL CONDITIONS OF SUPERVISION
Restitution Obligation – The defendant shall pay
the balance of any restitution owed at a rate of
no less than $200 each month and provide verification
of same to the Probation Office. The defendant may
make payments on the restitution through his participation in the Bureau of Prison’s Inmate Financial
Responsibility Program. He shall notify the Probation Office, which shall then notify the Court, within
60 days of any material change in his economic
circumstances that might affect his ability to pay the
restitution so that the Court may adjust the payment
schedule or require immediate payment in full.
Financial Disclosure – The defendant shall provide
the Probation Office with his income tax returns,
authorization for release of credit information, and
information about any business or finances in which

92a
he has a control or interest until all restitution is
satisfied.
Financial Restrictions – The defendant is prohibited
from incurring new credit charges, opening additional
lines of credit, or negotiating or consummating
any financial contracts without the approval of the
Probation Office.
Employment Restrictions – The defendant is restricted
from securing and engaging in employment that
involves unmonitored access to financial accounts,
funds, billing or negotiable instruments.
Deportation Compliance – The defendant shall
comply with the Bureau of Immigration and Customs
Enforcement’s immigration process. If deported,
the defendant shall not re-enter the United States
without legal authorization during the period of
supervision. Should the defendant receive permission
to return to the United States, he shall report to the
U.S. Probation Office in the area where he intends to
reside within 72 hours of his return.
The Court finds that the provision for submission
of periodic drug tests, as required under 18 USC
3563(a) and 3583(b), is suspended, as the defendant
is believed to pose a low risk of future substance
abuse.
The Probation Office shall release the presentence
investigation report and/or Judgment and Commitment
Order to the Bureau of Immigration and Customs
Enforcement (ICE) to facilitate any deportation proceedings, and shall release the presentence investigation report to all appropriate agencies in order to
execute the sentence of the Court.
Pursuant to Rule 32.2(a) of the Federal Rules
of Criminal Procedures, the defendant, Michael D.

93a
Bikundi, Sr., is ordered to forfeit all rights, title and
interest in all assets, which are subject to forfeiture
and identified as related to the offenses of conviction,
as set out in the Preliminary Order of Forfeiture,
ECF No. 494, which pursuant to Rule 32.2(b)(4)(A),
now becomes final as to the defendant. (Preliminary
Order of Forfeiture attached).
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

$ 1,000.00

Fine

Restitution

$ 0.00 $ 80,620,929.20

❑ The determination of restitution is deferred until
__________________. An Amended Judgment in a
Criminal Case (AO 245C) will be entered after
such determination.
❑ The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Name of Payee
DC Department of Health Care Finance
One Judiciary Square
441 4th Street, NW, Suite 1000 S
Washington, DC 20001

94a
Total Loss*
Restitution Ordered
$80,620,929.20
Priority or Percentage

TOTALS

$0.00

$80,620,929.20

❑ Restitution amount ordered pursuant to plea
agreement $______________.
❑ The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before the fifteenth
day after the date of the judgment, pursuant to
18 U.S.C. § 3612(f ). All of the payment options on
Sheet 6 may be subject to penalties for delinquency
and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
the interest requirement is waived for the
❑ fine
restitution.
❑ the interest requirement for the ❑ fine
❑ restitution is modified as follows:
* Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title
18 for offenses committed on or after September 13,
1994, but before April 23, 1996.

95a
ADDITIONAL TERMS FOR CRIMINAL
MONETARY PENALTIES
Any restitution payment made by defendant Michael
Bikundi shall be credited toward his individual restitution obligation of $80,620,929.20 and toward the
toal amount of $80,620,929.20 that the DC Department of Health Care Finance can recover. If the
balance remaining on the total amount that the DC
Department of Health Care Finance can recover
becomes less than the restitution balance owed by
any other defendant, then the other defendant’s
restitution balance shall also be credited to ensure
that the other defendant’s balance does not exceed
the total remaining amount that the DC Department
of Health Care Finance can recover.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A

Lump sum payment of $1,000.00 due immediately, balance due
❑ not later than _______________, or
or

in accordance ❑ C, ❑ D, ❑ E, or

F below;

B

❑ Payment to begin immediately (may be combined with ❑ C, ❑ D, or ❑ F below); or

C

❑ Payment in equal ______________ (e.g., weekly,
monthly, quarterly) installments of $___________
over a period of _________ (e.g., months or years),
to commence _________ (e.g., 30 or 60 days) after
the date of this judgment; or

96a
D

❑ Payment in equal ______________ (e.g., weekly,
monthly, quarterly) installments of $___________
over a period of _________ (e.g., months or years),
to commence _________ (e.g., 30 or 60 days) after
release from imprisonment to a term of supervision; or

E

❑ Payment during the term of supervised release
will commence within ____________ (e.g., 30 or 60
days) after release from imprisonment. The court
will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

F

Special instructions regarding the payment of
criminal monetary penalties:
The defendant shall pay a $1,000.00 special
assessment and $80,620,929.20 restitution.
These amounts are due and payable to the
Clerk of the U.S. District Court, DC. The
defendant may make payments through his
participation in the Bureau of Prison’s Inmate
Financial Responsibility Program. The Clerk
shall disburse the restitution amount to the
victim, DC Department of Health Care Finance.
Upon his release the defendant shall make
payments at a rate of no less than $200.00 per
month and provide verification to the Probation
Office.

Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons Inmate Financial Responsibility
Program, are made to the clerk of the court.

97a
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.
Total amount of $80,620,929.20 joint and several
with Florence Bikundi, Melissa A. Williams,
Elvis N. Atabe, Carlson M. Igwacho, Irene M.
Igwacho, Berenice W. Igwacho, and Nicola C.
White (14cr216).
❑ The defendant shall pay the cost of prosecution.
❑ The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest
in the following property to the United States:
All assets, which are subject to forfeiture and
identified as related to the offenses of conviction,
as set out in the Preliminary Order of Forfeiture,
which pursuant to Rule 32.2(b)(4)(A), becomes
final as to the defendant. (Preliminary Order of
Forfeiture attached).
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including
cost of prosecution and court costs.

98a
UNITED STATES DISTRICT COURT
DISTRICT OF COLUMBIA
__________
Criminal Case No. 14-030 (BAH)
UNITED STATES OF AMERICA,
v.
FLORENCE BIKUNDI, MICHAEL D. BIKUNDI, SR.,
Defendants.
__________
[Filed March 7, 2016]
__________
MEMORANDUM OPINION
BERYL A. HOWELL, United States District Judge
Following their conviction at a jury trial of conspiring to defraud and defrauding the District of Columbia Medicaid program, in violation of 18 U.S.C. §§ 2,
1347 and 1349, and conspiring to engage in and
engaging in the laundering of monetary instruments,
in violation of 18 U.S.C. §§ 2, 1956(a)(1)(B)(i), 1956(h),
the defendants Florence Bikundi and her spouse,
Michael D. Bikundi, Sr. (“Michael Bikundi”), filed
separately the pending motions for a judgment of
acquittal or, alternatively, a new trial, under Federal
Rules of Criminal Procedure 29(a) and 33(a), respectively. Michael Bikundi’s Mot. New Trial (“Def.
MB’s R. 33 Mot.”), ECF No. 391; Michael Bikundi’s
Renewed Mot. J. Acquittal (“Def. MB’s R. 29 Mot.”),
ECF No. 392; Florence Bikundi’s Renewed R. 29 Mot.
J. Acquittal (“Def. FB’s R. 29 Mot.”), ECF No. 393;
Florence Bikundi’s Mot. New Trial (“Def. FB’s R. 33
Mot.”), ECF No. 394. The defendants also joined in
each other’s motions. See Minute Order (Dec. 15, 2016)

99a
(granting Florence Bikundi’s motions, ECF Nos. 395,
396, to join and adopt Michael Bikundi’s motions);
Minute Order (Jan. 6, 2016) (granting Michael
Bikundi’s motion, ECF No. 412, to join and adopt
Florence Bikundi’s motions). For the reasons set
forth below, the defendants’ four motions are denied.
I. BACKGROUND
Ten months after the original indictment was
returned against only defendant Florence Bikundi,
Indictment, ECF No. 1, the government filed a multicount Superseding Indictment against Florence
Bikundi, her spouse and co-defendant at trial,
Michael Bikundi, and seven additional co-defendants,
Superseding Indictment, ECF No. 44.1 Both Florence
and Michael Bikundi were charged in thirteen
counts, with, from about August 2009 to about February 2014, conspiring to commit health care fraud
and committing health care fraud by, inter alia,
submitting and causing to be submitted false and
fraudulent claims for payment to the D.C. Medicaid
program, in violation of 18 U.S.C. §§ 2, 1347, 1349,
id. ¶¶ 67-75 (Counts One and Two); conspiring to
commit money laundering and committing money
laundering to conceal proceeds illegally derived from
the health care fraud, in violation of 18 U.S.C. §§ 2,
1 Of the seven co-defendants, two remain fugitives (Christian
S. Asongcha and Atawan Mundu John) and five entered pleas of
guilty to Count Two of the Superseding Indictment charging
Health Care Fraud, in violation of 18 U.S.C. §§ 2, 1347. See
Plea Agreement of Elvis Atabe, ECF No. 174; Plea Agreement
of Melissa Williams, ECF No. 186; Plea Agreement of Carlson
Igwacho, ECF No. 179; Plea Agreement of Irene Igwacho, ECF
No. 163; Plea Agreement of Berenice Igwacho, ECF No. 240.
A sixth cooperating defendant entered a plea in a separate case.
See United States v. White, No. 14-cr-216, Plea Agreement of
Nicola White, ECF No. 8.

100a
1956(a)(1)(B)(i), 1956(h), id. ¶¶ 83-89 (Counts Fifteen
through Twenty-Two); and engaging in monetary
transactions with proceeds illegally derived from the
health care fraud, in violation of 18 U.S.C. §§ 2, 1957,
id. ¶¶ 90-91 (Counts Twenty-Three through TwentyFive).
Defendant Florence Bikundi was also charged
separately in two counts with committing health care
fraud by concealing her exclusion from participation
in all federal health care programs and making other
false and fraudulent representations to obtain payments from the D.C. Medicaid program, in violation
of 18 U.S.C. §§ 2, 1347, and 42 U.S.C. § 1320a7b(a)(3). Id. ¶¶ 78-82 (Counts Thirteen and Fourteen, respectively). The latter two charges were
based on allegations that Florence Bikundi, a former
licensed practical nurse, id. ¶¶ 36, 38, was excluded
in April 2000 by the United States Department of
Health and Human Services Office of Inspector General (“HHS-OIG”) from participating in all federal
health care programs, and thereby “prohibited . . .
from submitting or causing the submission of claims
to, and receiving funds from, Federal health care
programs such as Medicaid,” id. ¶ 45. Despite her
exclusion, Florence Bikundi allegedly “was a director,
administrator, officer, and primary owner/stockholder
of ” Flo-Diamond, Inc. (“Flo-Diamond”) and Global
Healthcare, Inc. (“Global”), which between July 2007
and December 2014, received over $78 million in
payments from Medicaid programs. Id. ¶ 20.2
2 The Court ruled that the government would be permitted to
use at trial for impeachment purposes, under Federal Rule of
Evidence 609(a)(2), Florence Bikundi’s conviction of Personal
Identifying Information Theft upon her plea of guilty in May
2003 in the Circuit Court of Maryland for Baltimore City, for

101a
Following extensive motions practice, the case proceeded to trial against Florence and Michael Bikundi
on October 13, 2015.3 Over the course of the monthwhich conviction she was sentenced to one year imprisonment.
See Minute Order (Sept. 18, 2015). The factual basis for this
conviction was that the defendant fraudulently used the
personal identification information and Maryland Registered
Nurse license of a long-time acquaintance, without her consent,
unlawfully to obtain employment as a registered nurse (“RN”)
through at least three nursing staff agencies. See Gov’t Notice,
Ex. A, ECF No. 247-1. The government did not seek to use the
defendant’s two prior convictions for Theft of Property with less
than $300.00 Value in District Court for Montgomery County,
or for Practicing Nursing without a License in Prince George’s
County Circuit Court in 1998 and 2002, respectively. See Gov’t
Notice at 5 n.2, ECF No. 247. The record is not entirely clear
whether the defendant’s 1998 Maryland conviction prompted
the revocation of her licensed practical nurse (“LPN”) license
in Virginia on August 4, 1999, see Gov’t Exs. 103, 104, but the
Virginia revocation led to her indefinite exclusion by HHS-OIG
from participation in federal health care programs, see Gov’t Ex.
108.
3

Prior to trial, the Court resolved, inter alia, the following
motions: (1) granting (a) the United States’ Motion to Disqualify Sheryl Wood as Counsel for Michael Bikundi, ECF No. 78;
(b) the United States’ Request for Defendants to Provide Notice
Whether They Intend to Seek Jury Determination on Forfeitability of Specific Property, ECF Nos. 198, 213; (c) the United
States’ Motion to Permit a Designated Law Enforcement Agent
to be Present at Counsel Table During Trial, ECF No. 259,
as conceded; (d) the United States’ Motion to Forego Certain
Redactions in its Filings, ECF No. 260, as conceded; and (e) the
United States’ Notice of Intent to Use Defendant’s Conviction
for Identity Theft as Impeachment Evidence, ECF No. 247;
(2) denying (a) Michael Bikundi’s First Motion to Sever His
Case From Florence Bikundi Based Upon Disparity of Evidence,
ECF No. 155; (b) Michael Bikundi’s Motion to Sever Counts in
the Indictment, ECF No. 208; (c) Florence Bikundi’s Motion to
Dismiss Indictment and/or Pretrial Release for Violation of her
Statutory and Constitutional Rights to Speedy Trial, ECF No.
211; (d) Florence Bikundi’s Motion for Immediate Production

102a
long trial, the jury was presented with over three
hundred exhibits and heard from forty witnesses,
three of whom were called by the defendants.4 Among
the witnesses were local and federal officials responsible for administering federal health care programs,
the D.C. Medicaid program, and the licensing of
home care agencies (“HCAs”) and nurses; cooperating
witnesses and co-defendants, who were formerly
employed at Global, which was owned and managed
of Brady Material, ECF No. 201; (e) Florence Bikundi’s Motion
to Strike Surplusage or in the Alternative to Preclude the
Government From Introducing Evidence at Trial, ECF No. 209,
without prejudice to renew; (f ) the United States’ Motion in
Limine to Preclude the Defendants From Arguing That the
Government Targeted Family Members & From Commenting
on the Status of Co-Defendants Christian Asongcha & Atawan
Mundu John, ECF No. 274; (g) the United States’ Motion to
Forego Redaction to Exhibit, ECF No. 275, with instructions to
redact the child’s name; and (h) the United States’ Motion in
Limine to Exclude Defendant’s Proposed Experts From Trial,
ECF No. 277; and (3) granting in part and denying in part
(a) the United States’ Motion to Admit Other Crimes Evidence
Pursuant to Federal Rule of Evidence 404(b), ECF No. 206;
(b) the United States’ Motion In Limine for Willful Blindness
Instruction to Counts Thirteen & Fourteen & Permission for
the Government to Refer to Willful Blindness in its Opening
Statement When Discussing These Counts, ECF No. 205; and
(c) Michael Bikundi’s Motion to Partially Vacate the Seizure
Warrant & to Permit Use of a Portion of Funds From Seized
Bank Accounts for Purposes of Household Necessities, &
Request for a Pretrial Evidentiary Hearing, ECF No. 149. See
Minute Order (July 31, 2015); Minute Order (Sept. 18, 2015);
United States v. Bikundi, 80 F. Supp. 3d 9 (D.D.C. 2015); United
States v. Bikundi, No. 14-cr-030, 2015 U.S. Dist. LEXIS 136768,
2015 WL 5915481 (D.D.C. Oct. 7, 2015); United States v.
Bikundi, No. 14-cr-030, 2015 U.S. Dist. LEXIS 114181, 2015
WL 5118514 (D.D.C. Aug. 28, 2015).
4 To be exact, 297 government exhibits were admitted and
fifteen defense exhibits. The pending defense motions challenge
the admission of a single government exhibit.

103a
by Florence and Michael Bikundi; beneficiaries of the
D.C. Medicaid program, who received personal care
services through Global and admitted to receiving
regular kickback payments from Global employees
to certify timesheets of personal care aids (“PCAs”)
that falsely indicated the number of hours worked
by the PCAs; and Special Agents of the various law
enforcement agencies that participated in the execution of search warrants on Global’s office and defendants’ homes and the analysis of seized records. The
voluminous trial evidence is only briefly summarized
below as necessary to assess the defendants’ pending
motions challenging the sufficiency of the evidence
and provide context for review of the challenged
rulings before and during trial.
A. OVERVIEW OF REGULATORY REQUIREMENTS FOR D.C. MEDICAID AND HOME
PERSONAL CARE AIDS
Medicaid is a health insurance program administered at the federal level by the Centers for Medicare
and Medicaid Services, an agency within HHS, and
by each individual state. Trial Tr. (“Tr.”) (Oct. 15,
2015 PM) at 96-97 (Test. of Donald Shearer), ECF
No. 309.5 In the District of Columbia, D.C. Medicaid
is jointly funded by the federal and District of
Columbia governments and administered by the D.C.
Department of Health Care Finance (“DHCF”). Id.
at 69; Tr. (Oct. 15, 2015 AM) at 4-5 (Shearer), ECF
No. 310; Tr. (Nov. 4, 2015 PM) at 37 (Test. of Paul
Toulouse), ECF No. 345. D.C. Medicaid provides
health insurance coverage to beneficiaries, who are
5 For ease of reference, the name of the witness whose testimony is cited as well as docket numbers for trial transcripts are
provided throughout the opinion since these transcripts are
numerous and not docketed in chronological order.

104a
D.C. residents with incomes that fall below a certain
financial threshold. Tr. (Oct. 15, 2015 AM) at 5
(Shearer), ECF No. 310. D.C. Medicaid is a “ ‘health
care benefit program’ as defined in 18 U.S.C. § 24(b),”
Superseding Indictment ¶ 1, and a “ ‘Federal health
care program’ as defined in 42 USC § 1320a-7b(f),”
id. See Tr. (Oct. 15, 2015 AM) at 5-6 (Shearer), ECF
No. 310.
D.C.’s Department of Health (“DOH”), Health
Regulation and Licensing Authority (“HRLA”) licenses
HCAs in the District of Columbia to provide home
care services, including personal care services, to
D.C. Medicaid beneficiaries. Id. at 12-13; Tr. (Oct.
16, 2015 AM) at 46 (Test. of Sharon Mebane), ECF
No. 311. To become licensed, an HCA must submit
a provider enrollment application and an executed
provider agreement to HRLA to obtain a unique D.C.
Medicaid provider number as an identifier for billing
purposes. See Tr. (Oct. 15, 2015 AM) at 6-14, 22-24
(Shearer), ECF No. 310; Tr. (Oct. 15, 2015 PM) at 5-8
(Shearer), ECF No. 309. As part of the review of the
application, DHCF checks that no individual holding
a five percent or greater ownership with the applicant company has been excluded from participation
in any federal health care program by comparing the
names of affiliated individuals to an “Exclusion List”
maintained by HHS-OIG. Tr. (Oct. 15, 2015 AM) at
7-10 (Shearer). Licensed HCAs are subject to audits
or annual licensure surveys to ensure that the
company is operating within the rules and regulations of the District. Id. at 18; Tr. (Oct. 16, 2015 AM)
at 46, 49-50 (Mebane), ECF No. 311.
PCAs employed by HCAs assist D.C. Medicaid
beneficiaries in performing activities of daily living
(“ADLs”), which are defined to include the ability to
get in and out of bed, bathe, dress, eat, take medica-

105a
tion prescribed for self-administration, and engage in
toileting. Tr. (Oct. 15, 2015 AM) at 14, 18 (Shearer),
ECF No. 310. To qualify for personal care services
covered by D.C. Medicaid, a beneficiary must obtain
a prescription from a licensed physician who has
determined after a physical examination that the
beneficiary has functional limitations in one or more
ADLs, and that the medical, nursing, and social
needs of the beneficiary could be adequately and
safely met in the beneficiary’s home. Id. at 17; Tr.
(Oct. 16, 2015 AM) at 47 (Mebane), ECF No. 311.
The prescription is then presented by the beneficiary
to an HCA, which assigns a PCA to the beneficiary
and arranges for a registered nurse to conduct an
assessment of the beneficiary’s functional status and
needs in order to prepare a plan of care (“POC”) that
is tailored to address the individual needs of the
beneficiary. Tr. (Oct. 15, 2015 AM) at 16-17 (Shearer),
ECF No. 310; Tr. (Oct. 16, 2015 AM) at 47-48
(Mebane), ECF No. 311. Approval of the POC by a
physician or advanced practice registered nurse is
supposed to occur within thirty days after the start of
personal care services being provided and must be
recertified by the prescribing physician or advanced
practice registered nurse at least once every six
months thereafter. See Tr. (Oct. 15, 2015 PM) at 12,
16-19 (Shearer), ECF No. 309; see also Tr. (Oct. 21,
2015 AM) at 123 (Test. of Elvis Atabe), ECF No. 318;
Tr. (Oct. 16, 2015 PM) at 81 (Test. of James Mbide),
ECF No. 312. Generally, at least once every 30 days,
a nurse is required to visit the patient at home to
determine if the patient is receiving the requisite
services and to confer with the PCA to ensure that
the required services are delivered competently. Tr.
(Oct. 16, 2015 AM) at 48 (Mebane), ECF No. 311.

106a
The PCAs providing personal care services to D.C.
Medicaid beneficiaries in the beneficiary’s home are
required to document the services provided and the
amount of time spent with the beneficiary on a timesheet submitted to the HCA. Tr. (Oct. 15, 2015 AM)
at 14 (Shearer), ECF No. 310. The timesheet is
required to be signed by both the PCA and the beneficiary to certify that personal care services were
provided as reflected on the timesheet. See Tr. (Oct.
16, 2015 AM) at 7-8 (Shearer), ECF No. 311; Tr. (Oct.
16, 2015 AM) at 69 (Mebane), ECF No. 311. The HCA
uses these certified timesheets to submit claims to
D.C. Medicaid for payment. Tr. (Oct. 22, 2015 PM) at
78 (Test. of Edward Mokam), ECF No. 320 (testifying
that he submitted claims to D.C. Medicaid on Global’s behalf based on “timesheets that they have given
me and I assume that the timesheets are correct”).
Personal care services are billed in 15 minute increments, with each increment representing one unit of
service. Tr. (Oct. 15, 2015 AM) at 15 (Shearer), ECF
No. 310. D.C. Medicaid authorizes a maximum of
32 units (or 8 hours) of personal care services per
beneficiary per day, and a maximum of 64 units (or
16 hours) of personal care services per beneficiary
per day for beneficiaries who qualify for the Elderly
and Individuals with Physical Disabilities (“EPD”)
waiver. Id. at 34-35, 38. Federal law prohibits HCAs
and PCAs from paying money to beneficiaries to
either recruit or retain them. Tr. (Oct. 16, 2015 AM
at 37 (Shearer), ECF No. 311).
B. EXCLUSION OF FLORENCE BIKUNDI
The defendant Florence Bikundi obtained nursing
licenses from Virginia and other jurisdictions, including Washington, D.C., under her maiden name,
“Florence Igwacho,” and the revocation of her Virginia

107a
licenses led to her exclusion from participation in any
federal health care program.6 Specifically, by letter
dated June 22, 1999, the Virginia Board of Nursing
notified Florence Bikundi (at the time “Florence
Igwacho”) of a hearing regarding the revocation of
her licensed practical nurse (“LPN”) license from the
Commonwealth of Virginia. Tr. (Oct. 26, 2015 PM)
at 10-11 (Test. of Nancy Durrett), ECF No. 327; Gov’t
Ex. 101. This letter was sent to the defendant’s
address at 9127 Edmonton Terrace, #304, Greenbelt,
Maryland (“Greenbelt address”). Gov’t Ex. 101.
Subsequently, on August 4, 1999, the order revoking
the defendant’s LPN license was sent to the same
Greenbelt address and required return of her license.
Tr. (Oct. 26, 2015 PM) at 12 (Durrett), ECF No. 327;
Gov’t Ex. 104. The defendant complied with the order
and returned her license in a letter received by the
Virginia Board of Nursing on October 12, 1999. Tr.
(Oct. 26, 2015 PM) at 13-14 (Durrett), ECF No. 327;
Gov’t Ex. 102. The return address of the defendant’s
letter enclosing her license was the same Greenbelt
address. Id. Florence Bikundi applied to reinstate
her license in 2004, but the Virginia Board of Nursing denied this request in December 2004. Tr. (Oct.
26, 2015 PM) at 16 (Durrett), ECF No. 327.
HHS-OIG received notice of Virginia’s revocation
of Florence Bikundi’s LPN license on September 2,
1999. Tr. (Oct. 26, 2015 PM) at 23-24 (Test. of Teresa
Hoffman), ECF No. 327. On September 7, 1999, Teresa
6 For example, the District of Columbia issued an LPN
license to Florence Bikundi in the name of “Florence Igwacho”
in November 2002, and an RN license to her in the name of
“Florence I. Ngwe” in September 2003. Tr. (Nov. 2, 2015 PM)
at 38-39 (Test. of Karen Scipio-Skinner), ECF No. 340. Both
of these licenses were revoked in May 2005 and have not been
reinstated. Id.

108a
Hoffman, an HHS-OIG investigations analyst, sent a
letter to “Florence Igwacho” at the same Greenbelt
address used by the Virginia Board of Nursing. Id.
at 26; Gov’t Ex. 106. The HHS-OIG letter required
the defendant to respond within 30 days. Tr. (Oct. 26,
2015 PM) at 29 (Hoffman); Gov’t Ex. 106. Florence
Bikundi did, in fact, respond to HHS-OIG in a letter,
received by HHS on October 8, 1999, that used the
same Greenbelt address. Gov’t Ex. 107. In her
response, the defendant requested that she be afforded
additional time to obtain an attorney and asked that
she be informed of HHS’ decision. Id. Hoffman testified that she attempted to call the defendant several
times to discuss the requested extension, but her
calls were never returned. Tr. (Oct. 26, 2015 PM) at
29 (Hoffman), ECF No. 327. Consequently, Hoffman
proceeded with the exclusion process, which culminated in a letter sent on March 31, 2000, to Florence
Igwacho notifying her of her exclusion. Id. at 31-33;
Gov’t Ex. 108. The letter was sent via U.S. Mail to
the same Greenbelt address that the defendant used
in her letter requesting additional time to respond.
Tr. (Oct. 26, 2015 PM) at 31-33 (Hoffman), ECF No.
327.7
The letter was never returned to HHS as
undeliverable. Id. at 33.
As a result, Florence Bikundi is excluded from
participation in Medicare, Medicaid, and all federal
health care programs, as defined in 42 USC § 1320a7b(f ). Tr. (Oct. 26, 2015 PM) at 22, 32 (Hoffman),
ECF No. 327. Persons “excluded” from federal health
7 An attorney at HHS-OIG testified that certified mail was
not required to be used for sending the notice of exclusion that
applied to Florence Bikundi and that the practice of HHS-OIG
is to use regular mail to send such notices. Tr. (Nov. 4, 2015
AM) at 128-29, 139 (Test. of Susan Gillin), ECF No. 344.

109a
care programs cannot be an administrator, director,
or officer of any Medicaid provider. Id. at 19. An
excluded person may be an owner of a Medicaid
provider, provided that he or she hold no more than
a five percent interest and are not involved in the
day-to-day operations of the company. Id. HHS-OIG
makes publicly available the names of excluded
individuals in an online database, which has been
available since March 1999. Tr. (Oct. 26, 2015) at
51, 56 (Test. of Joanne Francis), ECF No. 327. In
addition, from 1993 until December 2006, the agency
published the names of excluded persons in the
Federal Register. Id. at 53, 56, 61.
C. GLOBAL’S CREATION AND OPERATIONAL PROBLEMS
In June 2009, Florence Bikundi, using the name
“Florence Bikundi,” which was not the name under
which she had been excluded by HHS-OIG and,
timing-wise, was several months prior to her legal
marriage to Michael Bikundi, see Gov’t Ex. 27 at 3
(Florence and Michael Bikundi’s Virginia marriage
certificate, dated September 5, 2009), submitted a
D.C. Medicaid provider application on behalf of
Global to DHCF, along with a D.C. Medicaid provider
agreement, see Gov’t Ex. 1; Tr. (Oct. 29, 2015 AM) at
65 (Test. of Ernest Igwacho), ECF No. 332 (Florence
Bikundi’s brother identifying handwriting as that of
Florence Bikundi). As part of the application, Global
was required to identify all individuals “having direct
or indirect ownership or controlling interest” in the
company, but none were listed. Gov’t Ex. 1. The
application and agreement were purportedly signed by
“James Mbide” as Global’s authorized representative,
and contained other signatures of “individuals responsible to enforce compliance with these conditions,”

110a
including the purported signatures of “James Mbide,”
“Dr. Ernest Igwacho,” and “Nicola White.” Id. These
three individuals testified at trial that they did not
sign and did not authorize anyone to sign their
names on this document, and were unaware that
their names had been used on this application until
so advised by law enforcement agents in the course of
the investigation. Tr. (Oct. 16, 2015 PM) at 95-96
(Mbide), ECF No. 312; Tr. (Oct. 29, 2015 AM) at 6567 (Ernest Igwacho), ECF No. 332; Tr. (Oct. 20, 2015
PM) at 37-38 (Test. of Nicola White), ECF No. 316.
Donald Shearer, as the Director of Health Care
Operations at DHCF approved the D.C. Medicaid
provider application and executed the D.C. Medicaid
provider agreement on behalf of D.C. Medicaid, effective on August 13, 2009, and Global was assigned a
D.C. Medicaid provider number to submit claims for
PCA services. Tr. (Oct. 15, 2015 PM) at 89 (Shearer),
ECF No. 309. Shearer testified that had he known
that the signatures on the agreement were forged, he
would not have approved the Global provider agreement. Id. at 7-8. Similarly, Sharon Mebane, a HRLA
program manager, testified that if, during Global’s
initial licensing application, DOH had learned or
knew that the administrator, president or director
of Global had been an excluded person, “we would
recommend that entity not be licensed.” Tr. (Oct. 16,
2015 AM) at 40, 73 (Mebane), ECF No. 311.
Global’s difficulties in complying with requirements to maintain its HCA license were noted by
regulators conducting licensure surveys almost at the
outset of its business operations and continuously
thereafter. These surveys were critical to the continued operation of Global, and one former employee
testified that Florence Bikundi “was always there

111a
during surveys.” Tr. (Oct. 22, 2015 AM) at 48 (Atabe),
ECF No. 319. During HRLA’s first annual survey of
Global, which took place from December 1 through 7,
2010, the HRLA surveyors noted major deficiencies
in Global’s record-keeping, its policies and procedures,
and its employee and patient files, including, for
example, evidence that Global was missing complete
background checks and health certificates for
employees and that patient services were not being
provided consistent with POCs. Tr. (Oct. 16, 2015
AM) at 57-63, 65-66, 70 (Mebane), ECF No. 311; Tr.
(Oct. 22, 2015 PM) at 18-19 (Test. of Roland Follot),
ECF No. 320; Gov’t Ex. 22.
In follow-up surveys conducted in February and
September 2011, persistent significant recordkeeping deficiencies were reported by surveyors.
Gov’t Exs. 23, 24. Roland Follot, a HRLA surveyor
who participated in these two follow-up surveys,
testified about the changing information provided
to him in response to his questions. For example,
during the February 2011 survey, Follot was given
conflicting information by both defendants about the
role of James Mbide: Michael Bikundi told Follot
that Mbide was a “director,” who had been out for six
months, while Florence Bikundi said that Mbide was
ill and had been working up until the last week. Tr.
(Oct. 22, 2015 PM) at 19-22 (Follot), ECF No. 320.
Follot testified that Mbide’s role “was hard to determine. I—I would get different answers on different
days and I was referring to different documents.” Id.
at 23. Unbeknownst to Follot, Michael Bikundi had
fired Mbide several months prior to the survey,
“towards the end of 2010.” Tr. (Oct. 16, 2015 PM) at
105 (Mbide), ECF No. 312; Tr. (Oct. 19, 2015 AM) at
23 (Mbide), ECF No. 314.

112a
Also, on the first day of the survey, February 14,
2011, Follot met Florence Bikundi at Global’s office
and she avoided answering his question about her
title, while Michael Bikundi introduced himself as
“just the president.” Tr. (Oct. 22, 2015 PM) at 11-13,
15 (Follot), ECF No. 320. When Follot asked Florence
Bikundi for her personnel file, she responded that
she did not have one, id. at 15-16, but the following
day told Follet that Global employee Elke Johnson
had “shredded her file on the day before,” id. at 16,
27-28. Indeed, Elke Johnson confirmed during her
testimony that, during a survey, Michael Bikundi
handed Florence Bikundi’s personnel file containing
“her driver’s license, it had her passport and her
Social Security,” to Johnson and instructed her to
shred it, without explaining why, and Johnson
complied with this instruction. Tr. (Oct. 20, 2015
AM) at 55-58 (Test. of Elke Johnson), ECF No. 315.
Any one of those credentials in Florence Bikundi’s
personnel file may have reflected her maiden name,
under which she had been excluded by HHS-OIG.
Additionally, Follot sought, as part of the February
2011 survey, to review board of director minutes in
order to assess Global’s compliance with “the plan of
correction for the December survey,” in which Global
had been “cited . . . for various policy issues for which
the board of directors was responsible.” Tr. (Oct. 22,
2015 PM) at 25 (Follot), ECF No. 320. Florence
Bikundi told Follot that the board of directors had
met since the December 2010 survey and, variously,
that Nicola White or James Mbide had taken notes
at the meeting. Id. at 24, 29. After two days of
asking for the minutes, White finally handed the
purported board minutes to the surveyors. Id. at 26.
Although Follot was unaware at the time, those

113a
board minutes were fabricated. Global’s board of
directors meeting minutes, dated January 8, 2010
and January 28, 2011, show “Nicola White” as the
“Recording Secretary,” and the latter minutes further
indicate that White was present at the meeting.
Gov’t Exs. 270, 271. White testified, however, that
she had never been asked to join the board, was not
the recording secretary and had never attended a
Global board meeting. Tr. (Oct. 20, 2015 PM) at 4144 (White), ECF No. 316. Moreover, White was not
familiar with the names listed for several other
board members purportedly present at the same
meeting with her. Id. She admitted to signing
the January 28, 2011 minutes at the instructions of
Florence Bikundi, id. at 43, but denied that she had
signed her name on subsequent board minutes that
nevertheless reflected her purported signature, id. at
46-48, 50. Similarly, James Mbide, whose attendance
at board meetings is noted on certain board minutes
reflecting his purported signature, denied that he
was ever a member of the Global board, attended any
board meetings or signed any minutes. Tr. (Oct. 19,
2015 AM) at 23-26 (Mbide), ECF No. 314; Gov’t Exs.
271, 272.
A follow-up survey scheduled for August 30, 2011
had to be “aborted” because Global employees
advised that the requested files were not available.
Gov’t Ex. 26; Tr. (Oct. 22, 2015 AM) at 101-02 (Test.
of Theresa Waters), ECF No. 319.
At the next follow-up survey in September 2011,
Follot issued a notice of infraction, which was sent to
Michael Bikundi, due to continuing major deficiencies related to missing health certificates for employees, and a missing comprehensive background check
in one of the sampled employee files. Tr. (Oct. 22,

114a
2015 PM) at 44-48 (Follot), ECF No. 320; Gov’t Ex. 18.
The surveyors observed that it took a noticeably long
time for the Global employees to provide the files
randomly selected by the surveyors to review. Id.
at 41-42 (Follot); Tr. (Oct. 22, 2015 AM) at 102
(Waters), ECF No. 319. The explanation for the
delay was revealed by former Global employees who
testified about the flurry of document alterations
underway even when the surveyors were present in
other parts of Global’s offices.
D. FALSIFICATION OF GLOBAL PATIENT
AND EMPLOYEE RECORDS
In addition to forged signatures on Global’s Medicaid application and agreement and the fraudulent
Global board of directors minutes presented to HRLA
surveyors, each of the cooperating Global employees,
six of whom entered guilty pleas in connection with
this case, see supra n.1, testified about the rampant
falsification of patient and employee records at Global in order to avoid Medicaid licensure issues for the
company during surveys and to ensure reimbursement from D.C. Medicaid. The falsified documents
for patients included POCs, recertifications for POCs,
nursing notes and, as discussed in more detail infra
in Part I.E, PCA timesheets. The falsified documents
for Global employees included key records in PCA
personnel files, such as health certificates, training
certificates, and background checks. Further, these
witnesses detailed the intimate involvement of both
Florence and Michael Bikundi in falsifying records to
facilitate this fraud scheme.
1. James Mbide
James Mbide is a registered nurse (“RN”) and was
identified as Global’s Director of Nursing on Global’s
Medicaid provider application. Gov’t Ex. 1. He was

115a
hired for that position by Florence Bikundi in late
2009. Tr. (Oct. 16, 2015 PM) at 89-90 (Mbide),
ECF No. 312. He had met Florence Bikundi earlier
in 2009, when she was using her maiden name,
Florence Igwacho, and operating Flo-Diamond in
Maryland. Id. Sometime after the defendants got
married, Michael Bikundi became Global’s CEO, id.
at 101, and Mbide continued to work full-time as
Global’s Director of Nursing until Michael Bikundi
dismissed him at the end of 2010, id. at 105, at which
point Mbide continued to provide services to Global
through his own staffing agency, Eban Health
Service (“Eban”), id. at 106. At Florence Bikundi’s
request, in the summer of 2012, Mbide returned to
work part-time, two days per week as Global’s Director of Nursing. Id. at 103-06.
Mbide testified about his own and others’ activity
during his tenure at Global in falsifying records for
patient files in order to appear compliant for surveys
“[s]o that the company will not be charged to do
reimbursement.” Id. at 83. If Mbide was not in the
Global office when the surveyors arrived, either Florence or Michael Bikundi would call Mbide to come to
Global’s offices to assist by creating missing nurse
notes to say that a nurse visit was done, even when it
was not, and to recertify a patient’s continuing need
for PCA services. Id. at 80-84; see also Tr. (Oct. 19,
2015 AM) at 12-15 (Mbide), ECF No. 314. Mbide
testified that Florence Bikundi offered and paid
Mbide $15 per false recertification and nurse note.
Tr. (Oct. 16, 2015 PM) at 81-83 (Mbide), ECF No.
312; Tr. (Oct. 19, 2015 PM) at 49 (Mbide), ECF No.
313. Florence Bikundi also instructed Mbide that
when he created fake nurse notes for patients whom
he had not actually visited, he was supposed to write
down that the PCA was present, because this was a

116a
Medicaid requirement. Tr. (Oct. 16, 2015 PM) at 8485 (Mbide), ECF No. 312; Tr. (Oct. 19, 2015 AM) at
19-20 (Mbide), ECF No. 314. Mbide testified that
Florence Bikundi assisted in the creation of fake
nurse notes, and sat at a table with him and other
Global nurses to create fake nurse notes for visits
that did not take place. Tr. (Oct. 19, 2015 AM) at 1314 (Mbide), ECF No. 314.
Mbide confirmed that Michael Bikundi was present
when he and other Global nurses were creating nurse
notes in preparation for surveys. Id. at 14-15. Either
of the defendants “would go through charts. If they
found out there was a hole in the charts . . . he would
give it to me or to anybody around to do the notes.”
Tr. (Oct. 16, 2015 PM) at 84 (Mbide), ECF No. 312.
In one instance, Mbide testified that, after Michael
Bikundi told him that $3,000 had been returned to
Medicaid due to a lapsed POC for a patient funneled
to Global through Eban, Mbide observed Elvis Atabe
creating counterfeit documents by “cutting and pasting” and backdating POCs for the same patient. Tr.
(Oct. 19, 2015 AM) at 31-32 (Mbide), ECF No. 314.
Elvis Atabe informed Mbide that Michael Bikundi
had given him the patient’s file “to . . . cut and paste”
and backdate. Id. at 32.
In addition to fake nurse notes, Mbide testified
about the falsification of other Global records in
employee files, including annual physicals and
CPR certificates for nurses and PCAs, to make the
documents appear current, which was a Medicaid
requirement for those who had patient contact. Id.
at 33-35.
Mbide recounted a conversation with Michael
Bikundi about how the Global business was to be
operated. At a meeting with Michael Bikundi and

117a
another Global employee, Mbide advised that some
Medicaid beneficiaries “appeared not to be qualified
to receive personal care services” because they were
“able-bodied,” and that they needed to be discharged.
Id. at 21-22. Mbide testified that he asked Michael
Bikundi, “Give me the authority. Let me go out there,
and let me do a reassessment so that we can begin
to discharge some of the patients.” Id. at 22. In
response, Michael Bikundi asked Mbide “to put a
business hat on [his] head,” which Mbide understood
to mean “I’m here to make money, don’t interrupt.”
Id. Thereafter, Mbide never complained to Michael
Bikundi again because Michael Bikundi had “established what he want[ed] to do for his business.” Id.
2. Elvis Atabe
In April 2011, Elvis Atabe applied to work at
Global. Tr. (Oct. 21, 2015 AM) at 109-10 (Atabe),
ECF No. 318. On the day of his interview, James
Mbide introduced Atabe to Florence Bikundi, who
then sent him to be interviewed by Michael Bikundi,
who actually hired him. Id. at 111-12. Atabe started
work at Global about a week later and was advised
by Florence Bikundi that he would be doing quality
assurance. Id. at 113-14. Atabe shared an office
with Florence Bikundi. Id. at 114. A few days after
he started at Global, Atabe “was introduced to the
various things like wiping out, changing signatures
on the computer, and all that.” Tr. (Oct. 21, 2015
PM) at 94-95 (Atabe), ECF No. 317. Atabe testified
that when he found discrepancies in patient folders
given to him by Florence Bikundi to review, Florence
Bikundi showed him what he was “supposed to do.”
Tr. (Oct. 21, 2015 AM) at 114-15 (Atabe), ECF No.
318. Florence Bikundi explained that if a POC did not
conform to the 30-day period required by Medicaid,

118a
he was to use white-out to alter the dates to make
sure the dates conform to Medicaid’s requirements.
Id. In his presence, Florence Bikundi used white-out
to alter patient files. See id. at 115-16. Afterwards,
Nicola White showed Atabe how to erase a signature
on a computer and put in another signature,
although Atabe told Nicola White that he was not
very good with the computer. Id. at 116. Atabe testified that, at times, he sat with Florence Bikundi and
Irene Igwacho—one of Florence Bikundi’s sisters—
“in that little office” to try to figure out ways to better
alter the documents. Id. at 119. Atabe and Florence
Bikundi sat side by side, with their chairs “rubbing
each other” while they created fake documents. Id.
at 120. Irene Igwacho, Nicola White, and Eveline
Takang assisted in creating fake documents too. Id.
at 120-21.
According to Atabe, Global had so many charts,
that when surveyors were coming, one person could
not do the job of fixing the charts, “it was like a [sic]
teamwork.” Id. at 121. Atabe further testified that
POCs mailed to Global’s offices were delivered to
Michael Bikundi and, if the dates “were not good
enough,” Michael Bikundi directed Atabe to alter the
dates. Id. at 125.
Atabe testified that the “whole system was bad in
Global.” Tr. (Oct. 21, 2105 PM) at 25 (Atabe), ECF
No. 317. Office workers participated in the fraudulent scheme at various levels. Id. at 25-26. Elke
Johnson altered personnel files and Eveline Takang
created false nurse visit notes. Id. at 26-28. Atabe
created cut-outs of doctors’ signatures that were used
by nurses to do corrections on the POCs that were
not signed with compliant dates. Id. at 31; Gov. Ex.
413. The use of cut-outs was kept a secret from the
surveyors. Tr. (Oct. 21, 2015 PM) at 32 (Atabe), ECF

119a
No. 317. Michael Bikundi knew that Global employees were using the cut-outs “because he used to come
and oversee sometimes what we are doing.” Id. at
32-33. Florence Bikundi knew that Atabe used the
cut-outs to alter documents because he did it “right
in front of her.” Id. at 33. Atabe further stated that
Irene Igwacho, Nicola White and Chris Asongcha
knew that Global was using the cut-outs because “we
were doing it together.” Id. During surveys, while
surveyors were in another part of the office, Atabe
and other Global employees, including Irene Igwacho,
James Mbide, Eveline Takang and Vanessa Sona sat
in the chart room, where patient files were maintained, and created fake documents, such as nurse
visit notes, to help Global pass the surveys. Id. at
57-58. Michael Bikundi knew that the Global employees were in the chart room altering documents
while the surveyors were in the other room waiting
for the files because “once in a while” he would walk
around to check on the progress. Id. at 84.
3. Elke Johnson
Elke Johnson, who is an undocumented immigrant,
started working for Florence Bikundi at Flo-Diamond
in 2005, before working at Global as the HR Coordinator. Tr. (Oct. 19, 2015 PM) at 139-41 (Johnson),
ECF No. 313; Tr. (Oct. 20, 2015 AM) Tr. at 8, 14,
85 (Johnson), ECF No. 315. Johnson testified that
Florence Bikundi and Michael Bikundi hired as
PCAs other undocumented immigrants, who used
fake credentials that actually belonged to people
authorized to work in this country, and who were paid
less than documented workers. Tr. (Oct. 20, 2015
AM) at 14-18 (Johnson), ECF No. 315. Background
checks for undocumented PCAs were performed
using the credentials of the assumed identity, not the
actual PCA. Id. In preparation for surveys, both

120a
Florence and Michael Bikundi directed Johnson to
make sure that she altered expired dates on any CPR
or physical examinations in employee files so that
Global would not be cited by the surveyors since such
citations could result in a fine of as much as $500
per employee file. Id. at 51-53. To alter the dates,
Johnson “would Wite-Out the current date, make a
photocopy, then put a present date to make it look
like it’s valid, and then make another copy and put it
in the file.” Id.; see also id. at 86-87. In preparation
for surveys, Johnson observed Irene Igwacho altering
dates on POCs, id. at 53-54, 88, and testified that
Michael Bikundi told the employees “to get everything in order, do whatever it takes to make them
right” because he did not “want to be cited,” id. at 55.
4. Nicola White
Nicola White began working for Florence and
Michael Bikundi at Flo-Diamond in 2006, when Elke
Johnson worked there, and both White and Johnson
continued working for the defendants at Global.
Tr. (Oct. 20, 2015 PM) at 25-28, 34 (White), ECF
No. 316. White was an administrative assistant at
Global responsible for collecting the employees’ timesheets, preparing their checks and putting the checks
together with the timesheets to present to the
Bikundi’s for approval and signature. Id. at 50. She
testified that when the Medicaid surveyors were
expected, Florence Bikundi told her “to actually fix
the POC” and alter any dates that were out of
compliance. Id. at 70-72. She would also change
doctors’ signatures on POCs by cutting and pasting
doctors’ signatures onto POCs, so that they would
appear to have been approved by the doctors. Id. at
73.

121a
White testified that she heard “an argument”
between Florence and Michael Bikundi, during which
Michael Bikundi complained that White’s “cut and
paste” jobs on the computer did not look “real
enough.” Id. at 73-74. In an effort to improve the
apparent authenticity of the fake documents, Florence Bikundi would take the forged POCs and fax
them to one of Flo-Diamond’s offices and have them
faxed back to her so that the POCs would look “more
real.” Id. at 74-75. On another occasion, Florence
Bikundi told White that “Mr. Michael Bikundi saying
that the documents that — you know, the way how
I’m doing it, it doesn’t even look real enough because
of whenever I do the signature, it appear bigger than
what the original signature looked like.” Id. at 75.
After that, Elvis Atabe took over the task of altering
doctors’ signatures on POCs. Id. at 75-76. Michael
Bikundi instructed White to order all of the supplies
that Atabe needed, such as white-out and different
pens to perform this document alteration task. Id.
In addition to altering POCs, White also changed
dates on employees’ CPR certifications “to make it
current,” in accordance with Florence Bikundi’s
direction “to make sure all of those — everything is
okay, or during the survey we will have — we will
just make those document changes and then bring it
to the surveyors.” Id. at 77. The alteration of these
documents would sometimes occur with the surveyors in Global’s offices. Id.
On two occasions when White was on maternity
leave from August through November, 2011, Florence
and Michael Bikundi went to White’s home to
retrieve POCs that White had created. Id. at 95-97;
Tr. (Oct. 21, 2015 AM) at 82-83 (White), ECF No.
318. The POCs were so numerous that they could

122a
not be emailed and did not fit into an envelope. Tr.
(Oct. 20, 2015 PM) at 96-97 (White), ECF No. 316;
Tr. (Oct. 21, 2015 AM) at 84 (White), ECF No. 318.
White corroborated the testimony of Atabe, Mbide
and others that Florence Bikundi directed her, as
well as other employees, to falsify documents when
the surveyors were still present in Global’s offices to
avoid the imposition of fines. Tr. (Oct. 20, 2015 PM)
at 76-77 (White), ECF No. 316.
5. Melissa Williams
Melissa Williams first began working for Florence
Bikundi as a PCA at Flo-Diamond, using false credentials since she was an undocumented immigrant.
Tr. (Oct. 29, 2015 PM) at 32-33 (Test. of Melissa
Williams), ECF No. 334. Florence Bikundi was aware
of her undocumented status since she provided
Williams with paychecks under Williams’ assumed
name used for credentials. Id. at 36-37. Williams
continued her PCA work at Global after she received
her work authorization in December 2008. Id. at 42.
Through her relationship with Michael Bikundi’s
son, Williams is the mother of Michael Bikundi’s
grandchild and calls Michael Bikundi “Dad.” Id. at
102.
In approximately April 2011, Florence Bikundi
permitted Williams to work in Global’s office rather
than working with patients as a PCA and promoted
her to Human Resources Coordinator. Id. at 53-55,
78. During the first survey that Williams observed
at Global, she saw nurses creating false nurse notes
when notes were missing from patient files. Id. at
60-61. Florence Bikundi, Chris Asongcha and Elvis
Atabe were in the chart room at the time that the
fake nurse notes were created and then inserted into
the patient files. Id. at 61-62. Williams also observed

123a
Elvis Atabe change dates on POCs in Florence
Bikundi’s presence, id. at 64-65, and Chris Asongcha
alter employee physical examinations and CPR
certificates in employee files in Florence Bikundi’s
presence, id. at 66. Williams testified that “we knew
that we had an obligation to make sure that our
folders were kept updated at all times. And whenever
we had a survey and it was not so, it was expected of
us to forge the paperwork.” Tr. (Nov. 2, 2015 AM)
at 12 (White), ECF No. 338; id. at 22-23 (testifying
that, for every survey, “it was always the same thing,
just with my employees’ folders, just making the
adjustments for whatever folders that the surveyors
needed that were not updated . . . [meaning they]
Frauded the paperwork”). During surveys, Florence
Bikundi supervised this activity of Global employees
“making adjustments, Wite-Out, whatever it is, to
the physical or whatever paperwork that needed
to be updated in the eyes of the surveyors” and, on
one occasion asked Chris Asongcha why a document
was not done and approved Williams altering the
document. Id. at 13.
Williams testified that in order to manage costs,
Florence Bikundi canceled Global’s contract with
Kroll—a company with which it had contracted to
conduct criminal background checks on PCAs—and
required PCAs to provide their own background
checks. Tr. (Oct. 29, 2015 PM) at 84-86 (Williams),
ECF No. 334; Tr. (Oct. 20, 2015 PM) at 83 (White),
ECF No. 316. Subsequently, during surveys, when
criminal background checks were missing from
employee files, Chris Asongcha and Nicola White
started creating phony criminal background checks
to insert in the employee files. Tr. (Oct. 29, 2015
PM) at 86-87 (Williams), ECF No. 334; see also Tr.
(Nov. 2, 2015 AM) at 115 (Williams), ECF No. 338.

124a
This aspect of Williams’ testimony was corroborated
by Nicola White, who admitted to making fraudulent
background checks for Global employees, see Tr. (Oct.
20, 2015 PM) at 84 (White), ECF No. 316, as well
as by a Kroll representative, who testified that out of
31 Kroll background checks in Global employee files,
a review confirmed that only three were authentic,
see Tr. (Nov. 2, 2015 PM) at 15 (Test. of Craig Olsen),
ECF No. 340; Gov’t Ex. 440.
E. FALSIFICATION OF TIMESHEETS AND
ILLEGAL PAYMENTS TO GLOBAL PATIENTS
In addition to the fraudulent alteration of patient
and employee files that took place within Global’s
offices, extensive testimony was provided at trial
about the kickbacks paid to beneficiaries for their
false certification of PCA timesheets for work that
was not performed and about the defendants’
knowledge of these kickbacks and fraudulent timesheets. Florence and Michael Bikundi required that
the timesheets supporting each employee’s work be
attached to the employee’s paycheck before the
paycheck would be approved and signed. Tr. (Oct.
20, 2015 PM) at 50 (White), ECF No. 316; Tr. (Oct.
21, 2015 AM) at 78, 90 (White), ECF No. 318; Tr.
(Nov. 2, 2015 AM) at 122 (Williams), ECF No. 338;
Tr. (Oct. 20, 2015 AM) at 39 (Johnson), ECF No. 315.
Thus, the defendants were aware of which PCAs
claimed to work 16-hour days and which PCAs
claimed on their timesheets to be providing services
to a beneficiary when those PCAs were actually on
vacation, in the office, in school or at another job.
When Florence or Michael Bikundi concluded that
PCAs had submitted timesheets for services not
provided, they would at times withhold the PCAs’
paychecks but would not terminate them, void the

125a
claims or initiate reversals to repay Medicaid for the
hours that Global billed for these aides. Tr. (Oct. 19,
2015 AM) at 39-40 (Mbide), ECF No. 314; Tr. (Oct.
20, 2015 AM) at 39-40, 49-50, 110 (Johnson), ECF
No. 315; Tr. (Oct. 20, 2015 PM) at 120-21 (White),
ECF No. 316; Tr. (Oct. 28, 2015 PM) at 31-32 (Test.
of Carlson Igwacho), ECF No. 335; Tr. (Nov. 2, 2015
AM) at 35-39 (Williams), ECF No. 338. Summarized
below is testimony from the cooperating witnesses
and beneficiaries about the fraudulent timesheets
and kickbacks to Global’s patients.
1. Melissa Williams
While working as a PCA at Global, Melissa
Williams was assigned, by Elke Johnson, to patient
Carolyn Baldwin (beneficiary no. xxxx2921, see Def.
FB’s R. 29 Mem. at 11; Superseding Indictment
¶ 75(3)). Tr. (Oct. 29, 2015 PM) at 44 (Williams),
ECF No. 334. After a few weeks of working with
Baldwin, Baldwin demanded money from Williams.
Id. Baldwin explained to Williams that she had been
previously receiving money from Elke Johnson and
Florence Bikundi, id. at 45-46, and if she were not
paid, “she would leave Global and go to a different
home health aide company,” id. at 46. Williams stated
that she gave Baldwin money from her paycheck and
money given to her by Johnson. Id. at 46.
Carolyn Baldwin largely corroborated the testimony
of Johnson and Williams. She testified that Florence
Bikundi came to her house with her then-boyfriend,
“a tall fellow,” to recruit her as a patient. Tr. (Nov. 3,
2015 AM) at 30 (Test. of Carolyn Baldwin), ECF No.
343. At the time, Florence Bikundi told her, “I take
care of my girls.” Id. When Baldwin asked what that
meant, Florence Bikundi replied, “you know, I give
them a little money.” Id. at 31. Thereafter, Baldwin

126a
became a patient and Florence Bikundi mailed
Baldwin a check of about $75 to $150. Id. Baldwin
recalled picking up money from “Elke” one time when
the business was located on Georgia Avenue, id., and
also from Williams, who was assigned to be her PCA,
id. at 32-33, 44-45.
Williams explained the reason for the kickbacks to
Global patients was “[i]n order to maintain or keep
these patients, because the patients will tell you that
— just even as an aide, if you don’t pay me, I’m going
to take my services somewhere else. So in order to
keep the patient, money would be given to the
patient . . . . So in order for the patient to stay with
the company, which is Global, the — Florence would
— because she wouldn’t want the patient to go to a
different agency where services would be rendered
under a different company name, then she would pay
to keep the patients happy.” Tr. (Nov. 2, 2015 AM)
at 20 (Williams), ECF No. 338.
Williams provided details about the blatant nature
of this fraud activity. For example, she saw Irene
Igwacho socializing with Michael and Florence
Bikundi at times when Irene Igwacho was supposed
to be providing PCA services to Global patients. Tr.
(Oct. 29, 2015 PM) at 103-04 (Williams), ECF No. 334.
The defendants were aware of this since Michael
Bikundi did not sign Irene Igwacho’s paychecks
without seeing the timesheets, because “without time
sheets, you don’t get paid.” Id. at 104. Similarly,
Berenice Igwacho—another of Florence Bikundi’s
sisters—attended social functions at the defendants’
residence at times that coincided with when she
claimed on timesheets to be providing PCA services
to Global patients. Id. at 105. Both Florence and
Michael Bikundi observed Berenice Igwacho at the
social functions. Id. In another instance Williams

127a
testified that, from December 22, 2012 through
January 6, 2013, she accompanied Florence Bikundi,
Michael Bikundi, Carlson Igwacho, who is Florence
Bikundi’s son, Violet Igwacho, who is Carlson
Igwacho’s wife, and others on a family vacation to
California, and timesheets for this period were submitted by certain of the vacationers for PCA services.
Id. at 105-07. As another example, Williams testified
that there were times that she submitted timesheets
indicating she had provided home health services to
a patient at certain hours that coincided with the
hours that she was actually working in the office. Tr.
(Nov. 2, 2015 AM) at 116 (Williams), ECF No. 338.
At one point, Florence Bikundi told Williams that
Williams could no longer work with the patient, but
did not fire Williams. Id.
2. Nicola White
Nicola White testified that she would submit timesheets for working with patients during the week
and weekends, despite working full-time in the office
during the week and not working on the weekends.
Tr. (Oct. 20, 2015 PM) at 89-90, 94 (White), ECF No.
316; Tr. (Oct. 21, 2015 AM) at 78 (White), ECF No.
318. Michael and Florence Bikundi knew that Nicola
White was working full-time in the office yet also
submitting timesheets used to bill Medicaid for PCA
services. Tr. (Oct. 20, 2015 PM) at 94-95 (White),
ECF No. 316. Although Michael Bikundi told her to
stop, he did not ask for return of the money or initiate a refund to D.C. Medicaid. Id. at 95. White’s
testimony was corroborated by Williams, who testified that when Michael Bikundi learned that White
had submitted a timesheet claiming that she had
provided services to a Global patient while White
was actually in Jamaica, Michael Bikundi decided
that he was not going to allow Global office workers

128a
to work as PCAs on the weekends anymore. Tr.
(Nov. 2, 2015 AM) at 32-33 (Williams), ECF No. 338.
Nicola White testified about the regular, “numerous
of times” that Florence Bikundi asked her to cash
checks and “[s]he would normally give me a list with
the total amount for each individual and write the
check in my name.” Tr. (Oct. 21, 2015 AM) at 92
(White), ECF No. 318. “Sometimes she would be the
one to give to those individuals and sometimes she
asked me to do it.” Id. at 93. Cash would be paid to
“aides that weren’t legally to work in the United
States,” to Carlson Igwacho, and “every two weeks”
to Medicaid beneficiaries who “actually come to the
office for it; some of the time they will send a family
member.” Id.
3. Elke Johnson
Elke Johnson testified that Florence Bikundi gave
her cash to pay at least three Medicaid beneficiaries
—Carolyn Baldwin, William Smith, and Gary Miller
—for becoming or remaining clients of Global in
order “to build her list of recipients.” Tr. (Oct. 20,
2015 AM) at 27-28 (Johnson), ECF No. 315. Florence
Bikundi instructed Johnson to pay $300 to William
Smith (beneficiary no. xxxx4279, see Def. FB’s R. 29
Mem. at 10, Superseding Indictment ¶ 75(1)), a
patient of Carlson Igwacho, when Carlson Igwacho
was in Cameroon and his timesheet, which falsely
reflected the provision of PCA services during that
period, had already been submitted for reimbursement from Medicaid. Id. at 30-32. In other words,
Carlson Igwacho submitted postdated timesheets
for the beneficiary which contained the beneficiary’s
signature in advance of him leaving on a trip to
Cameroon. Id. at 31.

129a
Johnson further testified that Berenice, Irene,
Carlson and Violet Igwacho were working in the
office or attending school at times they indicated on
timesheets that they were performing PCA work. Id.
at 46-48.
4. Francis James
Francis James testified that, after his girlfriend
Elke Johnson suggested that he become a home
health aide, he met with Florence Bikundi, who told
him that she had a patient for him, Gary Miller
(beneficiary no. xxxx0062, see Def. FB’s R. 29 Mem.
at 11; Superseding Indictment ¶ 75(2)), whom she
had already been paying. Tr. (Oct. 19, 2015 PM)
at 74-75, 107 (Test. of Francis James), ECF No.
313. James already had a full-time job working in
construction, and Florence Bikundi told James that
he did not have to see his patient for the full eight
hours each day that Medicaid would be billed, id. at
75, 86-88, 106; see also id. at 84 (“Miss Florence told
me, it’s okay for to go – for to work and – I mean, I
could put eight hours and I don’t have to work.”).
James paid his patient $100 to $150 every pay period
in return for the patient certifying timesheets weekly
for services that James did not perform. Id. at 77, 80,
107. After James began working at Global, Michael
Bikundi told him that he would have to pay Michael
Bikundi $300 every two weeks, which James understood he would be required to do in order to keep his
job. Id. at 88-89, 120, 125. James therefore paid
Michael Bikundi the $300 kickback every two weeks,
either by the office building or by a Kentucky Fried
Chicken. Id. at 89, 107, 115, 120, 125.
5. Irene Igwacho
Irene Igwacho, who is an RN and the sister of
Florence Bikundi, testified about submitting false

130a
timesheets for two Global patients, Joan Gross and
Sergio Zuniga (beneficiary no. xxxx7041, see Def.
FB’s R. 29 Mem. at 12; Superseding Indictment
¶ 75(9)), reflecting time she had purportedly performed work when she was actually in school, as
Florence Bikundi was well aware. Tr. (Oct. 27, 2015
AM) at 44-45 (Test. of Irene Igwacho), ECF No. 328.
Gross agreed to sign the timesheets falsely certifying
that Irene Igwacho had performed work in return for
biweekly payments of $150. Id. at 47. Irene Igwacho
never met Sergio Zuniga even though she was
supposed to provide PCA services to him on the
weekends and submitted timesheets reflecting that
work. Id. at 53. She simply paid another aide $50 to
have Zuniga sign the timesheets, including for time
periods when Irene Igwacho was traveling out of the
country and both defendants knew this. Id. at 53,
55-56.
Irene Igwacho’s testimony was corroborated by
Sergio Zuniga, who suffers from a spinal deformity.
Tr. (Oct. 20, 2015 PM) at 4-5 (Test. of Sergio Zuniga),
ECF No. 316. Zuniga testified that he was recruited
to use Global for PCA services through an aide
named Darnell Williams. Id. at 5, 19. Darnell Williams would visit Zuniga “roughly every two weeks,”
and give him $175, which helped him financially. Id.
at 7-8. Zuniga “signed the timesheets to basically
continue receiving the help that he was . . . giving.”
Id. at 11. Darnell Williams also told Zuniga that a
different aide, Irene Igwacho, would be assigned to
work with him on the weekends, but that aide never
went to see him and the timesheets for that aide’s
work did not contain his signature. Id. at 15-16.
After Darnell Williams stopped paying him every two
week, Zuniga never sought another home health
aide. Id. at 18.

131a
6. Carlson Igwacho
Carlson Igwacho, the son of Florence Bikundi, is an
RN and worked as a Global PCA in May 2009, following his discharge from military service. See Tr.
(Oct. 28, 2015 AM) at 129-30, 132 (Carlson Igwacho),
ECF No. 329. He denied recognizing a number of
documents, including a health certificate, school
certificates and other information contained in his
Global personnel file, some of which documents
reflected his forged signature. Id. at 135-39. He also
denied that he was aware of having an ownership
interest in Flo-Diamond, as reflected in the Medicaid
provider agreement that Flo-Diamond had with
Maryland. Id. at 140.
Carlson Igwacho testified that he was assigned to
work eight hours per day, seven days per week with
beneficiary William Smith, who appeared to know
Florence Bikundi by asking “How’s Miss Flo?” Tr.
(Oct. 28, 2015 PM) at 9, 15 (Carlson Igwacho), ECF
No. 335. Smith told Carlson Igwacho that he did not
want his PCA around all of the time and threatened
to use a different HCA unless he received payments.
Id. at 10-13. Carlson Igwacho visited him only one to
two days per week, and paid him to certify false
timesheets reflecting PCA services for 56 hours per
week. Id. at 13-15.
Carlson Igwacho also paid other beneficiaries,
Glenn Scott and Mary Drayton (beneficiary no.
xxxx2282, see Def. FB’s R. 29 Mem. at 11; Superseding Indictment ¶ 75(5)), for falsely certifying timesheets for PCA work not performed. Id. at 21-26. He
paid Mary Drayton $300 every pay period to sign
fraudulent timesheets stating that she received 56
hours of services per week from him. Id. at 25. In
sum, from January 2010 to March 2012, Carlson

132a
Igwacho submitted timesheets reflecting that he
worked 16 hours per day, every day, divided into
eight hour shifts between Mary Drayton and William
Smith, even though during this same time period,
from Fall 2009 through Spring 2011, and in the
summer, he was (1) attending school, for which
Florence Bikundi contributed funds; (2) had alcoholrelated arrests, about which the defendants were aware;
(3) was hospitalized for malaria; and (4) traveled to
Cameroon, a trip Florence Bikundi knew about, and
on vacation with the defendants. See id. at 27-40,
43-48; Gov’t Ex. 245.
This testimony was corroborated by multiple witnesses. Nicola White testified that Carlson Igwacho
was assigned to work as a PCA with two patients, for
a total of sixteen hours every day. Tr. (Oct. 20, 2015
PM) at 100-01 (White), ECF No. 316. Melissa Williams
recounted a conversation between herself and Nicola
White, during which White informed her that
Florence Bikundi had assigned Carlson Igwacho to
be the PCA for Mary Drayton, who had previously
been assigned to White. Tr. (Nov. 2, 2015 AM) at 21
(Williams), ECF No. 338. White explained that
because Mary Drayton had been a former client of
Flo-Diamond, Florence Bikundi knew she would
accept money to certify false timesheets and had sent
money over to Mary Drayton. Id. Likewise, Elke
Johnson confirmed that, during a period when Carlson Igwacho was in Cameroon and unable to visit
his patient, Florence Bikundi told Johnson to pay the
patient $300 because Carlson Igwacho’s timesheet,
which falsely indicated that he had provided services
to the patient, had already been submitted. Tr. (Oct.
20, 2015 AM) at 30-32 (Johnson), ECF No. 315.
Finally, Mary Drayton, the beneficiary herself, con-

133a
firmed that she, and her son, R.C., were both paid
money in exchange for signing timesheets that falsely
indicated that Carlson Igwacho (and, for some period,
Violet Igwacho), had provided sixteen hours of service
every day. Tr. (Oct. 28, 2015 AM) at 39-44 (Test. of
Mary Drayton), ECF No. 329.
7. Other PCAs Falsifying Timesheets
The testifying former Global employees admitted to
paying kickbacks to patients for certifying false timesheets and also provided evidence of other Global
employees who engaged in the same illegal activity.
In addition to beneficiaries Carolyn Baldwin, Mary
Drayton and Sergio Zuniga, other former Global
patients testified about being recruited to be Global
patients and the kickbacks they received to certify
false timesheets. Tywonda Fenner (beneficiary no.
xxxx0699, see Def. FB’s R. 29 Mem. at 12; Superseding Indictment ¶ 75(8)) testified that initially, when
she told a prospective home health aide about attending class during the day, the aide’s “boss,” a female,
advised Fenner over the telephone that services
could not be provided unless Fenner were home.
Tr. (Nov. 2, 2015 PM) at 43-45 (Test. of Tywonda
Fenner), ECF No. 340. Nevertheless, Berenice Igwacho
subsequently showed up with doctors’ forms for
Fenner to sign. Id. at 47-48, 59. Berenice Igwacho
paid Fenner approximately $140 every two weeks
and, in exchange, Fenner signed Berenice Igwacho’s
timesheets. Id. at 49-51. Fenner did not ever receive
any PCA services from any Global PCA. See id.
Another Global patient, Alma McPherson (beneficiary no. xxxx4210, see Def. FB’s R. 29 Mem. at 13;
Superseding Indictment ¶ 75(14)), testified that a
woman named “Yvette” visited her at home to ask if
she wanted to make some extra money. Id. at 62-63,

134a
75 (Test. of Alma McPherson). Sometime thereafter,
McPherson, along with two others, went to a clinic
with Yvette, who told McPherson to walk with a
cane, even though she did not need one. Id. at 63-66.
She met with a doctor who prescribed home health
services that she did not need. Id. at 65-67. After
the doctor visit, “Yvette” paid McPherson $100. Id.
at 66. Thereafter, McPherson and her husband were
each assigned a PCA, who came approximately once
a week and had McPherson sign a timesheet. See id.
at 67-70. “Linda,” Yvette’s sister, or, at times, Yvette
herself, would then pay McPherson $200 in exchange
for the signed timesheets. See id.
F. EVIDENCE SUPPORTING MONEY LAUNDERING CHARGES
The government presented the testimony of
Department of Justice Special Agent Nicole Hinson
of the U.S. Attorney’s Office for the District of
Columbia, along with underlying bank and financial
records, to support the money laundering charges
against the defendants. Tr. (Nov. 3, 2015 AM) at 113
(Test. of Nicole Hinson), ECF No. 343. From November 2009 to February 2014, D.C. Medicaid paid
Global a total of $80,620,929.20. Id. at 130; Gov’t
Ex. 5. Over this time period, D.C. Medicaid payments
to Global increased from $1,359,726.88 in 2009, to
$9,956,505.60 in 2010, to $14,277,324.23 in 2011, to
$23,696,990.89 in 2012, and to $27,166,587.08 in
2013. Tr. (Nov. 3, 2015 AM) at 89-90 (Hinson), ECF
No. 343; Gov’t Ex. 133. In January and February
2014, alone, D.C. Medicaid paid a total of
$4,193,079.12 to Global. Tr. (Nov. 3, 2015 AM) at 90
(Hinson), ECF No. 343; Gov’t Ex. 133.
D.C. Medicaid payments were transferred directly
to three different Global accounts—PNC Bank

135a
(“PNC”) account #5874, and Bank of America
(“BOA”) account #2254 and account #2241 (“Intake
Accounts”)—for which Florence and Michael Bikundi
were the sole signatories. Tr. (Nov. 3, 2015 AM) at
132-33 (Hinson), ECF No. 343; Gov. Ex. 184. These
defendants then moved D.C. Medicaid funds from
these three Intake Accounts into additional Global
corporate accounts to pay operational expenses and
into two Flo-Diamond accounts (BOA account #2267
and PNC account #6271). Tr. (Nov. 3, 2015 AM) at
133-34 (Hinson), ECF No. 343; Gov. Ex. 184. From
these secondary accounts, Florence and Michael
Bikundi distributed the D.C. Medicaid funds to over
one hundred other financial accounts they controlled,
where they conducted “tens of thousands of transactions,” including to pay for personal expenses. Tr.
(Nov. 3, 2015 AM) at 130-31, 134 (Hinson), ECF No.
343; Tr. (Nov. 4, 2015 AM) at 72-73 (Hinson), ECF
No. 344; Tr. (Oct. 20, 2015 PM) at 125-26 (White),
ECF No. 316; Gov. Ex. 184. Approximately ninety
percent of the funds that went into the defendants’
accounts came from D.C. Medicaid. Tr. (Nov. 3, 2015
AM) at 131 (Hinson), ECF No. 343.8
The types of financial institution accounts controlled
by Florence and Michael Bikundi included accounts
in the names of multiple corporations, personal bank
accounts, life insurance accounts, investment accounts,
trust accounts, college savings plans, annuities, IRAs,
and international bank accounts. Id. at 119, 127-30;
8 Agent Hinson testified that she spent months of working
seven days per week to trace all of the funds in the accounts
controlled by the defendants. Tr. (Nov. 4, 2015 AM) at 74
(Hinson), ECF No. 344. Indeed, she detailed that she obtained
over 80 seizure warrants for financial institution accounts and
five cars traceable to funds paid from D.C. Medicaid to Global.
Tr. (Nov. 3, 2015 AM) at 118 (Hinson), ECF No. 343.

136a
Gov’t Ex. 184. From November 2009 to February
2014, the defendants purchased over $7,700,000 in
cashier’s checks from funds from some of these
accounts. Tr. (Nov. 3, 2015 PM) at 27, 93-94 (Hinson),
ECF No. 342; Gov’t Ex. 154. Among the accounts
to which the defendants transferred D.C. Medicaid
funds were three accounts in the name of CFC Home
Trade & Investment, LLC (“CFC”) and two accounts
in the name of Tri-Continental Trade & Development
(“Tri-Continental”). Tr. (Nov. 3, 2015 AM) at 139,
143 (Hinson), ECF No. 343; Gov’t Exs. 151, 152, 184,
250. Agent Hinson expressed her belief that “the use
of Tri-Continental and CFC were attempts to use a
false name” to conceal the source of illegal funds and
make it appear that the funds were coming from
another corporation, and that tracing the funds
could not be easily accomplished by those without the
“ability to subpoena all the records involved.” Tr.
(Nov. 4, 2015 AM) at 28, 32, 69, 71-72 (Hinson), ECF
No. 344; id. at 79 (testifying that “essentially that
is important in money laundering because money
coming from Global Health Care is being provided
to Florence Bikundi and Michael Bikundi under the
name of a second company”). No evidence was uncovered that these two companies, CFC and TriContinental, which were formed to conduct altogether
different lines of business than Global, generated any
income on their own. Id. at 78.
1. CFC Accounts
According to its Articles of Organization, dated
October 17, 2012, CFC was a real estate investment
business. Gov’t Ex. 249. Carlson Igwacho testified
that he formed this company with his mother, Florence
Bikundi, and Chris Asongcha, with the name “CFC”
derived from the first letters of each of their first
names, and with the intent to do residential real

137a
estate business in Baltimore, Maryland. Tr. (Oct. 28,
2015 PM) at 66-67 (Carlson Igwacho), ECF No. 335.9
He testified, however, that, to his knowledge, CFC
never actually did any business because he could not
borrow the money needed to invest in real estate.
Id. A property in Baltimore was titled in the name
of CFC, but was purchased on June 5, 2013, with
funds transferred from Global Intake Account, BOA
account #2254. Gov’t Ex. 172; Tr. (Oct. 29, 2015 PM)
at 23-27 (Test. of Andrew Levy), ECF No. 334; Tr.
(Nov. 3, 2015 AM) at 141-43 (Hinson), ECF No. 343.
Although the registered agent listed on CFC’s
Articles is Carlson Igwacho, someone else signed his
name on the Articles and “one of Global’s office[ ]”
addresses was listed as the CFC company address.
Gov. Ex. 249; Tr. (Oct. 28, 2015 PM) at 68-70 (Carlson Igwacho), ECF No. 335. Florence and Michael
Bikundi were listed as CFC’s “managing members”
and were both signatories on CFC’s three bank
accounts. Gov’t Ex. 250; Tr. (Nov. 3, 2015 AM) at
143 (Hinson), ECF No. 343. Review of these CFC
accounts revealed no payments to title or insurance
companies, home inspectors, or cleaning services,
and no deposits from tenants or property sales. Tr.
(Nov. 3, 2015 AM) at 144 (Hinson), ECF No. 343.
The only expenditures from the three CFC accounts
consistent with real estate investment were three
checks totaling approximately $40,000 that may have
been related to home renovations. Id. at 143-44.
Although no evidence indicates that any business
relationship existed between Global and CFC, or that
CFC provided any services to Global, id. at 149, over
9 Michael Bikundi was not supposed to have a role in CFC,
which is why his name was not included in the company name.
See Tr. (Oct. 29, 2015 AM) at 5 (Carlson Igwacho), ECF No. 332.

138a
$6,300,000 was transferred to CFC’s BOA account
#6749, which was opened on April 25, 2013, and
closed on February 20, 2014, from four different
Global accounts controlled by the defendants, id. at
145; Gov’t Ex. 151 at 1. During that time period,
an additional $150,000 was transferred from a
Tri-Continental account, Citibank account #3303, to
the same CFC BOA account #6749. Gov’t Ex. 151 at 1;
Tr. (Nov. 3, 2015 AM) at 146 (Hinson), ECF No. 343
(Hinson). A total of $6,653,612.08 was deposited into
that CFC account. Id.
As support for Count Nineteen, Agent Hinson
summarized the flow of D.C. Medicaid funds in the
amount of $463,131.90 deposited on May 10, 2013
by DHCF into Global Intake Account, BOA account
#2241. Tr. (Nov. 3, 2015 PM) at 46-47 (Hinson),
ECF No. 342; Gov’t Ex. 177. The same day, $460,000
was wire transferred from that intake account to
a secondary Global account, from which $370,000
was then wire transferred the same day to CFC’s
BOA account #6749. Tr. (Nov. 3, 2015 PM) at 46-47
(Hinson), ECF No. 342.
As support for Count Twenty, Agent Hinson
summarized the flow of D.C. Medicaid funds in the
amount of $503,224.44 deposited on June 7, 2013 by
DHCF into Global Intake Account, BOA account
#2241. Id. at 47-48; Gov’t Ex. 178. The same day,
$450,000 was wire transferred from that intake
account to a secondary Global account and a check
for $400,000 signed by Florence Bikundi from that
secondary Global account was deposited into CFC’s
BOA account #6749. Tr. (Nov. 3, 2015 PM) at 47-48
(Hinson), ECF No. 342.
As support for Count Twenty-One, Agent Hinson
summarized the flow of D.C. Medicaid funds in the

139a
amount of $511,481.30 deposited on June 21, 2013
by DHCF into Global Intake Account, BOA account
#2241. Id. at 48-49; Gov’t Ex. 179. The same day,
$510,000 was wire transferred from that intake
account to a secondary Global account and a check
for $240,000 signed by Florence Bikundi from that
secondary Global account was deposited into CFC’s
BOA account #6749. Tr. (Nov. 3, 2015 PM) at 48-49,
ECF No. 342.
As support for Count Twenty-Two, Agent Hinson
summarized the flow of D.C. Medicaid funds in the
amount of $530,052.90 deposited on August 2, 2013
by DHCF into Global Intake Account, BOA account
#2241. Id. at 49-50; Gov’t Ex. 180. The same day,
$430,000 was wire transferred from that intake
account to a secondary Global account and a check
for $360,000 signed by Florence Bikundi from that
secondary Global account was deposited into CFC’s
BOA account #6749. Tr. (Nov. 3, 2015 PM) at 49-50
(Hinson), ECF No. 342.
Approximately $2,390,000 in checks were written
from CFC’s BOA account #6749 to Florence Bikundi
and $517,000 in checks were written to Michael
Bikundi. Gov’t Ex. 151 at 2-57; Tr. (Nov. 3, 2015 AM)
at 146 (Hinson), ECF No. 343. These checks included
a $50,000 check payable to Florence Bikundi referencing “mortgage;” a $150,000 check payable to
Florence Bikundi referencing “Citibank savings/
checking;” a $300,010 check payable to Florence
Bikundi referencing “M&T Savings;” a $10,000 check
payable to Michael Bikundi referencing “contractor
pay [b]onus;” a $10,000 check payable to Florence
Bikundi referencing “pay [b]onus;” a $91,000 check
payable to Florence Bikundi; a $100,000 check payable to Florence Bikundi referencing “Money Market

140a
Savings (M&T Bank);” a $30,000 check payable to
Florence Bikundi referencing “contractor’s pay;” a
$15,000 check payable to Michael Bikundi; and a
$300,000 check payable to Florence Bikundi. Gov’t.
Ex. 151 at 7-8, 11, 18-19, 21, 30, 40, 48, 53; Tr. (Nov.
3, 2015 AM) at 147-49 (Hinson), ECF No. 343.
2. Tri-Continental Account
According to its Articles of Incorporation, TriContinental was an import/export business, created
in May 2008 and located at the same address as
Flo-Diamond. Tr. (Nov. 3, 2015 AM) at 135-36 (Hinson), ECF No. 343; Gov’t Ex. 187. Florence Bikundi
served as the resident agent. Id. Tri-Continental
had two bank accounts, for which both Florence and
Michael Bikundi were signatories. Tr. (Nov. 3, 2015
AM) at 139 (Hinson), ECF No. 343. Citibank account
#3303 in the name of Tri-Continental was opened on
August 23, 2012, and closed on February 20, 2014.
Gov’t Ex. 152 at 1; Tr. (Nov. 3, 2015 AM) at 136
(Hinson), ECF No. 343. During that time period, a
total of $6,390,028.31 was deposited into the account.
Gov’t Ex. 152 at 1; Tr. (Nov. 3, 2015 AM) at 137
(Hinson), ECF No. 343.
Although no evidence indicates any business relationship existed between Global and Tri-Continental
or that Tri-Continental provided any services to
Global, over $3,000,000 was deposited into TriContinental’s Citibank account #3303 from two
different Global accounts, almost $1,400,000 from
a Flo-Diamond account, and $30,000 from a CFC
account, all controlled by the defendants. Gov’t Ex.
152; Tr. (Nov. 3, 2015 AM) at 136-37 (Hinson), ECF
No. 343; Tr. (Nov. 4, 2015 AM) at 77-78 (Hinson),
ECF No. 344.

141a
As support for Count Sixteen, Agent Hinson
summarized the flow of D.C. Medicaid funds in the
amount of $528,552.72 deposited on November 5,
2012 by DHCF into Global Intake Account, PNC
account #5874. Tr. (Nov. 3, 2015 PM) at 42-43
(Hinson), ECF No. 342; Gov’t Ex. 174. The next day,
$531,000 was wire transferred from that intake
account to a secondary Global account; then $400,000
was wire transferred to a Flo-Diamond account; and
a check from the Flo-Diamond account was written in
the same amount for deposit into Tri-Continental’s
Citibank account #3303. Tr. (Nov. 3, 2015 PM) at 4243 (Hinson), ECF No. 342.
As support for Count Seventeen, Agent Hinson
summarized the flow of D.C. Medicaid funds in the
amount of $524,354.30 deposited on March 15, 2013
by DHCF into Global Intake Account, BOA account
#2241. Id. at 44-45; Gov’t Ex. 175. The same day,
$500,000 was wire transferred from that intake
account to a secondary Global account, and then
Michael Bikundi wrote a check in the amount of
$500,000 from the secondary Global account for
deposit into Tri-Continental’s Citibank account #3559.
Tr. (Nov. 3, 2015 PM) at 44-45 (Hinson), ECF No. 342.
As support for Count Eighteen, Agent Hinson
summarized the flow of D.C. Medicaid funds in the
amount of $478,958.40 deposited on April 26, 2013
by DHCF into Global Intake Account, BOA account
#2241. Id. at 45-46; Gov’t Ex. 176. The same day,
$400,000 was wire transferred from that intake
account to a secondary Global account and, three days
later, Florence Bikundi wrote a check in the amount
of $400,000 from the secondary Global account
for deposit into Tri-Continental’s Citibank account
#3303. Tr. (Nov. 3, 2015 PM) at 45-46 (Hinson), ECF
No. 342.

142a
Agent Hinson also testified about various transactions supporting Counts Twenty-Three through
Twenty-Five, but the defendants were acquitted of
those charges.10
G. DEFENSE CASE
The defendants called three witnesses. First, Joseph
Igwacho testified that his daughter, Florence Bikundi,
started using “Bikundi” over ten years ago, about
the same time that Michael Bikundi, who had been
Florence Igwacho’s boyfriend, expressed his intentions
to marry her by providing a gift of dowry in “[a]bout
2003, 2005, thereabout,” in accord with Cameroonian
custom. Tr. (Nov. 4, 2015 PM) at 21-22 (Test. of
Joseph Igwacho), ECF No. 345. Second, the defense
called Special Agent Christopher Steinbauer, who
testified that an active arrest warrant was outstanding for Chris Asongcha for his role in the Global
health care fraud case. Id. at 32-33 (Test. of Christopher Steinbaughter). Finally, the defense called Paul
Toulouse, an attorney who was retained by Michael
Bikundi to handle civil and regulatory matters for
Global. Id. at 35-36 (Toulouse). He testified about
his successful representation of Global to defeat the
District’s efforts to revoke Global’s license as a home
care agency. See id. at 34-36, 39-41, 51-53. Global
continued to operate until execution of search war-

10 At the close of the government’s case-in-chief, the defendants moved for judgment of acquittal, under Federal Rule of
Criminal Procedure 29(a), on all charges, which motion was
denied in part and reserved in part. Tr. (Nov. 4, 2015 PM) at 3-8,
10-18, ECF No. 345. Specifically, the Court reserved decision,
under Federal Rule of Criminal Procedure 29(b), on the defendants’ motions for acquittal on all the money laundering charges
in Counts Sixteen through Twenty-Five. Id. at 18.

143a
rants in connection with the investigation of this case
in February 2014. Id. at 53.11
H. THE VERDICT
The jury returned guilty verdicts against both Florence and Michael Bikundi on: Count One (conspiracy
to commit health care fraud), finding unanimously
that the object of the conspiracy was to violate 18
U.S.C. §§ 1347 and 1035, and that Florence Bikundi
also conspired to violate 42 U.S.C. § 1320a-7b(b),
Verdict Form at 1, ECF No. 361; Count Two (health
care fraud), id. at 2; Count Fifteen (money laundering
conspiracy), finding unanimously that the object of the
conspiracy was to violate 18 U.S.C. §§ 1956(a)(1)(B)(i)
and 1957, id.; and Counts Sixteen through TwentyTwo (laundering of monetary instruments), id. at 3-4.
Florence Bikundi was also found guilty of Counts
Thirteen (health care fraud – exclusion from program)
and Fourteen (Medicaid fraud – false statements,
concealing and failing to disclose). Id. at 2.
The jury acquitted the defendants of Counts TwentyThree through Twenty-Five (engaging in monetary
transactions in property derived from specified unlawful activity) related to checks, dated January 28,
2013, June 24, 2013 and July 2, 2013, drawn on
accounts into which Global funds had allegedly been
deposited. Id. at 5.12
***
11

At the close of all the evidence, the defendants renewed
their motions for judgment of acquittal, which the Court denied
as to Counts One, Two, Thirteen and Fourteen, and reserved as
to the money laundering charges. See Minute Entry (Nov. 5, 2015).
12 After the jury returned its verdict, the Court denied the
defendants’ motions for acquittal, which had previously been
reserved, on the money laundering charges in Counts Sixteen
through Twenty-Two. Minute Entry (Nov. 12, 2015)

144a
In accordance with the briefing schedule set by the
Court, the parties timely filed their pending posttrial motions.13
II. LEGAL STANDARDS
A. RULE 29 MOTION FOR JUDGMENT OF
ACQUITTAL
Federal Rule of Criminal Procedure 29(a) requires
a court to grant a defendant’s motion for a judgment
of acquittal of any “offense for which the evidence
is insufficient to sustain a conviction” and, further,
authorizes the court “on its own” to “consider whether
the evidence is insufficient to sustain a conviction.”
FED. R. CRIM. P. 29(a). The Supreme Court has
emphasized that, in evaluating the sufficiency of the
evidence, “[t]he reviewing court considers only the
‘legal’ question ‘whether, after viewing the evidence
in the light most favorable to the prosecution, any
rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.’ ”
Musacchio v. United States, 136 S. Ct. 709, 715
(2016) (emphasis in original) (quoting Jackson v.
Virginia, 443 U.S. 307, 319 (1979)); see United States
v. Thompson, 279 F.3d 1043, 1050-51 (D.C. Cir. 2002)
(“[T]he court need only determine whether, after
viewing the evidence in the light most favorable to
the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.”); United States v. Singleton, 702
13

A motion for new trial under Rule 33 must be filed within
14 days after the verdict, unless the motion is “grounded on
newly discovered evidence,” in which case the motion must be
filed within three years. FED. R. CRIM. P. 33(b). The Court
granted the defendants’ motion for additional time to file any
motion for a new trial until December 7, 2015. Minute Order
(Nov. 16, 2015).

145a
F.2d 1159, 1163 (D.C. Cir. 1983) (articulating standard
as “whether, viewing the evidence in the light most
favorable to the Government, according the Government the benefit of all legitimate inferences, and
recognizing that it is the jury’s province to determine
credibility and to weigh the evidence, a reasonable
jury must necessarily entertain a reasonable doubt
on the evidence presented” (emphasis omitted)); see
also United States v. Shmuckler, 792 F.3d 158, 161-62
(D.C. Cir. 2015) (same); United States v. Gooch, 665
F.3d 1318, 1326 (D.C. Cir. 2012) (same).
This standard preserves “the factfinder’s role as
weigher of the evidence” and “gives full play to the
responsibility of the trier of fact fairly to resolve
conflicts in the testimony, to weigh the evidence,
and to draw reasonable inferences from basic facts
to ultimate facts.” Jackson, 443 U.S. at 319. As
“expressed more fully,” the role of a reviewing court
“faced with a record of historical facts that supports
conflicting inferences must presume—even if it does
not affirmatively appear in the record—that the trier
of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.”
McDaniel v. Brown, 558 U.S. 120, 133 (2010) (quoting Jackson, 443 U.S. at 326); see also United States
v. Bostick, 791 F.3d 127, 137 (D.C. Cir. 2015) (noting
that “evidence need not exclude every reasonable
hypothesis of innocence or be wholly inconsistent
with every conclusion except that of guilt” to suffice
to sustain guilty verdict) (quoting United States v.
Kwong-Wah, 924 F.2d 298, 302 (D.C. Cir. 1991));
United States v. Laureys, 653 F.3d 27, 31 (D.C. Cir.
2011) (noting that even when “evidence in this case
may be susceptible of more than one interpretation,
. . . we cannot say it was insufficient for the jury
to find the necessary intent beyond a reasonable

146a
doubt”). Thus, the evidence does “not need to be
overwhelming” to clear the bar for the sufficiency of
evidence. United States v. Pasha, 797 F.3d 1122,
1135 n.9 (D.C. Cir. 2015). In short, “[t]he standard
for such challenges is very high.” Id.
B. RULE 33 MOTION FOR NEW TRIAL
Federal Rule of Criminal Procedure 33 provides
that “[u]pon the defendant’s motion, the court may
vacate any judgment and grant a new trial if the
interest of justice so requires.” FED. R. CRIM. P.
33(a). As reflected by the use of the word “may”
in Rule 33, “[t]rial courts enjoy broad discretion in
ruling on a motion for a new trial.” United States v.
Wheeler, 753 F.3d 200, 208 (D.C. Cir. 2014) (citing
Gaither v. United States, 413 F.2d 1061, 1078 (D.C.
Cir. 1969)). While the rules “do not define ‘interests
of justice,’ ” the D.C. Circuit has instructed that
“granting a new trial motion is warranted only in
those limited circumstances where ‘a serious miscarriage of justice may have occurred.’ ” Wheeler, 753
F.3d at 208 (quoting United States v. Rogers, 918
F.2d 207, 213 (D.C. Cir. 1990)).
A new trial motion based, in particular, on the
sufficiency of the evidence, requires the court to
“weigh[ ] the evidence and evaluate[ ] the witnesses’
credibility and decide[ ] whether ‘a serious miscarriage
of justice may have occurred.’ ” United States v. Dale,
991 F.2d 819, 838 (D.C. Cir. 1993) (quoting Rogers,
918 F.2d at 213). When “the court denies the new
trial motion because the court’s decision accords with
the jury’s,” any appellate “review of the district court’s
decision is particularly narrow.” Id.; see also United
States v. Pettiford, 517 F.3d 584, 591 (D.C. Cir. 2008)
(“In reviewing the District Court’s decision on a new
trial motion, [the D.C. Circuit] appl[ies] a deferential
standard, and will reverse only if the court abused its

147a
discretion or misapplied the law.” (quoting United
States v. Lafayette, 983 F.2d 1102, 1105 (D.C. Cir.
1993)); United States v. Kelly, 748 F.2d 691, 701
(D.C. Cir. 1984) (holding that, as long as the weight
of the evidence clearly weighs in favor of conviction,
not against it, there is no abuse of discretion in denying a new trial motion).
III. DISCUSSION
Florence and Michael Bikundi generally raise overlapping arguments in support of their motions for
acquittal and for a new trial, including their claims
that the government presented insufficient evidence
to support their convictions, with related arguments
regarding the inherent unbelievability of the government’s witnesses, the prejudicial impact of admitting
one of the government’s almost three hundred exhibits,
a supposed variance in proof on the health care fraud
conspiracy charge in Count One, and the purported
need for a unanimity instruction on the substantive
health care fraud charge in Count Two. See generally
Florence Bikundi’s Mem. Supp. Mot. New Trial (“Def.
FB’s R. 33 Mem.”), ECF No. 394-1; Florence Bikundi’s
Mem. Supp. Mot. J. Acquittal (“Def. FB’s R. 29 Mem.”),
ECF No. 393-1; Def. MB’s R. 33 Mot.14 Michael
Bikundi also seeks a new trial for failure to sever his
14 Since each defendant joined any argument made by the
other in support of their motions, the arguments will generally
be considered as made by both defendants. See Minute Order
(Dec. 15, 2016) (granting Florence Bikundi’s motions to join and
adopt Michael Bikundi’s motions); Minute Order (Jan. 6, 2016)
(granting Michael Bikundi’s motion to join and adopt Florence
Bikundi’s motions); see also Def. MB’s R. 29 Mot. ¶ 4 (adopting
“all relevant arguments made on behalf of co-defendant Florence
Bikundi”); Def. FB’s R. 33 Mem. at 3 n.1 (adopting “arguments
made in Mr. Michael Bikundi’s Rule 29(c) and Rule 33 Motions,
as to the arguments that apply to Mrs. Bikundi as well”).

148a
trial from that of his spouse and for selective prosecution. Def. MB’s R. 33 Mot. at 47-53. Each of these
arguments is addressed below.
A. CHALLENGES TO HEALTH CARE FRAUD
CONVICTIONS
As noted, the defendants raise a number of interrelated arguments regarding the sufficiency of the
evidence presented to support their convictions for
conspiracy to commit and committing health care
fraud. For the reasons discussed below, these arguments are unavailing.
1. Cooperators’ Testimony Was Not
“Inherently Incredible”
As a threshold issue, Florence and Michael Bikundi
attack the credibility of the government’s cooperating
witnesses in an effort to have this testimony discounted or put aside in evaluating the sufficiency of
the evidence supporting the defendants’ convictions
on Counts One and Two. They urge that their health
care fraud conspiracy and substantive charges be
vacated due to the “questionable” credibility of the
cooperating witnesses, whose testimony they characterize as “inherently incredible.” Def. FB’s R. 33
Mem. at 10; see also Michael Bikundi’s Reply Opp’n
Renewed Mot. J. Acquittal (“Def. MB’s R. 29 Reply”)
at 8, ECF No. 416 (“[T]he inherently incredible
testimony of the cooperators should be disregarded as
it was in its entirety highly questionable and utterly
lacking in belief.”). As support, these defendants
revive arguments about the credibility of multiple
“purported co-conspirators,” who “had a previous
health care fraud experience prior to joining Global”
by “engag[ing] in identical conduct in their prior
employment.” Def. FB’s R. 33 Mem. at 10. These
same arguments were made at trial, rejected by the

149a
jury, see, e.g., Tr. (Nov. 9, 2015 PM) at 98-113,
ECF No. 376 (Florence Bikundi’s summation); Tr.
(Nov. 10, 2015 AM) at 11-30, ECF No. 377 (Michael
Bikundi’s summation), and certainly fare no better
under more stringent standards applicable to the
doctrine of inherent unbelievability invoked by the
defendants.
Consistent with the standard to be applied in evaluating the sufficiency of the evidence—i.e., “whether,
after viewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could
have found the essential elements of the crime
beyond a reasonable doubt,” Wright v. West, 505 U.S.
277, 284 (1992) (emphasis omitted) (quoting Jackson,
443 U.S. at 319)—the defendants’ invocation of the
inherent unbelievability doctrine essentially asks
this Court to conclude that no rational juror could
have relied upon the challenged testimony. Accord
Millar v. FCC, 707 F.2d 1530, 1539 (D.C. Cir. 1983)
(noting “that a witness’s testimony may be, under the
circumstances of the case, so incredible, or contrary
evidence may be so overwhelming, that demeanor
could not convince a reasonable factfinder that the
witness was telling the truth”). This is a heavy
burden, since generally the jury has the responsibility
“fairly to resolve conflicts in the testimony, to weigh
the evidence, and to draw reasonable inferences from
the basic facts to ultimate facts.” Jackson, 443 U.S.
at 319. As the Supreme Court “[e]xpressed more
fully, this means” that when the record contains
“facts that support[ ] conflicting inferences,” a reviewing court “must presume . . . that the trier of fact
resolved any such conflicts in favor of the prosecution, and must defer to that resolution.” McDaniel,
558 U.S. at 133 (quoting Jackson, 443 U.S. at 326).

150a
Thus, the D.C. Circuit has rejected defense claims
that testimony must be set aside as inherently
incredible based upon lack of clarity in timing or
chronology of events or inconsistencies, which “are
not so glaring that the . . . testimony must be a fabrication.” United States v. Streater, 70 F.3d 1314, 1318
(D.C. Cir. 1995) (internal quotation omitted); see also
Johnson v. United States, 426 F.2d 651, 654 (D.C.
Cir. 1970) (“Having made this determination based
on testimony which was not inherently incredible,
the case was for the trier and not the trial judge, and
the motion for a directed verdict of acquittal was
properly denied.”); accord Farrar v. United States,
275 F.2d 868, 869 (D.C. Cir. 1959) (reversing rape
conviction upon finding that “[i]t is nearly or quite
incredible that appellant could have used a knife as
extensively as the girl said he did without her ever
seeing it”). In Jackson v. United States, 353 F.2d 862
(D.C. Cir. 1965), which involved review of judicial,
rather than jury, fact-finding, the Court explained
that the inherently incredible doctrine may apply
“if the person whose testimony is under scrutiny
made allegations which seem highly questionable in
the light of common experience and knowledge, or
behaved in a manner strongly at variance with the
way in which we would normally expect a similarly
situated person to behave.” Id. at 867.
Set against these legal principles, the defendants
are unable to demonstrate anything in the testimony
of the government’s cooperating witnesses that is
inherently improbable or simply too incredible for
a rational juror to accept. Specifically, Florence
Bikundi points out that Melissa Williams denied that
Florence Bikundi knew about her fraudulent patient
sharing activities with four other Global employees

151a
and for a patient at another company, Vizion One.15
Def. FB’s R. 33 Mem. at 11; Def. FB’s R. 29 Mem. at
4-5. This testimony that Williams did not actively
broadcast her illegal schemes within the Global office
to her bosses, Florence and Michael Bikundi, may be
exculpatory of the defendants but that does not make
the testimony “incredible.” In addition, Florence
Bikundi challenges Williams’ testimony about being
present with Florence Bikundi during surveys as
belied by the fact that Williams was not working in
the office for the December 2010 survey or a followup survey in February 2011, and Florence Bikundi
was not present during the September 2011 survey.
Def. FB’s R. 33 Mem. at 11; Def. FB’s R. 29 Mem. at
5. The three dates cited by Florence Bikundi were
not, however, the only visits of the surveyors to the
Global offices since they also conducted (or attempted
to conduct) surveys in Global’s offices on August 30,
2011 and March 13-15, 2012. See, e.g., Gov’t Ex. 21
at 6 (noting face-to-face meeting on March 13, 2012,
with “Administrator . . . [and] Office Manager/Human
Resource Coordinator”); Gov’t Ex. 26 (noting “a followup survey was initiated on August 30, 2011” but “had
to be aborted due to the agency’s failure to have files
available for review”). At most, Florence Bikundi’s
attack on Melissa Williams’s testimony that she
helped Florence Bikundi falsify documents for
HRLA surveys shows a lack of clarity in the witness’
recollection of survey timing that was fully disclosed
during Williams’ testimony. Tr. (Nov. 2, 2015 AM) at
82 (Williams), ECF No. 338.
15 Williams testified about “patient sharing” with other PCAs
and described the arrangements to be that Williams and the
other PCAs would all contribute to the kickbacks and benefit
from the patients’ false certification of timesheets. See, e.g., Tr.
(Nov. 2, 2015 AM) at 6-9, 39-40 (Williams), ECF No. 338.

152a
Florence Bikundi also challenges the testimony of
Francis James, who recounted his conversation with
Florence Bikundi when he was hired as a Global
PCA. According to James, Florence Bikundi “gave
[him] the job” as a PCA and told him that “she have a
client and she would assign me to him,” but “that I
don’t have to go and work the whole time. And she
already paid — pays him, and if I want, I could just
use discretion and give him a little something.”
Tr. (Oct. 19, 2015 PM) at 74 (James), ECF No. 313.
James testified he understood that although the
patient, Gary Miller, was supposed to have PCA
services eight hours per day, James did not have to
work those hours. Id. at 75.
Florence Bikundi proffers what she describes as a
“more plausible explanation” for James’ employment
as a PCA, Def. FB’s R. 33 Mem. at 12, that places all
the blame on Elke Johnson, who “[a]s staffing coordinator, . . . brought Mr. James into Global, falsified
his documents and set him up with a patient. Elke
Johnson explained to Mr. James how to fill out timesheets, and even filled them out for him at times,”
Def. FB’s R. 29 Mem. at 8; see also Def. FB’s R. 33
Mem. at 12. Elke Johnson conceded her role in using
James’ credentials to get paid as a PCA and recruiting him to join her in the Global fraud scheme of
paying patients to sign-off on false timesheets in
order to bill D.C. Medicaid for PCA service not
performed. Tr. (Oct. 20, 2015 AM) at 49 (Johnson),
ECF No. 315. This does not render “incredible” that
Florence Bikundi spoke to James with assurances
that he could continue his full-time construction
work while also submitting false timesheets to
enable Global to increase its billing to D.C. Medicaid

153a
for PCA services. See generally Tr. (Oct. 19, 2015 PM)
at 74-86 (James), ECF No. 313. Indeed, Florence
Bikundi was aware from reviewing Elke Johnson’s
timesheets that Johnson used Francis James’ name,
and his pertinent credentials, to get paid. See Tr.
(Oct. 20, 2015 AM) at 15, 49 (Johnson), ECF No. 315.
The defendants next describe Elvis Atabe as “an
admitted perjurer.” Def. FB’s R. 33 Mem. at 12; see
Def. MB’s R. 33 Mot. at 22. As such, the defendants
urge that Atabe’s testimony that Florence Bikundi
would show him how to create false documents
“within weeks of being hired at Global” be rejected as
“inherently incredible.” Def. FB’s R. 33 Mem. at 12;
see Def. FB’s R. 29 Mem. at 7 (“[T]here is no juror
that could have found beyond a reasonable doubt
that after a couple weeks of working at Global, Mrs.
Bikundi would sit in a chart room with Mr. Atabe, a
man she does not know, and begin altering documents
as part of a health care fraud conspiracy.”). Yet,
this focus on the short time Florence Bikundi had
personally known Atabe before engaging in illegal
document alterations, ignores other salient information known to the defendants about Atabe, namely
that he was a friend of, and had been recruited to
Global by, James Mbide, who already knew the score
about the fraudulent alteration of documents at
Global. See Tr. (Oct. 19, 2015 AM) at 5 (Mbide), ECF
No. 314; Tr. (Oct. 21, 2015 PM) at 86, 93 (Atabe),
ECF No. 317. Indeed, Atabe had worked with Mbide
at another company, T&N Reliable Nursing Services
(“T&N”), where Mbide had engaged in the creation of
false nurse notes, Tr. (Oct. 16, 2015 PM) at 89
(Mbide), ECF No. 312, the same service he performed
at Global, Tr. (Oct. 19, 2015 PM) at 25, 48-49, 54
(Mbide), ECF No. 313. In other words, the jury could
reasonably conclude that Atabe was a known

154a
commodity when he was hired and, as a result, the
defendants trusted that Atabe would do what was
necessary, including falsifying documents, to extract
money from D.C. Medicaid. This trust turned out
to be well-placed since Atabe testified about his
creation of fake nurse notes and POCs at Global
within his first week of work there. Tr. (Oct. 21,
2015 AM) at 115-16 (Atabe), ECF No. 318; Tr. (Oct.
21, 2015 PM) at 48-58 (Atabe), ECF No. 317.
Similar to their challenge of Melissa Williams, the
defendants contest Atabe’s testimony that he assisted Florence Bikundi in falsifying documents during
surveys since he only began working at Global in
April 2011. Def. FB’s R. 33 Mem. at 12. This does
not render Atabe’s testimony about the fraudulent
survey-related activity “incredible” since the HRLA
surveyors made subsequent visits to Global on, at
least, August 30, 2011, September 27, 2011, and
March 13-15, 2012. See Gov’t Exs. 21, 26, 202.
Florence Bikundi expresses disbelief at “the
demeanor and testimony of James Mbide,” who
despite his “sudden” shame had engaged “in falsifying documents not just at Global but also at T&N
Reliable.” Def. FB’s R. 33 Mem. at 13; see also Def.
FB’s R. 29 Mem. at 6. To the extent that the defendants seek to discount Mbide’s testimony about the
defendants’ involvement in the fraud scheme by
ascribing Mbide’s illegal acts to his own efforts “to
continue to perpetuate his own fraud,” Def. FB’s
Mem. at 13, they ignore the extensive corroboration
by other cooperating witnesses of Mbide’s testimony
regarding Florence and Michael Bikundi’s supervision of, and involvement in, falsifying documents and
their management of Global’s business to maximize
reimbursements from D.C. Medicaid.

155a
With respect to the beneficiaries’ testimony, Florence
Bikundi dismisses Carolyn Baldwin’s testimony
about receiving pay-offs, explaining that Florence
Bikundi “was not paying Ms. Baldwin for signing
timesheets, but instead for fixing a broken chair or
providing a gift after Ms. Baldwin’s husband passed
away.” Def. FB’s R. 33 Mem. at 13. In light of the
corroborating testimony of Melissa Williams and
Elke Johnson about payments from Florence Bikundi
to Baldwin for false timesheet certifications, the
jury could have reasonably concluded that Baldwin’s
testimony on this issue was credible. See supra Parts
I.E.1, 3. Florence Bikundi also challenges beneficiary
Alma McPherson’s testimony about complaining to
Global about not receiving PCA services when she
“continued to collect money every week from her
aides instead of transferring to another agency to
receive the services that she claimed she needed.”
Def. FB’s R. 33 Mem. at 13-14. Again, nothing about
this testimony is “incredible.” Both Baldwin and
McPherson fully acknowledged that they used the
payments made by the PCAs in return for certifying
false timesheets for services not performed. See Tr.
(Nov. 2, 2015 PM) at 69 (McPherson), ECF No. 340
(testifying that she used the kickbacks on “food for
the house” and buy “dog food”); Tr. (Nov. 3, 2015 AM)
at 53 (Baldwin), ECF No. 343 (testifying she used the
kickbacks “for myself ” and “might have sent it to
somebody in jail”); see also Tr. (Oct. 20, 2015 PM) at
6-9 (Zuniga), ECF No. 316 (testifying that, though he
needed help because of his disability, he also needed
“help . . . financially”).
The defendants conveniently ignore the testimony
from these and other witnesses that demonstrates
the defendants’ knowledge and direction of the
overall fraud scheme and the corroboration by the

156a
cooperating witnesses of key details of each other’s
testimony. For example, James Mbide, Elvis Atabe,
Elke Johnson and Nicola White all corroborated each
other about their participation in and observations of
others, including Florence Bikundi, actually creating
fake documents for both patient and Global employee
files. Mbide also testified that Michael Bikundi was
present when false nurse notes were created to avoid
problems with surveys, Tr. (Oct. 19, 2015 AM) at 14
(Mbide), ECF No. 314, testimony further corroborated
by Nicola White who testified about Michael Bikundi
being unsatisfied with the appearance of falsified
documents in the Global files, Tr. (Oct. 20, 2015 PM)
at 73-74 (White), ECF No. 316. Additionally, the testimony of the beneficiaries was confirmed by multiple
cooperating witnesses. Melissa Williams and Elke
Johnson corroborate that they made payments to
Carolyn Baldwin, Tr. (Oct. 29, 2015 PM) at 46 (Williams), ECF No. 334; Tr. (Oct. 20, 2015 AM) at 27-28
(Johnson), ECF No. 315, a beneficiary who testified
that she was recruited directly by Florence Bikundi,
who was accompanied by her “tall” “boyfriend,” to be
a patient of Flo-Diamond and then became a patient
of Global. Tr. (Nov. 3, 2015 AM) at 30 (Baldwin),
ECF No. 343. After receiving payments from Florence
Bikundi, Baldwin testified that she received payments
from “Elke” and from “Melissa.” Id. at 31-33, 45.
Moreover, the defendants’ post-trial challenges to
the credibility of the government’s witnesses were
fully presented at trial, where the defendants had
and exercised the opportunity to impeach the witnesses about these subjects. “Simply put, credibility
judgments are the sole province of the jury,” which
“ultimately decided whom to believe, and how important this issue was to its verdict.” Radtke v. Lifecare
Mgmt. Partners, 795 F.3d 159, 167 (D.C. Cir. 2015);

157a
see United States v. Anderson, 498 F.2d 1038, 1039
n.1 (D.C. Cir. 1974) (affirming “trial court’s refusal to
grant a motion for judgment of acquittal” based on
defense argument that “testimony of the complaining
witness was ‘inherently incredible,’ ” since “[t]he
question of credibility was for the jury” and sufficient
evidence sustained the verdicts). Consequently, the
defendants’ effort to persuade this Court to supplant
the jury’s assessment of the credibility of any or all of
the government’s cooperating witnesses in evaluating
the sufficiency of the evidence is rejected.
2. Ample Evidence Supports The Defendants’
Health Care Fraud Convictions
In Counts One And Two
Florence and Michael Bikundi contend that their
health care fraud convictions in Counts One and
Two for conspiracy and substantive health care
fraud, respectively, were not supported by sufficient
evidence, warranting a judgment of acquittal or a
new trial. Def. FB’s R. 29 Mem. at 3.16 Contrary
16 Michael Bikundi presents no explicit argument challenging
the sufficiency of the evidence underlying the health care fraud
convictions but instead, as noted supra in note 14, “adopts any
additional relevant arguments rasied [sic] by co-defendant Florence Bikundi.” Def. MB’s R. 33 Mot. at 53 (emphasis omitted).
The sufficiency challenge to the defendants’ health care fraud
convictions is, consequently, construed as applying to both
defendants. In addition, in response to the government’s
contention that admission of an exhibit, even if erroneous,
was harmless, Michael Bikundi notes “the paucity of evidence
introduced against Michael Bikundi” and “several exculpatory
items of information that were brought to the attention of the
jury.” Michael Bikundi’s Reply Gov’t Opp’n Mot. New Trial
(“Def. MB’s R. 33 Reply”), at 6-7, ECF No. 417. The Court will
consider these aspects of the defendant’s argument as part of
the challenge to the sufficiency of the evidence for the health
care fraud convictions.

158a
to the defendants’ contention, the evidence of the
defendants’ involvement in the health care fraud
scheme at Global was overwhelming and supported
by the corroborating testimony of multiple former
Global employees and patients and documentary
proof.
As summarized supra in Part I.C through E,
Florence Bikundi initiated the health care fraud at
Global by submitting an application and agreement
with fraudulent signatures, at a time when she was
excluded from participation in any federal health
care program. She also issued instructions to certain
Global employees, including Francis James and Elke
Johnson, to pay D.C. Medicaid beneficiaries in return
for certifying timesheets for services not performed.
Francis James admitted to submitting false timesheets for beneficiary Gary Miller (beneficiary no.
xxxx0062, see Def. FB’s R. 29 Mem. at 11; Superseding Indictment ¶ 75(2)), after Florence Bikundi hired
James, assigned a patient to him, told him she had
already been paying the patient, and told him that
he should do the same and he would not have to go
to work for the full eight hours for which Medicaid
would be billed. Tr. (Oct. 19, 2015 PM) at 74-75
(James), ECF No. 313. Elke Johnson testified that
Florence Bikundi instructed her to pay $300 to beneficiary William Smith (beneficiary no. xxxx4279, see
Def. FB’s R. 29 Mem. at 10, Superseding Indictment
¶ 75(1)), a patient of Carlson Igwacho’s who had
signed timesheets, which had already been submitted for payment, for a time period when Carlson
Igwacho was in Cameroon. Tr. (Oct. 20, 2015 AM)
at 30-31 (Johnson), ECF No. 315. Thus, contrary to
defendant’s assertion that there “was no evidence
presented that Mrs. Bikundi knew that Carlson
Igwacho was not providing PCA services” to this

159a
patient, Def. FB’s R. 29 Mem. at 10, Elke Johnson’s
testimony establishes that Florence Bikundi had
knowledge that Carlson Igwacho was not providing
the PCA services for which he was submitting timesheets.
Notwithstanding this evidence, Florence Bikundi
contends that “there was insufficient evidence to
show that Mrs. Bikundi participated in these alleged
kickbacks or aided and abetting [sic] any of the other
indicted or unindicted co-conspirators to do the
same,” as charged in Count Two. Def. FB’s R. 29
Mem. at 10-13. She is wrong. Both beneficiary,
Carolyn Baldwin, and Melissa Williams testified that
Florence Bikundi had been paying Baldwin (beneficiary no. xxxx2921, see Def. FB’s R. 29 Mem. at 11;
Superseding Indictment ¶ 75(3)) before Melissa
Williams became Baldwin’s PCA and continued the
payments for certification of false timesheets. Tr.
(Oct. 29, 2015 PM) at 46 (Williams), ECF No. 334; Tr.
(Nov. 3, 2015 AM) at 31-33 (Baldwin), ECF No. 343.
Both Carlson Igwacho and Violet Igwacho submitted
timesheets for PCA services to Mary Drayton (beneficiary no. xxxx2282, see Def. FB’s R. 29 Mem. at 11;
Superseding Indictment ¶ 75(5)), even when Violet
Igwacho was on vacation in California with Florence
and Michael Bikundi. See Gov’t Ex. 443. Melissa
Williams testified that she was present at the
defendants’ home with Irene Igwacho at times on the
weekend when Irene Igwacho should have been with
her patient, Sergio Zuniga (beneficiary no. xxxx7041,
see Def. FB’s R. 29 Mem. at 12; Superseding Indictment ¶ 75(9)), who also confirmed that he falsely
certified timesheets in return for kickbacks. Tr.
(Nov. 2, 2015 AM) at 99-100 (Williams), ECF No.
338; Tr. (Oct. 20, 2015 PM) at 15-16 (Zuniga), ECF
No. 316.

160a
Other witnesses provided additional testimony
about both defendants’ knowledge of the fraudulent
timesheets being submitted by PCAs. Both defendants required that timesheets be submitted for
approval of payroll checks and, thus, were aware of
the dates and times when the PCAs claimed on their
timesheets to be providing services to patients. Tr.
(Oct. 20, 2015 PM) at 50 (White), ECF No. 316; Tr.
(Oct. 21, 2015 AM) at 78, 90 (White), ECF No. 318;
Tr. (Nov. 2, 2015 AM) at 122 (Williams), ECF No.
338; Tr. (Oct. 20, 2015 AM) at 39 (Johnson), ECF
No. 315. Yet, Melissa Williams, Irene Igwacho and
Carlson Igwacho testified variously that they worked
in Global’s offices and attended school, vacations or
family social events at the same time that timesheets
indicated they were providing PCA services. Tr. (Oct.
29, 2015 PM) at 103-107 (Williams), ECF No. 334;
Tr. (Oct. 27, 2015 AM) at 44-45 (Irene Igwacho), ECF
No. 328; Tr. (Oct. 28, 2015 PM) at 29-30, 34-37, 39-40
(Carlson Igwacho), ECF No. 335. Similarly, Nicola
White testified that, when Carlson Igwacho was
assigned to work for a total of sixteen hours every
day of the week for two separate patients at the same
time he was known to be elsewhere, Florence Bikundi
told White that she was just “trying to help Carlson”
out. Tr. (Oct. 20, 2015 PM) at 100 (White), ECF No.
316.
Both Florence and Michael Bikundi also supervised
Global employees in falsifying records in patient and
employee files, as well as other records necessary
for maintaining Global’s license as a D.C. Medicaid
provider. Elvis Atabe testified that Florence Bikundi
showed him how to white-out documents. Tr. (Oct.
21, 2015 AM) at 114-115 (Atabe), ECF No. 318.
Nicola White testified that Florence Bikundi told her

161a
to cut and paste doctors’ signatures onto plans of
care, so that they would appear to have been
approved by the doctors. Tr. (Oct. 20, 2015 PM) at 73
(White), ECF No. 316. White even heard Florence
and Michael Bikundi arguing about Michael Bikundi’s
view that the documents did not look real enough.
Id. at 73-74. Florence Bikundi would then take
the forged plans of care and fax them to one of
Flo-Diamond’s offices and have them faxed back to
her so that the plans of care would look more real.
Id. at 74-75. White also testified about at least two
occasions during her maternity leave when Florence
Bikundi was driven by Michael Bikundi to White’s
home to retrieve so many altered POCs, which White
had created, that they could not be emailed or fit in
an envelope for mailing. Id. at 95-97; Tr. (Oct. 21,
2015 AM) at 82-84 (White), ECF No. 318.
The defendants point to certain exculpatory testimony and evidence in a feeble effort to undermine
the vast amount of other evidence against them.
Specifically, Michael Bikundi notes, first, that his
name was not on Global’s Medicaid Provider Agreement. Gov’t Ex. 1. Def. MB’s R. 33 Reply at 6. Yet,
the evidence is indisputable that Michael Bikundi
was integrally involved as a “boss” at Global: he
exercised hiring and firing authority, including
hiring Elvis Atabe and firing James Mbide, see Tr.
(Oct. 21, 2015 AM) at 109-110 (Atabe), ECF No. 318;
Tr. (Oct. 16, 2015 AM) at 105 (Mbide), ECF No. 312;
he reviewed timesheets and approved checks for
Global employees, see Tr. (Oct. 20, 2015 PM) at 50
(White), ECF No. 316; Tr. (Oct. 21, 2015 AM) at 90
(White), ECF No. 318; Tr. (Nov. 2, 2015 AM) at 122
(Williams), ECF No. 338; Tr. (Oct. 20, 2015 AM) at
39 (Johnson), ECF No. 315; and he gave instructions
to employees to further the fraud scheme by checking

162a
the appearance of falsified documents for authenticity, instructing Nicola White to order supplies for
other Global employees to alter documents, Tr. (Oct.
20, 2015 PM) at 75-76 (White), ECF No. 316, and
instructing Elke Johnson to shred Florence Bikundi’s
personnel file to avoid review by surveyors, Tr. (Oct.
20, 2015 AM) at 55-58 (Johnson), ECF No. 315.
See also Tr. (Oct. 19, 2015 PM) at 153 (Johnson),
ECF No. 313 (testifying that Michael Bikundi would
frequently say “I’m the boss here”); Tr. (Oct. 20, 2015
PM) at 28 (White), ECF No. 316 (testifying about Michael Bikundi that “I just know him as my boss”).
Second, the defendants assert that they were not
present and did not participate when Global PCAs
paid money to beneficiaries for certifying timesheets
for services not performed. Def. MB’s R. 33 Reply at
6; Def. FB’s R. 29 Mem. at 3, 10-13. The jury could
reasonably have found this assertion to be spurious
since the defendants’ review of the timesheets as part
of the process of approving and signing paychecks
would make apparent that multiple PCAs were billing for time spent with Global patients when they
were known to the defendants to be elsewhere. The
defendants also point out that Michael Bikundi
instructed Elke Johnson “to make sure [PCAs] were
at work” and Nicola White to “stop the practice of
billing for services that were not provided,” and that
he “fired aids for not going to work,” and hired field
supervisors to ensure PCAs were performing their
work. Def. MB’s R. 33 Reply at 7. These instructions
by Michael Bikundi demonstrate only that he
was fully aware of the fraudulent timesheets being
submitted for reimbursement by D.C. Medicaid and
that, rather than return money to D.C. Medicaid, he
took minimal steps to address the problem. Finally,
the defendants cite Melissa Williams’ testimony that

163a
she did not tell Florence and Michael Bikundi about
her illegal schemes with other Global employees and
at Vizion One for patient sharing and kickbacks from
job applicants. Def. FB’s R. 29 Mem. at 4. This
testimony likely bolstered rather than undermined
Williams’ credibility since in other instances she
provided evidence of the defendants’ knowledge and
participation in the ongoing fraud at Global.
In any event, the defendants made each of these
points at trial and, as such, they were subject to
evaluation and weighing by the jury. To the extent
this evidence may be considered exculpatory, in light
of the ample evidence presented of the defendants’
culpability, the jury reasonably determined that the
defendants were guilty of the charged health care
fraud counts. That jury determination will not be
disturbed.
3. Ample Evidence Supports Florence Bikundi’s
Health Care Fraud Convictions In
Counts Thirteen And Fourteen
Florence Bikundi was convicted in Count Thirteen
of engaging in health care fraud by “conceal[ing]
her exclusion from participation in all federal health
care programs in order to make money through payments from D.C. Medicaid,” in violation of 18 U.S.C.
§ 1347, Superseding Indictment ¶ 79; and in Count
Fourteen of failing to disclose her exclusion with
intent fraudulently to secure payments from D.C.
Medicaid, including by “actively participating in the
management and administration of GLOBAL while
she was excluded” and “submit[ing] D.C. Medicaid
provider agreements that contained false and fraudulent representations and . . . forged signatures of
individuals responsible for certifying that all claims
for payment submitted to D.C. Medicaid by GLOBAL

164a
complied with” applicable regulations, in violation of
42 U.S.C. § 1320a-7b(a)(3), id. ¶ 82. To sustain a
guilty verdict on these charges, the government had
to prove, beyond a reasonable doubt, that Florence
Bikundi knew about her exclusion from participation
in all federal health care programs: for Count
Thirteen, that she knowingly attempted or carried
out a scheme to conceal her exclusion; and, for Count
Fourteen, that she concealed or failed to disclose the
exclusion with the fraudulent intent to secure a
payment from a federal health care program either in
a greater amount than due or when no such payment
was authorized. See Jury Instructions at 20-21, ECF
No. 350.
Underlying both charges in Counts Thirteen and
Fourteen is the fact that Florence Bikundi is excluded
from participation in all federal health care programs.
She does not contest this fact; she contends only that
the evidence was not sufficient to prove beyond a
reasonable doubt that she knew about her excluded
status. Def. FB’s R. 29 Mem. at 13.
According to Florence Bikundi, even though she
communicated with HHS-OIG using the Greenbelt
address regarding consideration of her exclusion on
October 8, 1999, by the time that HHS-OIG sent via
regular mail the final decision of exclusion by letter,
dated March 31, 2000, to that address, “she was no
longer living at the [Greenbelt] address and there is
no evidence that she received notice that she was in
fact excluded.” Id. at 14. In support, the defendant
cites two documents showing that Florence Bikundi
used an address on Cherryville Terrace in Beltsville,
Maryland (“Beltsville address”), on February 23,
2000 and March 8, 2000. Id. (citing Defs.’ Ex. 46
(stipulation that, on March 8, 2000, a lawsuit filed in
District Court of Maryland for Montgomery County

165a
showed this defendant’s address to be the Beltsville
address) and Gov’t Ex. 112 (showing that the defendant’s application for a nursing license, dated February 23, 2000, listed her Beltsville address)).
Notwithstanding these two documents reflecting
the defendant’s use of an address other than the
Greenbelt address several weeks before HHS-OIG
sent the exclusion notice to the Greenbelt address,
sufficient evidence was submitted at trial for the jury
to conclude that Florence Bikundi was fully aware of
her exclusion. First, this defendant was indisputably
aware that proceedings were underway to exclude
her since she communicated with HHS-OIG about
requesting additional time to respond in a letter,
which was received by HHS-OIG on October 8, 1999,
and reflected the same Greenbelt address. See Gov’t
Ex. 107.
Second, the exclusion notice was not returned to
HHS-OIG as undeliverable, Tr. (Oct. 26, 2015 PM)
at 33 (Hoffman), ECF No. 327, lending support to
the inference that if Florence Bikundi had, in fact,
moved from the Greenbelt address to the Beltsville
address, her mail, including the exclusion notice, was
forwarded to her.
Third, information about the defendant’s exclusion
was not limited to the notice sent to her in the mail
but was also publicly available, including online.
HHS-OIG published notice of the defendant’s exclusion
in the Federal Register using the name, “Florence N.
Igwacho.” Gov’t Ex. 113 (65 Fed. Reg. 19008 (April
10, 2000)). In addition, her name is contained in an
online, searchable database maintained by HHS-OIG
of excluded persons. Gov’t Exs. 114-17. Indeed, a
document seized from the defendant’s home reflects
the handwritten web address for access to the exclu-

166a
sion database, “http://oig.hhs.gov/fraud/exclusions.asp,”
in the same red color ink as other handwriting that
the defendant’s own brother identified as written by
the defendant. Gov’t Ex. 428; Tr. (Oct. 29, 2015 AM)
at 71 (Ernest Igwacho), ECF No. 332; Tr. (Oct. 29,
2015 AM) at 51 (Test. of Robert Mosley), ECF No.
332.
Fourth, while disputing whether she received
notice from HHS-OIG in March 2000 of her exclusion, Florence Bikundi raises no dispute about her
awareness of the revocation in May 2005 of both her
D.C. LPN and RN licenses in the name of “Florence
Ngwe aka Florence Igwacho.” Gov’t Ex. 120; Tr.
(Nov. 2, 2015 PM) at 38-39 (Test. of Karen ScipioSkinner), ECF No. 340. Given that Global required
certain employees to execute “Certificates of Eligibility to Participate in Federal Health Care Programs,”
to certify that the employee was “not subject to
exclusion or debarment under federal law or designated in a nurse aid registry as having a finding
concerning abuse, neglect, or mistreatment of a
patient or misappropriation of a patient’s property,”
Gov’t Ex. 119 (certificates, dated June 5, 2012, for
five Global employees), the jury could reasonably
infer that Florence Bikundi, as Global’s owner and
boss, was well versed in this exclusion bar.
Finally, documents introduced as evidence at trial
reflect that the defendant avoided using her maiden
last name “Igwacho,” under which she was excluded,
in communications with government agencies in connection with Global.17 Instead, she used her married
17 She also used her middle name “Ngwe” as her last name,
rather than “Igwacho,” in the Flo-Diamond 2005 application, for
a certificate of authority to transact business in D.C. See Gov’t
Ex. 335.

167a
last name “Bikundi,” before she was actually married
in executing Global documents. See Gov’t Ex. 27 at 3
(Florence and Michael Bikundi’s Virginia marriage
certificate, dated September 5, 2009); Tr. (Nov. 3,
2015 AM) at 126 (Hinson), ECF No. 343. Global’s
“Medicaid Provider Agreement” was signed by
“Florence Bikundi” on June 2, 2009, Gov’t Ex. 1.18
Likewise, when registering Flo-Diamond as doing
business in D.C., in April 2008, the defendant listed
herself as a “director” and signed her name as
“Florence Bikundi.” Gov’t Ex. 335. At the same time
that the defendant used the last name “Bikundi”
in communications with government agencies about
Global, she used her maiden name “Igwacho” in
other contexts. See, e.g., Tr. (Oct. 16, 2015 PM) at 92
(Mbide), ECF No. 312 (Mbide testifying that when he
first joined Global in 2009, the defendant used the
name “Florence Igwacho”).
In sum, when viewing the evidence in the light
most favorable to the government, the jury had
ample evidence to find beyond a reasonable doubt
that Florence Bikundi knew she was excluded from
federal health care programs under the name
“Florence Igwacho” and, as the government posits,
deliberately used the name “Florence Bikundi” in
order “to deceive Medicaid officials regarding her
true identity” and “obtain payments from D.C.
Medicaid in violation of her excluded status.” Gov’t
18 Florence Bikundi asserts that Global’s “DDS Waiver
Application actually lists Florence Igwacho as one of the shareholders, and therefore the government should have known at
the time of Global submitting its application that Mrs. Bikundi
was excluded.” Def. FB’s R. 29 Mem. at 15. This document
was never admitted into evidence, however. See Tr. (Oct. 16,
2015 AM) at 30, ECF No. 311 (government’s withdrawal of the
exhibit).

168a
Opp’n Def. Florence Bikundi’s Renewed R. 29 Mot. J.
Acquittal (“Gov’t Opp’n FB’s R. 29 Mot.”) at 33-34,
ECF No. 405.
4. Government Utilization Report
(Gov’t Ex. 439) Was Properly Admitted
Florence and Michael Bikundi claim that the
admission of Government Exhibit 439, a 13-page
document titled “Claim Summary for Dates of service
1/1/2012-2/28/2014 For Beneficiaries receiving services
in 2/2014,” out of nearly three hundred government
exhibits, was so “extremely” and “severely prejudicial”
that a new trial is required in “the interests of
justice.” Def. FB’s R. 33 Mem. at 4, 7; Def. MB’s R.
33 Mot. at 38 (seeking new trial due to “prejudicial
impact” of Gov’t Ex. 439). The defendants’ hyperbole
notwithstanding, this exhibit was properly admitted.
The challenged exhibit, called the “PCA Services
Utilization Report,” Tr. (Nov. 3, 2015 PM) at 13, ECF
No. 342, was admitted, over defense objection, during
the government’s case-in-chief when DHCF’s Director
of Health Care Operations Administration, Donald
Shearer, was recalled as a witness. Tr. (Nov. 4, 2015
AM) at 101, ECF No. 344 (ruling “allow[ing] introduction of the report”). He testified that, on February
20, 2014, law enforcement conducted search warrants
at four HCAs, including Global, which together
had billed D.C. Medicaid for PCA services for 3,200
Medicaid beneficiaries. Tr. (Nov. 4, 2015 AM) at 99
(Shearer), ECF No. 344. When these four HCAs
were shut down, D.C. Medicaid attempted to reach
the Medicaid beneficiaries, who were patients of the
closed HCAs, to re-assign the beneficiaries to other
HCAs and ensure the continuation of needed services.
Id. at 100. DHCF generated the PCA Services Utilization Report to show the beneficiaries who received

169a
services from Global prior to the execution of the
search warrant, but who were not subsequently
receiving services from another HCA from March 31,
2014 through December 31, 2014. Id. at 100-01.
The PCA Services Utilization Report shows a total
of 567 D.C. Medicaid beneficiaries for whom Global
was paid for providing services who did not continue
to receive PCA services after February 28, 2014, id.
at 100, excluding those beneficiaries who had died,
id. at 115. This report also shows the amount of
$29,498,252.91, that D.C. Medicaid paid Global for
these 567 beneficiaries from January 2012 through
February 2014. Id. at 104. After March 31, 2014,
through December 31, 2014, D.C. Medicaid paid no
other HCA any money for the listed 567 Medicaid
beneficiaries. Id.
The defendants argue that the PCA Services
Utilization Report should not have been admitted
(1) under Federal Rule of Criminal Procedure 16,
due to the government’s untimely disclosure, Def. FB’s
R. 33 Mem. at 2, 6; Def. MB’s R. 33 Mot. at 29-34;
(2) under Federal Rule of Evidence 404(b), because
the exhibit was used “for the improper purpose of
demonstrating a pattern and propensity for this type
of activity,” Florence Bikundi’s Reply Gov’t Opp’n
Def.’s R. 33 Mot. New Trial (“Def. FB’s R. 33 Reply”)
at 2, ECF No. 418; and (3) under Federal Rule
of Evidence 403, because the exhibit misleadingly
suggested that “567 beneficiaries listed in Exhibit
439 . . . did not need services,” id. at 3, and “was
speculative at best and subject to numerous possible
interpretations,” id. at 4; see Def. MB’s R. 33 Mot. at
36-38. Each of these arguments is addressed seriatim
below.

170a
(a) Timing Of Disclosure of Government
Exhibit 439 Did Not Violate Federal Rule
Of Criminal Procedure 16
The defendants have a legitimate point about the
timeliness of disclosure of the PCA Services Utilization Report only the day before the close of the
government’s case-in-chief. See Tr. (Nov. 3, 2015
PM) at 14, ECF No. 342 (government counsel stating,
“[t]hat report was apparently ready today”); Tr. (Nov.
4, 2015 AM) at 113 (Shearer), ECF No. 344 (Shearer
testifying that report was generated “yesterday”).
In response to the Court’s query about the delay in
production, the government explained that the report
had been requested “before the trial started,” but
since “a lot of the information was commingled,” the
effort apparently took time. Tr. (Nov. 3, 2015 PM)
at 17, ECF No. 342. Shearer subsequently confirmed
during his testimony that, in September, before the
trial started government counsel requested that
Shearer’s department “try to quantify the amount
that we . . . could determine was the amount of actual
fraud.” Tr. (Nov. 4, 2015 AM) at 113 (Shearer), ECF
No. 344.19
The government agreed to the Court’s suggestion
to postpone the testimony of Shearer until the next
day and make this witness available for an interview
by defense counsel, Tr. (Nov. 3, 2015 PM) at 18, ECF
No. 342, and this schedule was imposed, id. at 111
(Court noting that “the ability of defense counsel to
talk to Mr. Shearer helps address some of the timeliness
19 Shearer indicated that, after he figured out a method for
responding to government’s counsel’s request, the task of
compiling the information for, and then generating, the report,
was completed in about two weeks. Tr. (Nov. 4, 2015 AM) at
114 (Shearer), ECF No. 344.

171a
issues with production of this particular report”). At
no time did either defendant request a longer continuance in order to respond to the information in the
PCA Services Utilization Report. On the contrary,
counsel for Michael Bikundi expressed the view that
no continuance would “cure the problem,” of being
“ambushed.” Id. at 19.
Under Rule 16(a)(1)(E), the government must
disclose “documents, data . . . if the item is within
the government’s possession, custody, or control and
. . . (ii) the government intends to use the item in
its case-in-chief at trial . . . .” FED. R. CRIM. P.
16(a)(1)(E). The sanction for failure “to comply with
this rule, may” include permitting discovery, subject
to “just terms and conditions,” a continuance, barring
introduction of the undisclosed evidence or “any other
order that is just under the circumstances.” FED. R.
CRIM. P. 16(d)(2). In this case, despite a timely
request to the local government agency to prepare a
report before trial, the government simply did not
possess the PCA Services Utilization Report until the
day the report was disclosed.
Based on the clear text of Rule 16, the D.C. Circuit
has stressed that “the government cannot be required
to disclose evidence that it neither possesses nor
controls.” United States v. Marshall, 132 F.3d 63, 68
(D.C. Cir. 1998). Thus, in Marshall, the Court held
“that the United States did not violate Rule 16 when
it failed to turn over evidence it neither possessed
nor controlled,” which evidence was held by a local
law enforcement agency and only uncovered during
a “new line of investigation” initiated during trial.
Id. While the Court cautioned that this holding
“is not an invitation for the United States to engage
in gamesmanship in discovery matters” and that
“a prosecutor may not sandbag a defendant by the

172a
simple expedient of leaving relevant evidence to
repose in the hands of another agency while utilizing
his access to it in preparing his case for trial,” id. at
69 (internal quotation omitted), no suggestion has
been made by the defendants in this case that any
delay in production of the challenged report was the
result of bad faith or “gamesmanship,” and this
Court perceives none.
In any event, the Court took appropriate steps to
ensure that the defendants had an opportunity to
conduct an interview of Shearer prior to his testimony
at trial and, as discussed infra in Part III.A.4(c),
they made good use of their cross-examination of this
witness regarding Government Exhibit 439. The
complete prohibition on the government introducing
this exhibit, as requested by the defendants as a
sanction for a Rule 16 disclosure violation, was not
warranted in these circumstances and certainly does
not militate in favor of a new trial.20
(b) Government Exhibit 439 Was Not Subject
To Exclusion Under Rule 404(b)
Although Florence Bikundi made no mention of
Federal Rule of Evidence 404(b) in her moving papers,
she asserts in reply that admission of Government
20 Florence Bikundi’s relies on United States v. McCrory,
930 F.2d 63 (D.C. Cir. 1991), for the proposition that “[t]he
appropriate remedy” in the instant case “would have been to
preclude the government from introducing the evidence at trial
as a violation of ” Rule 16. Def. FB’s R. 33 Mem. at 6. The
Court disagrees. In McCrory, the D.C. Circuit concluded that
the trial court had properly excluded undisclosed evidence,
which was known to the government before trial and rendered
the defense theory at trial of misidentification “unavailable.”
930 F.2d at 68. By contrast, in this case, the PCA Services
Utilization Report was not available before trial and the defendants have identified no defense theory rendered unavailable
due to its admission.

173a
Exhibit 439 amounted to an “improper use of 404(b)
evidence, for which the Government did not give
notice” and, therefore, this exhibit “should not have
been admissible.” Def. FB’s R. 33 Reply at 2. The
defendant reasons that this exhibit supports the
inference “that the 567 beneficiaries listed in the
report . . . did not need service,” when evidence
presented at trial was somewhat different, namely:
“that there were certain beneficiaries who did not
receive service” when, in fact, “they did need the services.” Id. at 2-3 (emphasis in original). This belated
argument first made in reply is considered waived.
See United States v. Bell, 795 F.3d 88, 100 n.14 (D.C.
Cir. 2015) (“Because his . . . Rule 403 argument is
first made in his Reply, . . . the argument is
waived.”); In re Asemani, 455 F.3d 296, 300 (D.C. Cir.
2006) (finding argument “waived because it was
made for the first time in his reply brief ”); Rollins
Envtl. Servs. v. EPA, 937 F.2d 649, 653 n.2 (D.C. Cir.
1991) (“Issues may not be raised for the first time in
a reply brief.”).
In any event, this argument is without merit. The
gravamen of the health care fraud charges in Counts
One and Two is that the defendants “submitted and
caused to be submitted false and fraudulent claims
to D.C. Medicaid seeking payment for the costs of
personal care services that were not provided.”
Superseding Indictment ¶¶ 70(f ), 74(f ). Whether
these services were or were not actually needed is
beside the point. Indeed, the government presented
testimony at trial both of D.C. Medicaid beneficiaries
who actually needed personal care services and those
who did not. For example, Sergio Zuniga, Tywonda
Fenner, Carolyn Baldwin and Mary Drayton all testified about their underlying health reasons for needing PCA services. See, e.g., Tr. (Oct. 20, 2015 PM) at

174a
8 (Zuniga), ECF No. 316 (Sergio Zuniga testifying
that, due to his spina bifida condition and being in a
wheelchair, there are times when he “really need[s]
help”); Tr. (Nov. 2, 2015 PM) at 43-44, 48 (Fenner),
ECF No. 340 (Tywonda Fenner testifying, that due
to her diabetes and being “slow,” she needs help at
home to take her medications); Tr. (Nov. 3, 2015 AM)
at 35, 39 (Baldwin), ECF No. 343 (Carolyn Baldwin,
who is in a wheelchair, testifying that PCAs assist
in her home); Tr. (Oct. 28, 2015 AM) at 39, 43 (Drayton), ECF No. 329 (Mary Drayton testifying that,
after a “knee operation,” she needed an aide to help).
Another beneficiary testified about being recruited
to become a Global patient even though she did not
need PCA services. See Tr. (Nov. 2, 2015 PM) at
64-66 (McPherson), ECF No. 340 (Alma McPherson
testifying about being paid $100, along with two
other people, to visit doctor “play acting” need for a
cane and “to say that I had some kind of disease”).
Likewise, James Mbide testified that, based on his
own observations, some Global patients did not need
PCA services and should have been discharged from
D.C. Medicaid, but he was told by Michael Bikundi to
“put on his business hat,” which Mbide understood as
an instruction to continue billing D.C. Medicaid for
the services when they were not needed. Tr. (Oct. 19,
2015 AM) at 22 (Mbide), ECF No. 314. Each of the
beneficiary witnesses admitted to falsely certifying
timesheets for personal care services, which were not
provided, in return for regular cash payments. See
Tr. (Oct. 20, 2015 PM) at 9-11 (Zuniga), ECF No. 316;
Tr. (Oct. 28, 2015 AM) at 42-43 (Drayton), ECF No.
329; Tr. (Nov. 2, 2015 PM) at 49-50 (Fenner), ECF
No. 340; Tr. (Nov. 2, 2015 PM) at 68-69 (McPherson),
ECF No. 340; Tr. (Nov. 3, 2015 AM) at 32-33, 41
(Baldwin), ECF No. 343.

175a
Thus, even if the PCA Services Utilization Report
were construed to support the inference suggested by
the defendants—that 567 Global patients did not
need PCA services—this evidence would only bolster
the same point already made by other evidence
presented at trial. In other words, this exhibit would
not be subject to Rule 404(b) and is instead plainly
intrinsic to the charged health care fraud offenses.
Rule 404(b) bars the admission of another “crime,
wrong, or act” offered to “prove a person’s character
in order to show that on a particular occasion the
person acted in accordance with the character,”
FED. R. EVID. 404(b)(1), but permits such evidence
to be admitted for “another purpose” as long as the
government provides notice of its intent to offer the
evidence, FED. R. EVID. 404(b)(2), which gives the
defense the opportunity to request limiting instructions. These requirements do not apply, however, if
the court determines that the acts are intrinsic to the
charged crime. As the D.C. Circuit recently explained,
“[a] threshold question in determining the admissibility of evidence of other crimes and bad acts is
whether the evidence, in actuality, relates to acts
unconnected with those for which the defendant is
charged, or instead is intertwined with the commission
of the charged crimes. Acts ‘extrinsic’ to the crime
charged are subject to Rule 404(b)’s limitations; acts
‘intrinsic’ to the crime are not.” United States v.
McGill, No. 06-3190, 2016 U.S. App. LEXIS 3734, at
*53, 2016 WL 790413 (D.C. Cir. Mar. 1, 2016); see
also United States v. Moore, 651 F.3d 30, 63 (D.C.
Cir. 2011) (“When evidence of such acts is ‘intrinsic’
to the charged crime, it is not evidence of ‘other’ acts
and is thus wholly unregulated by Rule 404(b).”);
United States v. Bowie, 232 F.3d 923, 929 (D.C. Cir.
2000); FED. R. EVID. 404(b) advisory committee’s

176a
note to 1991 amendment (“The amendment does
not extend to evidence of acts which are ‘intrinsic’ to
the charged offense.” (citation omitted)). “Generally
intrinsic evidence includes ‘act[s] that [are] part
of the charged offense’ or ‘some uncharged acts
performed contemporaneously with the charged crime
. . . if they facilitate the commission of the charged
crime.’ ” Bell, 795 F.3d at 100 (quoting Bowie, 232
F.3d at 929).
To the extent that the PCA Services Utilization
Report reflects patients for whom Global received
D.C. Medicaid reimbursements when the listed
patients did not need PCA services, that evidence
is an integral part of the health care fraud charges,
rather than evidence of “other” acts subject to Rule
404(b). Consequently, admission of Government
Exhibit 439 did not violate Rule 404(b).
(c) Government Exhibit 439 Was Not Unduly
Prejudicial Under Federal Rule Of Evidence 403
The defendants contend that admission of the PCA
Services Utilization Report was unduly prejudicial
and erroneous under Federal Rule of Evidence 403.
Def. FB’s R. 33 Mem. at 6; Def. MB’s R. 33 Mot. at
36. At the outset, the weakness in this argument is
demonstrated by simple comparison of the numbers
at issue. To the extent that the challenged report
suggests that the level of the fraud committed at
Global amounted to $29,498,252.91, this amount was
less than half the full amount of the fraud claimed by
the government. Specifically, the government argued
at trial that, due to Florence Bikundi’s exclusion
from participation in any federal health care program,
her status as an owner and manager of Global, and
the fraudulent Medicaid provider agreement (Gov’t
Ex. 1), this company should never have been accepted as a Medicaid provider and was not entitled to

177a
receive any funds, let alone over $80,000,000, from
D.C. Medicaid. Tr. (Oct. 15, 2015 AM) at 36-37
(Gov’t Opening Statement), ECF No. 347; Tr. (Nov. 9,
2015 AM) at 16 (Gov’t Closing Statement), ECF No.
376. The defendants ignore this obvious point, that
Government Ex. 439 shows a lower amount of overall
fraud than the amount claimed by the government,
to argue nonetheless that this exhibit created undue
prejudice. The defendants’ argument is predicated on
two inter-related points, neither of which is persuasive.
First, the defendants argue that Shearer could not
and did not provide a definitive explanation for “why
[the 567 listed beneficiaries] were no longer receiving
services from Medicaid” leaving the jury “to speculate
as to why the services were not provided.” Def. MB’s
R. 33 Mot. at 36. As support, the defendants note
that “[t]he D.C. Government attempted to reach all
3200 beneficiaries and place them with new agencies
but they did not reach everyone,” making Shearer’s
testimony “inconclusive and speculative.” Def. FB’s
R. 33 Mem. at 6. Since no definitive explanation
was given for why the beneficiaries listed on PCA
Services Utilization Report stopped receiving services
between March 1 and December 31, 2014, the jury
could have concluded “that the beneficiaries never
needed the services to begin with,” which the government argued “would establish the ‘full extent of the
fraud.’ ” Id. at 5 (quoting government counsel at Tr.
(Nov. 3, 2015 PM) at 15, ECF No. 342).
The defendants’ argument ignores important
context. Government Exhibit 439 was not the only
evidence that raised the issue of the scope of the
fraudulent and corrupt activity at Global and, in
particular, the level of fraudulent billing to D.C.
Medicaid and the defendants’ knowledge of this

178a
fraudulent scheme. Eight cooperating, former Global
employees and five cooperating, former Global
patients, all testified about falsified Global patient
records and timesheets, which information was corroborated by the numerous record-keeping deficiencies cited by HRLA surveyors and administrators. In
addition to the testimony about Global patients not
receiving or needing PCA services, summarized
supra in Part III.A.4(b), this issue was highlighted in
questions focused on the actual number of Global
employees and/or patients involved in the falsifying
of records to ensure continued billing to D.C. Medicaid. For example, Melissa Williams testified that
about thirty percent of patients wanted payments to
certify timesheets, Tr. (Oct. 29, 2015 PM) at 121
(Williams), ECF No. 334, and that twenty-five PCAs
did not provide services, id. at 123. Nicola White testified that between 2009 and 2014, “about 50 percent
of those” POCs in patient files were altered. Tr. (Oct.
21, 2015 AM) at 85-86 (White), ECF No. 318. Elke
Johnson testified that when she made calls to
patients’ homes to check whether the PCA was present, she found about an eighty percent compliance
on weekdays, but less, about fifty to sixty percent, on
the weekends. Tr. (Oct. 20, 2015 AM) at 37, 44, 77,
105 (Johnson), ECF No. 315. Thus, as the government points out, Government Exhibit 439 could not
be a “surprise” in light of the government’s—and the
defendants’ on cross-examination—efforts to quantify
the extent of the fraud at Global. Gov’t Opp’n Def.
Michael Bikundi’s R. 33 Mot. New Trial (“Gov’t
Opp’n MB’s R. 33 Mot.”) at 9, ECF No. 407.
Moreover, the defendants effectively exploited the
opportunity on cross-examination to detail the limits
of any conclusions and inferences to be drawn from
Government Exhibit 439. On direct examination,

179a
Shearer made clear that not all 3,200 beneficiaries,
who were patients of the four HCAs shut down on
execution of search warrants, were reached to determine if new HCA assignments were needed. Tr. (Nov.
4, 2015 AM) at 100 (Shearer), ECF No. 344. He also
offered no opinion as why former Global patients
“didn’t continue to get services after the execution
of the search warrants,” id. at 102-03, after D.C.
Medicaid had paid Global $29,498,252.91 for those
567 beneficiaries between January 1, 2012 and
February 14, 2014, id. at 104. On cross-examination,
the defendants elicited testimony that Shearer did
not know (1) how many former Global patients were
contacted, id. at 106; (2) how many former Global
patients were determined to need PCA services, id.
at 108; (3) why the former Global patients were no
longer receiving services, id. at 115; (4) how many
former Global patients were excluded due to death,
id.; and (5) how many former Global patients no
longer received PCA services because they were no
longer eligible, possibly due to an increase in income,
re-location outside D.C., or the use of a family
member to provide PCA services, id. at 115-16. The
defendants’ criticism of the limits of any conclusions
to be drawn from Government Exhibit 439 are clearly probative of the weight to be given to this evidence
rather than its admissibility.
Second, the defendants contend that if they “had
been given time and had the ability to investigate”
why the listed beneficiaries were no longer receiving
PCA services, the “jurors could have been properly
educated about . . . the usefulness of the report.” Def.
MB’s R. 33 Mot. at 37; see also id. at 35 (asserting
that defendant “was deprived of an ability to investigate the substance of Exhibit 449 [sic]”); Def. FB’s R.
33 Mem. at 6 (acknowledging that “the Court allowed

180a
Mrs. Bikundi overnight to speak with Mr. Shearer
prior to his testimony the next morning” but nevertheless contending she “was not allowed the appropriate time to investigate and interview the beneficiaries listed in the report to determine whether they
did in fact need the services”). Yet, the defendants
made no request for any continuance to conduct such
an investigation, choosing instead to ask only that
the report be excluded. Moreover, as the government
points out, “the defense had access to the same
claims data as the government and could have interviewed any of the many Medicaid beneficiaries
contained in that data.” Gov’t Opp’n Def. Florence
Bikundi’s R. 33 Mot. New Trial (“Gov’t Opp’n FB’s R.
33 Mot.”) at 8, ECF No. 404; Gov’t Opp’n MB’s R. 33
Mot. at 9.
Accordingly, notwithstanding the defendants’
vigorous and continuing objection to Government
Exhibit 439, this document was properly admitted
at trial and, thus, no new trial is warranted on this
basis.
5. The Defendants Fail To Show Any
Variance In Proof For Charged Health Care
Fraud Conspiracy
Count One of the Superseding Indictment charged
Florence and Michael Bikundi with conspiring with
six other Global employees (i.e., Christian Asongcha,
Melissa Williams, Elvis Atabe, Carlson Igwacho,
Irene Igwacho and Berenice Igwacho), from August
2009 through February 2014 “to unlawfully enrich
themselves by submitting false and fraudulent
claims to D.C. Medicaid,” Superseding Indictment
¶ 69, in violation of 18 U.S.C. § 1347 (Health Care
Fraud), 18 U.S.C. § 1035 (False Statements in Health
Care matters) and 42 U.S.C. § 1320a-7b(b) (Illegal
Payments in Connection with Federal Health Care

181a
Program). Having failed to make any request at
trial for a multiple conspiracy instruction, Florence
Bikundi now urges that her guilty verdict on this
charge “be vacated and a new trial ordered in the
interest of justice,” Def. FB’s R. 33 Mem. at 9,
because the evidence “established multiple conspiracies rather than the single one and this variance
prejudiced Mrs. Bikundi,” id. at 8; see also Def. FB’s
R. 29 Mem. at 3 (renewing acquittal motion because
“evidence presented by the government demonstrates
that there were multiple conspiracies occurring that
Mrs. Bikundi was neither aware of or a part of ”).21
Specifically, Florence Bikundi points to evidence
regarding illegal “patient sharing arrangements”
that Melissa Williams had with other PCAs at Global
and another company, Vizion One, to pay beneficiaries to sign-off on timesheets verifying more hours
than the PCAs had actually worked. Def. FB’s R. 33
Mem. at 9. In addition, Florence Bikundi complains
of a prejudicial “spillover effect” from other evidence
that she claims revealed conspiracies in which Chris
Asongcha, who remains a fugitive in this case, Nicola
White, Elvis Atabe and other Global employees were
involved and that were “distinct and varied from the
conspiracy charged in the superseding indictment”
and had “nothing to do with Mrs. Bikundi.” Id.
Contrary to the defendant’s contention, “[f ]rom the
overwhelming evidence of the defendants’ common
21 Florence Bikundi reiterates that insufficient evidence was
submitted at trial that she participated “in any conspiracy with
Melissa Williams or any of the individuals named in the indictment” or that she “entered into an unlawful agreement with
any other individual to commit health care fraud.” Def. FB’s R.
33 Mem. at 8. This challenge to the sufficiency of the evidence
to support the defendants’ convictions on Count One is addressed,
supra, in Part III.A.2.

182a
goal, interdependence, and overlapping core of participants, a reasonable jury could easily conclude that
the defendants were part of a single . . . conspiracy.”
Bostick, 791 F.3d at 138.
In evaluating a defendant’s challenge to a conspiracy conviction on grounds of a variance between the
single conspiracy charged and the purported proof
of multiple conspiracies, courts must determine
whether “the evidence was sufficient for the jury
to conclude that the [defendants] joined in a single
conspiracy.” United States v. Tarantino, 846 F.2d
1384, 1394 (D.C. Cir. 1988). The D.C. Circuit has
identified “a variety of factors” to aid in this
evaluation, the “most important of these is whether
the conspirators share a common goal.” Id. at 1393.
Additional factors include “the degree of dependence
inherent in the conspiracy,” the conspirators’ “link to
other conspirators” and “the overlap of participants
in the various operations claimed to comprise a single
conspiracy.” Id.; see also Bostick, 791 F.3d at 137-38
(“We consider three factors to determine whether the
evidence supports a conclusion that the defendants
belonged to a single conspiracy: whether the alleged
participants had (1) a common goal, (2) interdependence, and (3) overlap, such as the presence of core
participants linked to all the defendants.” (internal
quotation and citation omitted); United States v.
Eiland, 738 F.3d 338, 358 (D.C. Cir. 2013) (“In
determining whether the evidence supports a finding
of a single conspiracy or instead only demonstrates
multiple conspiracies, we look at whether the defendants shared a common goal, any interdependence
between the alleged participants, and any overlap
among alleged participants, such as the presence
of core participants linked to all the defendants.”
(quoting United States v. Gatling, 96 F.3d 1511, 1520

183a
(D.C. Cir. 1996)). When making a variance challenge,
the defendant bears the burden of showing, first, a
variance between the charged single conspiracy and
the existence of multiple conspiracies and, second,
that “because of the multiplicity of defendants and
conspiracies, the jury was substantially likely to
transfer evidence from one conspiracy to a defendant
involved in another.” Eiland, 738 F.3d at 358 (quoting Tarantino, 846 F.2d at 1391). The defendants
simply cannot meet this burden here.22
First, consideration of the Tarantino factors
confirms that a single conspiracy, as charged in
Count One, was established. With respect to the first
22

Without any discussion, Florence Bikundi cites United
States v. Tarantino, 846 F.2d 1384 (D.C. Cir. 1988), and Kotteakos v. United States, 328 U.S. 750 (1946), as support for her
variance challenge. Def. FB’s R. 33 Mem. at 9. These cases are
not helpful to her argument for different reasons. In Tarantino,
the D.C. Circuit rejected the defendants’ claim of a prejudicial
variance of multiple conspiracies, finding instead that “even
though they may not have known the precise identity of all the
other conspirators” in the single charged narcotics distribution
and money laundering conspiracy, each defendant—like the
defendants in the instant case—“played a vital role in the
conspiracy’s success,” and “shared the conspiracy’s objects.”
846 F.2d at 1293-94. In Kotteakos, the government conceded a
serious variance between the indictment, which charged over
ten defendants in a single conspiracy, and the proof showing
at least eight separate conspiracies, 328 U.S. at 755-56, which
were not “tied together as stages in the formation of a larger,
all-inclusive combination, all directed to achieving a single
unlawful end or result,” Blumenthal v. United States, 332 U.S.
539, 558 (1947). In this circumstance, the Supreme Court
reversed the convictions, finding it “highly probable that the
error had substantial and injurious effect.” Kotteakos, 328 U.S.
at 776. By contrast here, the government insists that the jury
correctly concluded that the defendants were members of a
single conspiracy, which is firmly established by the evidence.
See supra Part III.A.2.

184a
factor, the evidence showed that the conspirators
shared a common goal of using Global to defraud
D.C. Medicaid of funds through use of various means,
including submitting and approving false timesheets
for PCAs seeking reimbursement from D.C. Medicaid
for work not performed, recruiting and paying kickbacks to Medicaid beneficiaries to incentivize them to
sign-off on PCAs’ false timesheets, and falsifying
multiple documents required to maintain licensure
as a D.C. Medicaid provider and obtain continuing
reimbursement from D.C. Medicaid. Even if each
participant in this corrupt operation did not know
precisely what other participants were doing to facilitate this fraud and spur the exponential growth of
Global’s reimbursements from D.C. Medicaid, the
co-conspirators shared the common single goal of
using Global to make as much money as possible
from this federal health care program. Moreover,
even if certain co-conspirators made their own illegal
arrangements with PCAs and beneficiaries to submit
false timesheets, the defendants’ attempt to characterize these arrangements as side-deals wholly
separate from the charged conspiracy is incorrect.
Instead, those arrangements were building blocks for
the entire criminal enterprise and had the effect of
increasing the number of Medicaid beneficiaries and
PCAs willing to engage in the falsification of timesheets and other records to continue bilking D.C.
Medicaid for reimbursement to which the defendants
and their co-conspirators were not entitled. As the
government correctly notes, “[w]hile members of the
conspiracy may have played different roles (Melissa
Williams and Elvis Atabe, for example, primarily
assisted in falsifying documents, while Carlson
Igwacho, Berenice Igwacho, and Irene Igwacho, as home
health aides, submitted payments to beneficiaries

185a
and obtained signed timesheets falsely indicating
that they had worked the full hours with the client),
each had an overall goal of defrauding the Medicaid
program.” Gov’t Opp’n FB’s R. 33 Mot. at 11-12.
The Supreme Court’s consideration of a variance
challenge in Blumenthal v. United States, 332 U.S.
539 (1947), is illustrative of the weakness in the
defendants’ instant assertion that evidence of illegal
arrangements engaged in by charged co-conspirators
amounts to a variance of proof warranting a new
trial. In Blumenthal, five defendants were convicted
of a single conspiracy of selling two carloads of
whiskey in violation of the price cap set by statute.
Id. at 542. The defendants played different roles in
the “channel for distributing the liquor and giving
that unlawful process a legal façade,” id. at 548, even
though some of the defendants “did not know, when
they joined the scheme, who those people were or
exactly the parts they were playing in carrying out
the common design and object of all,” id. at 558.
Since “the several agreements were essential and
integral steps” for the success of the overall conspiracy, however, the Court concluded that “[b]y their
separate agreements, if such they were, they became
parties to the larger common plan, joined together by
their knowledge of its essential features and broad
scope, though not of its exact limits, and by their
common single goal.” Id. Consequently, the Court
rejected the defendants’ contention that “the proof, in
variance from the indictment, shows that there was
more than one conspiracy,” id. at 542, and affirmed
the convictions, id. at 559. Similarly here, even if the
proof at trial showed that co-conspirators engaged in
illegal deals to which Florence and Michael Bikundi
were not made fully aware, these activities helped
further the overall goal of the single, charged

186a
conspiracy and do not amount to a variance in proof.
See also United States v. Graham, 83 F.3d 1466, 1471
(D.C. Cir. 1996) (holding that drug distributing
cliques that were in competition with one another
were still part of a single conspiracy in part because
they shared the common goal of selling one defendant’s
cocaine for profit).
With respect to the second factor, the evidence
established interdependence among the charged
conspirators to carry out the fraud scheme. The D.C.
Circuit has explained that this factor “requires that
each defendant’s actions ‘facilitate the endeavors of
other alleged coconspirators or facilitate the venture
as a whole.’ ” United States ex rel. Miller v. Bill Harbert Int’l Constr., Inc., 608 F.3d 871, 900 (D.C. Cir.
2010) (quoting United States v. Carnagie, 533 F.3d
1231, 1238 (10th Cir. 2008) (internal quotation omitted)). This factor is easily met here. Florence Bikundi
obtained the D.C. Medicaid license for Global to
operate and recruited at least some Medicaid beneficiaries to obtain their PCA services through Global.
Carolyn Baldwin, one of the beneficiaries who had
received payoffs from Florence Bikundi in the past,
became a patient of Global and continued to receive
payoffs for signing off on false timesheets for Melissa
Williams. The co-conspirators who worked as PCAs,
including Carlson, Berenice and Irene Igwacho,
Melissa Williams and Frances James, operated similarly to Florence Bikundi and paid-off beneficiaries
to sign false timesheets, which were then submitted
for approval to both Florence and Michael Bikundi
and ultimately to D.C. Medicaid for reimbursement.
In order to maintain Global’s license as a Medicaid
provider, Florence and Michael Bikundi facilitated
the creation of false documentation by Elvis Atabe,
Nicola White, Elvis Atabe, Irene Igwacho and others,

187a
including false background checks and POCs, to
present to HRLA surveyors. As Elvis Atabe testified,
“the whole system was bad in Global.” Tr. (Oct. 21,
2015 PM) at 25 (Atabe), ECF No. 317. This testimony
was corroborated by Melissa Williams, who testified
that it was understood that whatever documents
needed to be forged would be forged. Tr. (Oct. 29,
2015 PM) at 86-88 (Williams), ECF No. 334. Each
role played by the co-conspirators was integral to
facilitating the larger fraud scheme.
The “final factor of lesser significance is the overlap
of participants in the various operations claimed to
comprise a single conspiracy.” Tarantino, 846 F.2d
at 1393. The D.C. Circuit has explained that this
factor requires “only that the main conspirators work
with all the participants.” Bill Harbert Int’l Constr.,
Inc., 608 F.3d at 901 (quoting United States v.
Hemphill, 514 F.3d 1350, 1363 (D.C. Cir. 2008)).
Here, all of the conspirators were Global employees
so they all worked together under the supervision
and management of Florence and Michael Bikundi.
This status gave the conspirators a strong incentive
for Global to continue in business and flourish
in order to keep their jobs. Indeed, some of the
conspirators were not legally entitled to work in this
country, a vulnerable circumstance that made them
even more willing to comply with instructions to
engage in illegal activities to maintain their employment. Tr. (Oct. 19, 2015 PM) at 140-41 (Johnson),
ECF No. 313; Tr. (Oct. 29, 2015 PM) at 31 (Williams),
ECF No. 334.
Thus, the Tarantino factors all confirm that a
single conspiracy was proven at trial and that there
was no variance in proof, as Florence Bikundi now,
belatedly claims.

188a
Second, even if some variance in the evidence
occurred, the defendants fail to show any substantial
prejudice from the “spillover” evidence of the other
illegal activity in which some of the co-conspirators
engaged. Indeed, “not every variance between the
crime charged and the crime proven is fatal to the
validity of the resulting conviction.” United States v.
Cross, 766 F.3d 1, 5 (D.C. Cir. 2013); see also United
States v. Mathis, 216 F.3d 18, 25 (D.C. Cir. 2000)
(finding “a variance between the indictment charging
a single conspiracy and the trial evidence indicating
more than one conspiracy,” but nonetheless concluding “the variance did not substantially prejudice the
appellants”). Requiring a “material[ ]” variance that
causes “substantial prejudice” to trigger the need for
a new trial, United States v. Emor, 573 F.3d 778, 786
(D.C. Cir. 2009), comports with the well settled law
that the guilty verdict will be upheld “if the evidence
adequately supports the jury’s finding that a single
conspiracy existed,” Eiland, 738 F.3d at 359, and
“[w]hether the evidence proved a single conspiracy ‘is
primarily a question of fact for the jury,’ ” Bostick,
791 F.3d at 137 (quoting United States v. Childress,
58 F.3d 693, 709 (D.C. Cir. 1995)). As summarized
supra in Part III.A.2, the evidence regarding Florence and Michael Bikundi’s involvement in the
over-arching conspiracy was overwhelming. In this
circumstance, the defendants simply cannot show
any substantial prejudice from the alleged variance
based on “insufficient evidence for a reasonable jury
to find [the defendant] guilty of the conspiracy
charged in the indictment beyond a reasonable doubt.”
Cross, 766 F.3d at 5.
Moreover, while spillover prejudice “may occur
when a jury imputes evidence from one conspiracy to
a defendant involved in another conspiracy,” United

189a
States v. Gaviria, 116 F.3d 1498, 1533 (D.C. Cir.
1997), this risk is minimized when, as here, the
co-conspirators themselves denied to the jury that
the defendants were advised or even aware of the
other illegal conspiracies cited by the defendants.
For example, Melissa Williams testified that, while
both Florence and Michael Bikundi were fully aware
of some of her illegal activities to facilitate the goals
of the charged conspiracy, she did not tell them or
otherwise make them aware of her illegal arrangements (1) with Atawan Mundu John to use a Medicaid patient of Vizion One to sign false timesheets
for PCA services not actually provided, Tr. (Nov. 2,
2015 AM) at 40-41 (Williams), ECF No. 338; or
(2) her patient sharing arrangements with certain
Global PCAs, id. at 6-7, 100.23
In sum, the defendants fail to carry their burden
of showing either a variance or prejudice and are,
consequently, not entitled to a new trial on this
basis.
6. The Jury Was Properly Instructed On The
Health Care Fraud In Count Two
Florence Bikundi contends that the jury was given
erroneous instructions for Count Two, charging the
defendants with health care fraud, in violation of
23 To the extent that Florence Bikundi tries to attribute to
Chris Asongcha some undefined “separate and distinct conspiracy from the conspiracy charged in the superseding indictment,”
Def. FB’s R. 33 Mem. at 9, this is merely a revival of the
defendants’ unsuccessful effort at trial to put the blame for the
illegal activities occurring at Global on an absent fugitive. See,
e.g., Tr. (Nov. 9, 2015 PM) at 109, 113-14, ECF No. 376 (Florence
Bikundi’s Closing Statement); Tr. (Nov. 10, 2015 AM) at 29,
ECF No. 377 (Michael Bikundi’s Closing Statement). The jury
plainly rejected this blame-shifting argument for sound reason
based on the ample evidence of the defendants’ own involvement in the charged conspiracy.

190a
18 U.S.C. §§ 2 and 1347, by not instructing the jury
“that it had to unanimously agree to each manner
and means alleged by the government.” Def. FB’s
R. 33 Mem. at 7. The defendant designates each
“manner and means” charged in Count Two as “six
different acts” and then posits that the government
“must prove beyond a reasonable doubt at least one
of the theories to the satisfaction of the entire jury.”
Id. Absent a unanimity instruction for Count Two,
the defendant argues that “it is unclear on which set
of facts form the guilty verdict,” requiring “vacat[ur
of] the judgment on Count 2 and . . . a new trial.” Id.
at 8. The defendant is incorrect as a matter a law.
Count Two charges that, from at least in or around
August 2009, continuing until in or around February
2014, in the District of Columbia and elsewhere, the
defendants Florence and Michael Bikundi, aiding
and abetting each other, and others, known and
unknown to the Grand Jury, “did knowingly and
willfully execute, and attempt to execute, a scheme
and artifice to defraud and to obtain, by means of
materially false and fraudulent pretenses, representations, and promises, money and property owned by,
and under the control of, the D.C. Medicaid program,
a health care benefit program, as defined in Title 18,
United States Code, Section 24(b), in connection with
the delivery of and payment for health care benefits,
items, and services, namely personal care services.”
Jury Instructions at 14-15. “The indictment alleges
that it was a purpose of the scheme for the defendants Florence Bikundi and Michael Bikundi and
others to unlawfully enrich themselves by, among
other things, submitting and causing to be submitted
false and fraudulent claims for payment to D.C. Medicaid for personal care services that were not provided
as claimed.” Id. at 15. The “manner and means by

191a
which defendants sought to accomplish the purpose
of the fraud scheme,” id., were enumerated as follows:
a. Defendants and co-conspirators offered and
caused to be offered cash payments to patient
recruiters in return for referring D.C. Medicaid
beneficiaries to serve as patients of Global.
b. Defendants and co-conspirators recruited and
caused to be recruited D.C. Medicaid beneficiaries
who were willing to receive cash payments in
exchange for certifying that the personal care
aides had provided services as prescribed when the
services were not provided.
c. Defendants and co-conspirators falsified and
caused to be falsified Global patient files to make
it appear that D.C. Medicaid beneficiaries were
qualified for and received personal care services
that were not provided.
d. Defendants and co-conspirators falsified and
caused to be falsified Global employee files to make
it appear that Global employees were qualified to
provide personal care services to D.C. Medicaid
beneficiaries, when they were not qualified to
provide those services.
e. Defendants and co-conspirators created and
caused to be created false and fraudulent personal
care aide timesheets which falsely certified that
personal care services were provided to D.C.
Medicaid beneficiaries when the services were not
provided.
f. Defendants and co-conspirators submitted and
caused to be submitted false and fraudulent claims
to D.C. Medicaid seeking payment for the costs of
personal care services that were not provided.
Id.; see Superseding Indictment ¶ 74(a)-(f ).

192a
Neither the jury instructions nor the verdict form
instructed the jury to reach unanimous agreement on
the specific “manner and means” listed in (a) through
(f ), which each defendant was charged with using to
commit the health care fraud offense. Id. at 14-18;
Verdict Sheet at 2, ECF No. 361. At the same time,
as the government correctly points out, the defendants
failed to request any specific unanimity instruction
as to Count Two, even though they requested, and
such an instruction was given, for Count One. Gov’t
Opp’n FB’s R. 33 Mot. at 9; see Parties’ Joint Pretrial
Statement, Ex. 2 (Joint Proposed Jury Instructions)
at 80-82 (proposed instructions for Count Two), ECF
No. 271. This failure to request a unanimity instruction as to the “manner and means” in Count Two,
and to object to the final instructions on this basis,
would “preclude[ ] appellate review,” FED. R. CRIM.
P. 30(d), unless the absence of a unanimity instruction
constitutes “[a] plain error that affects substantial
rights,” FED. R. CRIM. P. 52(b). No error, let alone
plain error, occurred here and, consequently, no new
trial is required in the “interest of justice.” FED. R.
CRIM. P. 33(a).
The Supreme Court explained in Richardson v.
United States, 526 U.S. 813 (1999), that “[f ]ederal
crimes are made up of factual elements, which are
ordinarily listed in the statute that defines the
crime” and “[c]alling a particular kind of fact an
‘element’ carries . . . [t]he consequence that . . . a jury
in a federal criminal case cannot convict unless it
unanimously finds that the Government has proved
each element.” Id. at 817. Not every fact that
describes criminal activity amounts to an element,
however. The Court clarified that “a federal jury
need not always decide unanimously which of several
possible sets of underlying brute facts make up a

193a
particular element, say, which of several possible
means the defendant used to commit an element of
the crime.” Id. By way of example, the Court
observed that while “an element of robbery is force
or the threat of force, some jurors might conclude
that the defendant used a knife to create the threat;
others might conclude he used a gun. But that
disagreement—a disagreement about means—would
not matter as long as all 12 jurors unanimously
concluded that the Government had proved the
necessary related element, namely that the defendant
had threatened force.” Id.; see also Schad v. Arizona,
501 U.S. 624, 631 (1991) (“We have never suggested
that in returning general verdicts in such cases the
jurors should be required to agree upon a single
means of commission, any more than the indictments
were required to specify one alone.”). In Richardson,
the Court held that each individual predicate violation making up the requisite “series of violations,”
under the continuing criminal enterprise statute,
21 U.S.C. § 848(a), was an element of that offense
requiring juror unanimity to sustain the conviction.
526 U.S. at 815.
By contrast, when the indictment merely describes
the means used to carry out a crime, those factual
allegations—or “brute facts”—do not amount to “elements” requiring unanimity. As the Seventh Circuit
bluntly put it: “jurors don’t have to agree on means.”
United States v. Schiro, 679 F.3d 521, 533 (7th
Cir. 2012). The Schiro court gave its own example,
explaining, “Suppose a defendant on trial for murder
had first choked his victim and then shot him, and
some jurors think the choking killed him and others
that he was alive until he was shot. It is enough that
they are unanimous that the defendant killed him.”
Id.

194a
The defendant’s challenge to the lack of a unanimity
instruction raises the question of whether the “manner
and means” used to execute the charged health care
fraud are part of the elements of the charged crime
requiring a specific unanimity instruction to ensure
all jurors agreed to at least one enumerated “means,”
or, instead, are merely, as titled, the means of
committing the offense. If the latter, then the
general unanimity instruction requiring the jury to
unanimously find the defendants guilty beyond a
reasonable doubt is sufficient, even if the jurors were
less than unanimous regarding one or more of the
enumerated means. See Jury Instructions at 30
(“[I]n order to return a verdict, each juror must agree
on the verdict. In other words, your verdict must be
unanimous on each of the 15 charges.”).
The D.C. Circuit has not addressed this precise
question in the context of a health care fraud offense
or more general fraud offense, but in analogous circumstances has found that the means used to commit
an offense, as described in an indictment, are not
subject to a specific unanimity instruction. See, e.g.,
United States v. Kayode, 254 F.3d 204, 213-14 (D.C.
Cir. 2001) (finding no error in district court’s declining to give unanimity instruction requiring jury to
agree on which five documents satisfied all elements
of the offense of possession of false identification
documents since “[t]he statute makes relevant only
the number of false identification documents intended
to be used, not the identity of each particular document”); United States v. Harris, 959 F.2d 246, 255
(D.C. Cir. 1992) (per curiam) (agreeing with government that jury did not have to agree on which five
(or more) persons belonged to a continuing criminal
enterprise but only that the defendant had acted in
concert with “five or more persons”); see also United

195a
States v. Adams, No. 14-cr-44, 2015 U.S. Dist. LEXIS
167211, at *12-14, 2015 WL 8966922 (D.D.C. Dec. 15,
2015) (concluding that defendant was “not entitled
to unanimity instruction on the particular means he
employed to obstruct or impede the internal-revenue
laws”).
Four other Circuits have considered the need for a
unanimity instruction regarding the means used to
execute a fraudulent scheme and concluded that “[a]
jury, faced with divergent factual theories in support
of the same ultimate issue, may decide unanimously
. . . that the government has proven a scheme to
defraud even if they may not be unanimous as to the
precise manner in which it occurred.” United States
v. Daniel, 749 F.3d 608, 613 (7th Cir. 2014) (ellipsis
in original) (quoting United States v. LaPlante, 714
F.3d 641, 647 (1st Cir. 2013)). In Daniel, the Seventh
Circuit held that the district court did not abuse its
discretion in declining to give an additional specific
unanimity instruction on the specific fraudulent
representations or omissions the defendant committed
since these “were ‘underlying brute facts’ of the
verdict against him” and “merely the means he used
to commit an element of the crime” of wire fraud.
Id. at 614; see also LaPlante, 714 F.3d at 647
(“The court was not required to give that unanimity
instruction because the jury is not required to agree
on the means—the specific false statement—[the
defendant] used to carry out her fraudulent scheme.”);
United States v. Rice, 699 F.3d 1043, 1048 (8th Cir.
2012) (holding that jurors were properly instructed
“that they needed to agree that one of the means had
been used [to defraud victims], but that not all needed to agree on the same one”); United States v. Lyons,
472 F.3d 1055, 1068 (9th Cir. 2007) (holding that in a

196a
scheme to defraud, “the jury need not be unanimous
on the particular false promise”).
While these out-of-Circuit decisions are not binding, they are persuasive in their application of the
Supreme Court’s precedent in Richardson and Schad
distinguishing “brute facts,” which describe the means
of committing a crime, from the factual elements
required by the statute to be proven beyond a reasonable doubt to a unanimous jury. Indeed, more
recently, the Supreme Court took pains to avoid any
suggestion “that the Government adds an element to
a crime for purposes of sufficiency review when the
indictment charges different means of committing a
crime in the conjunctive.” Musacchio, 136 S.Ct. at
715 n.2.
Accordingly, the defendants were not entitled to a
unanimity instruction for the “manner and means”
allegedly used to commit the health care fraud
offense, even had they timely requested such an
instruction.
B. CHALLENGES TO EIGHT MONEY LAUNDERING CONVICTIONS
Both Florence and Michael Bikundi seek a
judgment of acquittal and a new trial on their eight
convictions for conspiring to commit and committing
money laundering, in violation of 18 U.S.C. §§ 2,
1956(a)(1)(B)(i), and 1956(h), as charged in Counts
Fifteen through Twenty-Two. The defendants challenge these money laundering convictions on three
grounds: (1) the government presented insufficient
evidence to support these convictions, Def. FB’s R. 33
Mem. at 14; Def. FB’s R. 29 Mem. at 19-22; Def. MB’s
R. 33 Mot. at 38-44; (2) “the underlying facts of money
laundering were also used to support a conviction for
health care fraud,” Def. FB’s R. 33 Mem. at 14; see

197a
Def. MB’s R. 33 Mot. at 45-46; and (3) these convictions are inconsistent with the jury’s acquittal of the
defendants on Counts Twenty-Three through TwentyFive, Def. FB’s R. 29 Mem. at 17.24 Each of these
challenges is addressed seriatim below.
1. Sufficient Evidence Was Presented To
Sustain Money Laundering Convictions
The defendants challenge the sufficiency of the
evidence supporting their money laundering convictions, stating that “the government failed to prove
any agreement to conspire to commit money laundering as alleged in Count 15, and further failed to
prove any intent to conceal the source of the funds
alleged in Counts 16-22.” Def. FB’s R. 33 Mem. at 14;
see Def. MB’s R. 33 Mot. at 44. Evidence supporting
the money laundering charges was presented principally through the testimony of Agent Hinson, who
traced the transfer by the defendants of the fraudulently obtained D.C. Medicaid funds from deposits in
Global bank accounts to over one hundred non-Global
accounts controlled by either or both defendants. Tr.
(Nov. 3, 2015 AM) at 131, 134 (Hinson), ECF No.
343; Gov’t Ex. 184. In considering the defendants’
challenge, the Court first reviews the specific money
laundering convictions, before assessing the sufficiency
of the evidence supporting these convictions.
The defendants’ conviction of the money laundering
conspiracy charged in Count Fifteen required proof,
24 Florence Bikundi also complains that the jury found her
“guilty without specifying which object of the conspiracy there
was a unanimous agreement.” Def. FB’s R. 29 Mem. at 17.
She is mistaken. The verdict form completed by the jury
shows that, on Count Fifteen, the jury twice answered “YES”
to unanimously finding that an object of the money laundering
conspiracy was to violate 18 U.S.C. § 1956(a)(1)(B)(i) and to
violate § 1957. Verdict Form at 2.

198a
first, that Florence and Michael Bikundi agreed
to try to accomplish an unlawful plan to conceal
and disguise the nature, location, source, ownership
and control of the proceeds of health care fraud, in
violation of 18 U.S.C. § 1956(a)(1)(B)(i), or to engage
in monetary transactions in criminally derived property, which had a value greater than $10,000 and
was derived from health care fraud, in violation of
18 U.S.C. § 1957; and, second, that each defendant
intentionally joined in that agreement. See Jury
Instructions at 21-22, 24.
The remaining substantive money laundering
convictions are based on seven separate transactions
involving (1) three checks, dated November 7, 2012,
March 18, 2013, and April 29, 2013, transferring a
total of $1,300,000 from two Global bank accounts
to two Tri-Continental bank accounts, in Counts
Sixteen, Seventeen, and Eighteen; and (2) three checks,
dated June 7, 2013, June 21, 2013, and August 2,
2013, and a wire transaction on May 10, 2013,
transferring a total of $1,370,000 from a Global bank
account to a CFC bank account, in Counts Nineteen
through Twenty-Two. See id. at 25-26.
Contrary to the defendants’ contention, the requisite
agreement between the defendants for their money
laundering conspiracy conviction was supported by
sufficient evidence. The proof at trial showed that
both defendants were fully aware of fraudulent
timesheets submitted by Global for reimbursement
by D.C. Medicaid and that Global’s patient and
employee files were replete with falsified documents.
In short, both defendants knew that the monies
received by Global from D.C. Medicaid were obtained
by fraud. The proof at trial further showed that in
the handling of those fraudulently-obtained proceeds,

199a
these two defendants worked in lockstep to (1)
manage the Global operations, including reviewing
and approving timesheets, issuing checks, supervising employees, and other aspects of the business,
see supra Parts I.C-E; (2) control Global’s bank
accounts, for which both defendants were signatories
over the lifespan of the accounts, Gov’t Ex. 184; (3)
control bank accounts for CFC and Tri-Continental
over the lifespan of the accounts, see supra Part I.F;
and (3) transfer funds from Global accounts to nonGlobal accounts that one or both of the defendants
controlled, see id. This jointly undertaken activity
provided sufficient evidence of the defendants’ agreement to work together for the same illegal goals for a
rational jury to conclude, beyond a reasonable doubt,
that they had an agreement, satisfying this element
for a conviction on Count Fifteen.
The crux of the defendants’ challenge to the money
laundering convictions, including for money laundering conspiracy, is that the “government clearly failed
to prove . . . that Mrs. Bikundi attempted to ‘conceal
or disguise’ the alleged fraudulently obtained funds.”
Def. FB’s R. 29 Mem. at 18; Def. MB’s R. 33 Mot.
at 44 (“There was no evidence of concealment.”).
Indeed, to sustain a conviction under 18 U.S.C.
§ 1956(a)(1)(B)(i), the government must prove, beyond
a reasonable doubt, that the defendant knew “that
the transaction [was] designed in whole or in part —
(i) to conceal or disguise the nature, the location,
the source, the ownership, or the control of the
proceeds of specified unlawful activity.” 18 U.S.C.
§ 1956(a)(1)(B)(i). The defendants criticize the proof
on this “design to conceal or disguise” element
because of the apparent ease with which the D.C.
Medicaid funds were traced by law enforcement and
the defendants’ use of their own names on the

200a
accounts to which the funds were transferred.25 On
this essential element for money laundering, the
Court opined at the close of the government’s case-inchief that the evidence regarding the defendants’ use
of “many different bank accounts to conceal the
source of the illegally obtained funds” was “slim.” Tr.
(Nov. 4, 2015 PM) at 17, ECF No. 345.26 Yet, upon
25

Specifically, the defendants point out that “Special Agent
Hinson with no prior experience before this case as a money
laundering investigator testified that the transactions were
easily traceable to Mrs. Bikundi.” Def. FB’s R. 29 Mem. at 18;
see also Def. MB’s R. 33 Mot. at 41 (noting that although Hinson
“was not a C.P.A., never performed services” or was trained as a
“professional bookkeeper” and had only “worked on two money
laundering cases during her career,” she “had no difficulty finding the accounts and some of the accounts were opened prior
to 2009”); id. at 44 (noting that “[t]here was no evidence of
concealment” since the “United States had no difficulty either
locating or seizing the funds”). The funds were easily traceable
due to the fact that the “deposits and withdrawals to various
financial accounts” were “all done openly” without the “use
[of ] false names, third parties, or any particularly complicated
financial maneuvers, which are usual hallmarks of an intent to
conceal.” Def. FB’s R. 29 Mem. at 19-20; see Def. MB’s R. 33
Mot. at 44 (“All of the recovered funds were in accounts
controlled either by Florence or Michael Bikundi, or both.”).
In particular, the checks transferring funds from Global to
Tri-Continental and CFC that are at issue in the substantive
money laundering counts Sixteen through Twenty-Two “do not
disguise the source or the recipient” and, consequently, show
no effort to conceal or disguise the funds. Def. FB’s R. 29 Mem.
at 20; see Def. MB’s R. 33 Mot. at 44 (“Funds deposited into
accounts in the names of CFC Corporation and Tri-Continental
were deposited without any attempt whatsoever to conceal the
origin of the funds.”).
26 As noted, supra at nn. 10-12, the Court reserved decision
on the defendants’ motions for acquittal on all of the money
laundering charges, including those for which the defendants
were ultimately acquitted by the jury. See Tr. (Nov. 4, 2015
PM) at 18, ECF No. 345.

201a
close review of the applicable case law and the trial
evidence the Court “cannot say it is more likely than
not that no reasonable juror would have found the
requisite concealment in transactions occurring after
proceeds existed.” United States v. Baxter, 761 F.3d
17, 32 (D.C. Cir. 2014) (affirming money laundering
conviction); see also Pasha, 797 F.3d at 1135 n.9
(affirming convictions over defendants’ challenge to
the sufficiency of evidence since, even where “the
evidence was not overwhelming,” the “standard for
such challenges is very high”).
The government concedes, as it must, that sustaining the money laundering convictions requires proof,
beyond a reasonable doubt, that the defendants
handled the fraud proceeds with the purpose, in
whole or in part, to conceal or disguise the proceeds’
nature, location, source, ownership, or control. Gov’t
Opp’n FB’s R. 29 Mot. at 42. The Supreme Court
made this point plainly in Cuellar v. United States,
553 U.S. 550, 561-65 (2008), in construing a parallel
provision of the same money laundering statute
under which the defendants were convicted and
focusing on the meaning of the language common to
both provisions, namely: “is designed in whole or
in part . . . to conceal or disguise the nature, the
location, the source, the ownership, or the control
of the proceeds of specified unlawful activity,” 18
U.S.C. § 1956(a)(2)(B)(i); accord § 1956(a)(1)(B)(i). In
that case, the Court reversed the money laundering
conviction of a defendant, who was caught driving in
the direction of the Mexican border in a Volkswagen
Beetle with approximately $81,000 in cash that was
secreted in a concealed compartment built into the
car’s rear floorboard, which was then covered in
animal hair in an apparent “attempt to mask the
smell of marijuana.” 553 U.S. at 554. “[G]uided by

202a
the words of the operative statutory provision,” id. at
558, the Court concluded that “merely hiding funds
during transportation is not sufficient to violate the
statute, even if substantial efforts have been expended to conceal the money,” id. at 563. Showing that
the defendant “engaged in extensive efforts to conceal the funds en route to Mexico,” id. at 568, and to
“facilitate the transportation,” id. at 567 (emphasis
in original), falls short of the requisite proof that the
funds were moved in this manner with the design or
purpose of concealing a listed attribute of the funds.
The Court stressed that “how one moves the money is
distinct from why one moves the money. Evidence of
the former, standing alone, is not sufficient to prove
the latter.” Id. at 566 (emphasis in original). Notably, in Cuellar, “the Government failed to introduce
any evidence that the reason drug smugglers move
money to Mexico is to conceal or disguise a listed
attribute of the funds.” Id. at 567.
The year before the Cuellar decision, the D.C. Circuit had occasion in United States v. Adefehinti, 510
F.3d 319 (D.C. Cir. 2007), to address the sufficiency
of the evidence to prove the same “essential element
of the money laundering charge” that the defendants
“attempted to ‘conceal or disguise’ the fraudulently
obtained funds.” 510 F.3d at 321-22. The defendants
in Adefehinti had a bank fraud scheme to buy cheap
properties using fake identities and then “flip” them
by selling them to each other with artificially high
prices, using fraudulently obtained bank loans to
fund the purchase. Id. at 321. In one such transaction underlying their money laundering conviction,
one defendant deposited a settlement check payable
to and endorsed by the “fictional seller” to his company’s account, from which the funds were distributed
among the defendants. Id. at 322. The D.C. Circuit
observed that “the necessary intent to conceal

203a
requires ‘something more’ than the mere transfer of
unlawfully obtained funds, though that ‘something
more’ is hard to articulate.” Id. (quoting United
States v. Esterman, 324 F.3d 565, 572 (7th Cir.
2003)). The Court reversed the money laundering
conviction, finding that the transaction “involve[d]
nothing but the initial crime,” with the fraud proceeds
“either cashed” or deposited “directly into accounts
in the name of defendants or their associates without
passing through any other person’s account” and
without any evidence that the defendants “took steps
to disguise or conceal the source or destination of the
funds.” Id. at 323 (internal quotations and citations
omitted). Rather than engage in efforts to conceal the
listed attributes of the funds, the Court noted that
the “money trail” was easily followed, law enforcement had no difficulty “doing so” and “[a]ll the transactions conspicuously lack the ‘convoluted’ character
associated with money laundering.” Id. at 323-24.
Similarly, in United States v. Law, 528 F.3d 888
(D.C. Cir. 2008), the D.C. Circuit reversed the money
laundering conviction of a defendant, who made
monthly mortgage payments for, and collected the
tenants’ rents from, the building, where he resided
and operated his illegal narcotics business, even
though he was not the actual owner of the building
and made the mortgage payments in the actual
owner’s name. Id. at 893. The Court explained that
“the evidence was insufficient to show the mortgage
payments were designed to conceal the source of the
funds rather than to profit[ ] from the excess rental
income or[ to] maintain[ ] the premises to further
drug trafficking,” discounting the fact that the defendant paid the mortgage in the owner’s name rather
than his own. Id. at 896-97 (internal quotations
omitted; alterations in original).

204a
The defendants cite to the reversal of the money
laundering convictions in Cuellar, Adefehinti and
Law to highlight that, as in those cases, the requisite
“evidence of a design to conceal” is lacking when “an
observer would easily discern the money trail . . .
[and] all the transactions conspicuously lack the
convoluted character associated with money laundering.” Def. FB’s R. 29 Mem. at 19-22; Def. MB’s R. 33
Mot. at 42. Instead, the traced money trail shows
only the “trivial motivation” of the defendants’
“acquiring of assets,” and this activity of merely
spending or disposing of illicitly obtained funds does
not constitute money laundering. Def. FB’s R. 29
Mem. at 21-22 (citing Adefehinti and Law). Unlike
the circumstances in Cuellar, however, where the
government presented no evidence about the possible
purpose to conceal a statutory listed attribute of
funds hidden in a car’s concealed compartment, see
553 U.S. at 567, the government in this case presented
Agent Hinson’s testimony, albeit limited, about funneling D.C. Medicaid funds through bank accounts
of the “completely unrelated” business companies to
conceal the source of the fraud proceeds, see Tr. (Nov.
4, 2015 AM) at 78-79 (Hinson), ECF No. 344.
Likewise, in Adefehinti, the financial transactions
underlying the money laundering conviction were
essentially the same transaction underlying the bank
fraud and, thus, any efforts to conceal the defendants’
involvement in the transaction was understood as
designed to conceal the fraud itself, not necessarily
any statutory listed attribute of the fraud proceeds.
See 510 F.3d at 324 (“Having carried out a fraud of
which concealment was an integral part, defendants
cannot be charged with the same concealment a
second time, as if it were the sort of independent
manipulation of the proceeds required for money

205a
laundering.”). Moreover, in Adefehinti, the fraud
proceeds were easily traced from the initial check
deposited directly into a defendant’s company account
and then distributed directly to a co-defendant’s
personal account, leading the D.C. Circuit to conclude that “[t]here is no evidence that Adefehinti or
[co-defendant] took steps to disguise or conceal the
source or destination of the funds.” Id. at 323. By
contrast, and as discussed more fully infra in Part
III.B.2, evidence of the transactions supporting the
money laundering convictions here are wholly separate from the health care fraud scheme evidence.
Moreover, the defendants’ fund transfers effectively
moved fraudulently obtained D.C. Medicaid money
out of Global’s accounts to shell companies that did
no business, or otherwise had no relationship, with
Global, except in terms of the defendants’ common
ownership and control of these corporate entities.27
27 Michael Bikundi tries to argue that CFC and TriContinental were not sham or shell companies but that CFC
“was a legitimate business entity,” Tri-Continental “was established as an import-export entity,” and “[t]he fact that neither
business was profitable is irrelevant.” Def. MB’s R. 33 Mot. at
44. Any factual dispute over whether these two companies were
a sham used by the defendants to launder fraud proceeds was
resolved by the jury against the defendants, and that conclusion
was well supported by the evidence that (1) neither company
appeared to generate any income, Tr. (Nov. 4, 2015 AM) at 78-79
(Hinson), ECF No. 344; (2) millions of dollars from Global were
transferred into the bank accounts of these two companies, which
were in completely different lines of business from Global and
transacted no business with Global, id.; (3) Carlson Igwacho’s
name was forged as the registered agent on CFC’s Articles of
Incorporation, Tr. (Oct. 28, 2015 PM) at 68-70 (Carlson Igwacho),
ECF No. 335; Gov’t Ex. 249; (4) Michael Bikundi was not supposed to have a role in CFC, but was a co-signatory with Florence Bikundi on CFC’s bank account, Tr. (Oct. 28, 2015 PM) at
71 (Carlson Igwacho), ECF No. 335; Tr. (Oct. 29, 2015 AM) at 5

206a
Although the defendants attempt to minimize the
import of these transfers as merely the spending of
fraud proceeds, see Def. FB’s R. 29 Mem. at 21-22,
a reasonable jury could conclude from review of the
timing and amounts of the fund transfers from D.C.
Medicaid to Global accounts and then to CFC and
Tri-Continental accounts and the personal uses of
the funds from the latter accounts that these transactions were designed, as Agent Hinson testified, to
conceal the source of the fraud proceeds. See Tr.
(Nov. 4, 2015 AM) at 78-79 (Hinson), ECF No. 344.
Indeed, the defendants’ financial transactions
reflect indicia of money laundering that the D.C.
Circuit called “instructive,” including “the existence
of more than one transaction, coupled with either
direct evidence of intent to conceal or sufficiently
complex transactions that such an intent could be
inferred;” “funneling illegal funds through various
fictitious business accounts” and “highly unusual
transactions involving cashier’s checks, third party
deposits, and trust accounts used to disguise source
of funds.” Adefehinti, 510 F.3d at 322-23 (internal
quotations and citations omitted). Certainly, the
government presented evidence of “tens of thousands
of transactions,” Tr. (Nov. 3, 2015 AM) at 130 (Hinson), ECF No. 343, a number of which were funneled
through multiple accounts of sham companies before
reaching the defendants’ personal accounts, along
with the use of 84 cashier’s checks totaling over
$7,700,000 that were purchased with funds from some
accounts controlled by the defendants and deposited
(Carlson Igwacho), ECF No. 332; Gov’t Ex. 250; and (5) CFC
was supposed to be a real estate development company but only
a miniscule number of checks and money were spent from CFC’s
accounts related to real estate, Tr. (Nov. 3, 2015 AM) at 143-44
(Hinson), ECF No. 343.

207a
into other accounts they controlled, which could
reasonably be viewed as disguising the source of the
funds, see Tr. (Nov. 3, 2015 PM) at 27 (Hinson), ECF
No. 342; Tr. (Oct. 29, 2015 PM) at 27 (Levy), ECF No.
334; Gov’t Ex. 154. This cumulative evidence amounts
to more than “the mere transfer of unlawfully
obtained funds,” Adefehinti, 510 F.3d at 322, and
when viewed in the light most favorable to the
government, see United States v. Mellen, 393 F.3d
175, 180 (D.C. Cir. 2004), suffices to support the
money laundering convictions, see Baxter, 761 F.3d
at 32 (affirming money laundering conviction where
defendant transferred fraudulently obtained funds
“to a front company . . . and to a frontman” before
the proceeds were transferred to a co-conspirator’s
personal account for payment of personal expenses
since “[a] reasonable juror could conclude that those
transactions involved unlawful proceeds and that
those transfers by the fronts were designed to conceal
the money’s illicit origins”); United States v. Baldwin,
563 F.3d 490, 490-91 (D.C. Cir. 2009) (affirming
defendant’s convictions for, inter alia, health care
fraud, 18 U.S.C. § 1347, and conspiracy to commit
money laundering, 18 U.S.C. § 1956(h), where defendant and co-conspirators created sham business entities to submit fraudulent invoices for reimbursement
of health care benefits that were never furnished and
“then created numerous bank accounts to receive the
payments and launder the money”).
Accordingly, the defendants’ motions for acquittal
or for a new trial on their money laundering convictions due to insufficient evidence are denied.
2. Proof Of Health Care Fraud And Money
Laundering Were Not Improperly Conflated
The defendants also contend that proof of the
health care fraud and money laundering charges

208a
“should not be conflated” but that such conflation
occurred here because the activity underlying both
sets of charges “occurred during the same time period
and . . . was part of the same transaction or set of
transactions.” Def. FB’s R. 33 Mem. at 14-15; see Def.
MB’s R. 33 Mot. at 46 (“The health care fraud and
the money laundering conspiracies were not distinct
from one another.”). This contention is unavailing.
The D.C. Circuit has instructed, consistent with
the consensus of other circuit courts, that the
charged money laundering offense must be “distinct
from the crimes that produced the funds that were
laundered.” Baxter, 761 F.3d at 30; United States v.
Hall, 613 F.3d 249, 254-55 (D.C. Cir. 2010) (“[T]he
offense of money laundering must be separate and
distinct from the underlying offense that generated
the money to be laundered.”); Adefehinti, 510 F.3d at
324 (“[The] transaction or transactions that created
the criminally-derived proceeds must be distinct from
the money-laundering transaction.” (quoting United
States v. Seward, 272 F.3d 831, 836 (7th Cir. 2001)));
see also United States v. Castellini, 392 F.3d 35, 47
(1st Cir. 2004) (“Money laundering requires there to
be proceeds of illegal activity and cannot be the same
as the illegal activity which produces the proceeds.”);
United States v. Butler, 211 F.3d 826, 830 (4th Cir.
2000) (“[T]he laundering of funds cannot occur in the
same transaction through which those funds first
become tainted by the crime.”); United States v.
Mankarious, 151 F.3d 694, 706 (7th Cir. 1998) (“[A]
money laundering transaction . . . must be separate
from any transaction necessary for the predicate
offense to generate proceeds.”); United States v.
Edgmon, 952 F.2d 1206, 1213 (10th Cir. 1991) (“Congress appears to have intended the money laundering statute to be a separate crime distinct from the

209a
underlying offense that generated the money to be
laundered.”). While the defendants are on solid legal
ground in stating this requirement for a valid money
laundering conviction, they falter in their application
of this legal principle to the trial evidence.
In support of their challenge, the defendants
note, first, that “[t]he funds involved in the money
laundering counts were the same funds that were
received from D.C. Medicaid as a result of the health
care fraud.” Def. FB’s R. 33 Mem. at 15; see Def. MB’s
R. 33 Mot. at 46. The fact that the health care fraud
produced the illegal proceeds, which were then used
in money laundering transactions, is unremarkable.
Violation of the federal money laundering statute,
18 U.S.C. § 1956, requires “that the money being
laundered must in some way be associated with
‘unlawful activity.’ ” Hourani v. Mirtchev, 796 F.3d 1,
10 (D.C. Cir. 2015) (citing 18 U.S.C. § 1956(a)(1),
which requires that a covered transaction “involves
the proceeds of specified unlawful activity”). Thus,
the defendants’ focus on the fact that both the health
care fraud and money laundering counts involved
proof of the same fraudulently obtained money from
D.C. Medicaid is too myopic and ignores the additional proof underlying the money laundering counts
of how the defendants handled their ill-gotten gains.
The defendants next highlight that “the activities
and transfers of money in and out of bank accounts
occurred contemporaneously with each other and
involved the same facts as alleged in the health care
counts and money laundering counts.” Def. FB’s R.
33 Mem. at 15; see Def. MB’s R. 33 Mot. at 46
(“[B]oth health care fraud and money laundering
were taking place contemporaneously. . . . They were
the same event.”). The government does not dispute
that the defendants’ health care fraud and money

210a
laundering activities occurred over the same time
period and involved the same fraudulently obtained
funds from D.C. Medicaid. Gov’t Opp’n FB’s R. 33
Mot. at 17. Yet, as the government succinctly and
correctly puts it: this is “not a basis to vacate the
defendant’s conviction.” Id. For money laundering,
“it does not matter when all the acts constituting
the predicate offense take place. It matters only
that the predicate offense has produced proceeds in
transactions distinct from those transactions allegedly
constituting money laundering.” Mankarious, 151
F.3d at 706.
The evidence underlying the money laundering
convictions supplemented the documentary and
testimonial evidence supporting the health care
fraud charges by showing “the sort of independent
manipulation of the proceeds required for money
laundering.” Adefehinti, 510 F.3d at 324. The health
care fraud convictions rested on all of the evidence
leading up to Global’s receipt of over $80,000,000
from D.C. Medicaid from 2009 until February 2014.
At the point of receipt of the D.C. Medicaid funds, the
health care fraud scheme was successfully completed.
By contrast, the money laundering convictions rested
on the documentary evidence and testimony of Agent
Hinson regarding what Florence and Michael Bikundi
then did with the fraud proceeds after those funds
were deposited into Global’s Intake Accounts. The
defendants’ activity in fraudulently obtaining the money
was not conflated with their conduct in “concealing
it” by engaging in entirely different transactions
that resulted in the distribution of the funds across
over one hundred different accounts and financial
instruments. These different actions constitute “two
different activities which rarely are one and the
same.” Adefehinti, 510 F.3d at 324. Since the money
laundering offenses were separate and distinct from

211a
the health care offenses that generated the laundered
proceeds, the defendants’ contention otherwise fails
and their money laundering convictions will not be
disturbed on this ground.
3. Verdicts Are Not Inconsistent
Finally, Florence Bikundi urges vacatur of her
conviction on Count Fifteen because no reasonable
juror would “be able to find beyond a reasonable
doubt that Mrs. Bikundi is guilty of conspiracy to
commit money laundering, including a violation of 18
U.S.C. § 1957 (Engaging in Monetary Transactions in
Property Derived From Specified Unlawful Activity),
but then” find her “not guilty of the underlying
offense as shown in Counts 23-25.” Def. FB’s R. 29
Mem. at 17. Even if the defendant correctly characterized the verdict on Count Fifteen as inconsistent
with the acquittals on Counts Twenty-Three through
Twenty-Five, “a factually inconsistent verdict,” is
not, “by itself, grounds for reversal,” since that “may
well be nothing more than ‘a demonstration of the
jury’s leniency.’ ” United States v. Brown, 504 F.3d
99, 102-103 (D.C. Cir. 2007) (quoting United States v.
Powell, 469 U.S. 57, 61 (1984)); see also Pitt v. District of Columbia, 491 F.3d 494, 506 (D.C. Cir. 2007)
(“In both the civil and criminal contexts, courts have
held that inconsistency alone is not a sufficient basis
for setting aside a jury verdict.”); United States v.
Dykes, 406 F.3d 717, 722-23 (D.C. Cir. 2005) (holding
that a “criminal defendant convicted by a jury on one
count [cannot] attack that conviction because it was
inconsistent with the jury’s verdict of acquittal on
another count” (citations omitted)); United States v.
Lewis, 716 F.2d 16, 21 (D.C. Cir. 1983) (“[C]ase law
establishes that inconsistency in jury verdicts on
multiple counts in a single indictment is not sufficient
to overturn an otherwise valid conviction.”).

212a
The Supreme Court has explained that “[e]ach
count in an indictment is regarded as if it was a
separate indictment,” Powell, 469 U.S. at 62, and is
therefore evaluated separately. Protection against
“jury irrationality or error,” which may be reflected
in an inconsistent verdict is afforded “by the independent review of the sufficiency of the evidence undertaken by the trial and appellate courts” and no
“further safeguards against jury irrationality are
necessary.” Id. at 67. Thus, the defendant’s attack
on her conviction in Count Fifteen may be readily
disposed of on this basis alone, namely, the Court’s
finding, supra in Part III.B.1, that the money
laundering convictions are supported by sufficient
evidence.
In any event, the defendant’s view of the verdicts
as “inconsistent” is incorrect. The jury unanimously
found, on Count Fifteen, that the defendants conspired
to violate two different money laundering statutes,
even though they also concluded that the defendants
were not guilty of committing the substantive offense
under one of those same statutes. The conspiracy
charge required the jury to conclude, unanimously,
only that the defendant intentionally joined an
agreement to accomplish an unlawful purpose, and
there was no necessity of finding that the defendant
actually committed the separate and distinct unlawful act that was the goal of the illegal agreement.28
Indeed, the law is well settled that a criminal defen28 The government suggests that “the jury may have acquitted the defendant on the substantive section 1957 counts
because it found that the Government failed to establish one
of the elements – such as that at least $10,000 of the property
involved in the transaction was obtained or derived from a
crime.” Gov’t Opp’n Def. FB’s R. 29 Mot. at 35 (citing Jury
Instructions at 29-30).

213a
dant may not attack his conviction on a compound
offense solely because of a perceived inconsistency
with the jury’s acquittal of the predicate offense.
Over thirty years ago, in Powell, the Supreme Court
refused to vacate a verdict convicting a defendant of
using the telephone in “committing and in causing
and facilitating” certain narcotics felonies, which
the same jury had acquitted her of committing. 469
U.S. at 60, 69. Noting “the general reluctance to
inquire into the workings of the jury, and the possible exercise of lenity,” the Court counseled “that the
best course to take is simply to insulate jury verdicts
from review on this ground.” Id. at 68-69; see also
United States v. Laing, 889 F.2d 281, 288-89 (D.C.
Cir. 1989) (rejecting claim of inconsistent verdicts
where defendant was convicted of offense of carrying
a firearm in relation to a drug trafficking offense but
acquitted of underlying drug trafficking offense).
For all of these reasons, no inconsistent verdict
claim by the defendants warrants a new trial or
vacatur of their convictions for money laundering
conspiracy in Count Fifteen.
C. DEFENDANTS WERE PROPERLY JOINED
FOR TRIAL
Defendant Michael Bikundi seeks a new and
separate trial from Florence Bikundi because of what
he characterizes as the “overwhelming” and “striking
. . . enormity” of the “disparity of evidence between
Mr. and Mrs. Bikundi” and “[t]he attendant prejudice
to Michael Bikundi” from the “spillover effect.” Def.
MB’s R. 33 Mot. at 47, 49.29 As this Court has previ29 Michael Bikundi made motions for a severance prior to and
during the trial on the same grounds and these motions were
denied. See Michael Bikundi’s First Mot. Sever, ECF No. 155;
Tr. (Oct. 28, 2015 AM) at 89-92, ECF No. 329; Tr. (Nov. 3, 2015

214a
ously concluded both before and during trial, Michael
Bikundi was properly joined for trial with his spouse
and ample evidence of his guilt was presented. Consequently, as explained in more detail below, Michael
Bikundi is not entitled to any new and separate trial.
1. Legal Standard Applicable To Review
Of Severance Motions
Federal Rule of Criminal Procedure 8 permits joinder in the same indictment of two or more offenses
that “are of the same or similar character, or are
based on the same act or transaction, or are connected
with or constitute parts of a common scheme or
plan,” FED. R. CRIM. P. 8(a), as well as joinder of
two or more defendants if they are alleged to have
participated in the “same series of acts or transactions constituting an offense or offenses,” whether
the defendants are charged in the same counts
“together or separately” or “not charged in each
count,” id. 8(b). The D.C. Circuit has repeatedly
instructed that “ ‘Rule 8 has generally been construed
liberally in favor of joinder,’ ” while at the same time
joinder “cannot be stretched to cover offenses . . .
which are discrete and dissimilar and which do not
constitute parts of a common scheme or plan.”
Gooch, 665 F.3d at 1326 (quoting United States v.
Richardson, 161 F.3d 728, 733 (D.C. Cir. 1998)). The
Supreme Court has recognized that joint trials “play
a vital role in the criminal justice system,” noting the
particular policy reasons underscoring the benefits of
joinder to “promote efficiency and serve the interests
of justice by avoiding the scandal and inequity of
inconsistent verdicts.” Zafiro v. United States, 506
AM) at 80-81, ECF No. 343; Tr. (Nov. 10, 2015 AM) at 75, ECF
No. 377; Minute Order (July 31, 2015); Minute Entry (Nov. 10,
2015).

215a
U.S. 534, 537 (1993) (internal quotations and citations
omitted); see also United States v. Long, 905 F.2d
1572, 1580-81 (D.C. Cir. 1990) (stating that joinder
promotes the judicial system’s “strong and legitimate
interest in efficient and expeditious proceedings”);
United States v. Robinson, 432 F.2d 1348, 1351 (D.C.
Cir. 1970) ( “[Joinder] expedites the administration
of justice, reduces the congestion of trial dockets,
conserves judicial time, lessens the burden upon
citizens who must sacrifice both time and money
to serve upon juries, and avoids the necessity of recalling witnesses who would otherwise be called upon
to testify only once.”). Indeed, there is a “presumption in favor of joinder,” McGill, 2016 U.S. App.
LEXIS 3734, at *176, 2016 WL 790413, that “is especially strong where the respective charges require
presentation of much of the same evidence, testimony
of the same witnesses and involve defendants who
are charged, inter alia, with participating in the same
illegal acts,” id. (quoting United States v. Richardson,
167 F.3d 621, 624 (D.C. Cir. 1999)) (ellipsis omitted).
Nevertheless, Federal Rule of Criminal Procedure
14(a) permits a court to order “separate trials of
counts” or to “sever the defendants’ trials,” “if joinder
of offenses or defendants in an indictment . . . appears
to prejudice a defendant or the government.” FED.
R. CRIM. P. 14(a). While the standard of “appears
to prejudice a defendant” set out in Rule 14(a) for
consideration of severance, does not, on its face,
provide an onerous test, the discretion afforded to
district courts must be exercised with appreciation of
the policy reasons favoring joinder. Thus, the D.C.
Circuit has made clear that even if prejudice is
shown, this “does not result in an automatic grant of
the motion.” Gooch, 665 F.3d at 1326.

216a
Instead, the D.C. Circuit has instructed that for
severance to be proper “[t]here must be ‘a serious
risk that a joint trial would compromise a specific
trial right of one of the defendants, or prevent the
jury from making a reliable judgment about guilt or
innocence.’ ” Bostick, 791 F.3d at 152-53 (affirming a
district court’s denial of a defendant’s motion for a
severed trial) (quoting Zafiro, 506 U.S. at 539); see
also United States v. Glover, 681 F.3d 411, 417 (D.C.
Cir. 2012) (affirming district court’s denial of defense
motion to sever trial citing same standard).
2. Substantial And Independent Evidence Of
Michael Bikundi’s Guilt Was Presented At Trial
As support for his motion for a new trial, Michael
Bikundi points to the disparity of evidence against
him in comparison to his wife due, first, to the
separate charges, in Counts Thirteen and Fourteen,
against Florence Bikundi for health care fraud and
making false statements stemming from her nursing
license revocations and resulting exclusion from the
participation in all federal health care programs, Def.
MB’s R. 33 Mot. at 47; and, second, to other evidence
presented at trial involving only his wife, id. at 47-49.
At the outset, a disparity in the volume of evidence
presented at trial among co-defendants simply does
not suffice to warrant a severance, even when one
defendant assumes the role of “second prosecutor”
and accuses another of committing the charged
crime. See Zafiro, 506 U.S. at 544 (Stevens, J.,
concurring); United States v. Glover, 736 F.3d 509,
516 (D.C. Cir. 2013). On the contrary, “when there
is ‘substantial and independent evidence of each
[defendant’s] significant involvement in the conspiracy,’ severance is not required.” Moore, 651 F.3d at
96 (quoting Tarantino, 846 F.2d at 1399); see also

217a
United States v. Slade, 627 F.2d 293, 310 (D.C. Cir.
1980) (finding severance not required despite disparity in evidence because evidence against defendant
was “independent and substantial”). Thus, the defendant must point to “a serious risk” of such prejudice
from certain evidence presented at trial only against
Florence Bikundi that may have so colored the jury’s
view as to “prevent the jury from making a reliable
judgment about [his] guilt.” Bostick, 791 F.3d at 15253.
First, to the extent that Michael Bikundi attributes
“immense prejudice” to the evidence regarding his
wife’s exclusion from federal health care programs,
Def. MB’s R. 33 Mot. at 47, he is wrong.30 His brief30

Neither defendant makes any argument in post-trial
briefing that Counts Thirteen and Fourteen, which charge only
Florence Bikundi with concealing her exclusion from participation in federal health care programs, failed to meet the requirement for joinder, under Rule 8(a), as “connected with or constitut[ing] parts of a common scheme or plan.” FED. R. CRIM.
P. 8(a). Indeed, these two counts are predicated on Florence
Bikundi’s knowledge of her exclusion, explain steps that she
took to conceal this fact in obtaining licensing for and operating
Global, and are relevant to showing how she facilitated the
scheme to defraud the D.C. Medicaid program. In these circumstances, where offenses are of different types but connected to
facilitate or contribute to another criminal act, the charges
are properly tried together in a single trial. See, e.g., Blunt v.
United States, 404 F.2d 1283, 1288 (D.C. Cir. 1968) (concluding
that severance of robbery charge was not required, even though
of “a wholly different nature from the forgery and uttering
charges,” because “the theft of the checkbook used hours later
to commit the fraud and forgeries is ‘connected together’ with
these latter offenses”); United States. v. Howard, 245 F. Supp.
2d 24, 30 (D.D.C. 2003) (denying severance of different charges
since “all of the events concerning the money laundering activity were admissible to demonstrate the defendant’s intent to
defraud.”); United States v. Adeosun, 49 F. Supp. 2d 7, 13 (D.D.C.
1999) (denying defendant’s motion to sever money laundering

218a
ing describes the basis for his wife’s exclusion as
“related to the licensure fraud,” id., which is factually
correct but those underlying facts were never presented to the jury nor was the term “licensure fraud”
ever used before the jury. On the contrary, as
summarized supra in Part I.B, three out of the total
of 40 trial witnesses, testified about the exclusion
process and communications with Florence Bikundi
regarding her exclusion. These three witnesses from
the Virginia Board of Nursing and the United States
HHS-OIG did not provide any information about
the basis for that exclusion, let alone mention that
Florence Bikundi had engaged in “licensure fraud.”
See Tr. (Oct. 26, 2015 PM) at 4-16 (Durrett), ECF
No. 327; id. at 17-50 (Hoffman); Tr. (Nov. 4, 2015
AM) at 125-39 (Gillin), ECF No. 344. The masking of
the underlying reasons for Florence Bikundi’s exclusion reduced any risk of undue prejudice to Michael
Bikundi from these two charges against his wife.
Moreover, the two charges in Counts Thirteen and
Fourteen related to Florence Bikundi’s exclusion are
similar in nature and no more prejudicial than the
serious felony charges of health care fraud and
money laundering that the jury considered against
Michael Bikundi. By contrast, where defendants
have urged severance of their trials from codefendants who are facing far more serious charges,
including those punishable by death, the D.C. Circuit
has affirmed the denial of severance. For example,
in Moore, two defendants sought severance of their
trials because co-defendants were charged with more
count from bank fraud and other counts of indictment since “it
is clear on the face of the indictment that all of these offenses
are ‘of the same or similar character or are based on the same
act or transactions . . . or constituting parts of a common scheme
or plan’ ”).

219a
numerous and serious death penalty eligible crimes.
651 F.3d at 94-95. The defendants argued that
evidence of these more serious charges presented
against their co-defendants “could have a ‘spillover’
effect, akin to guilt-by-association, that would prejudice the jury against them.” Id. at 95. The D.C. Circuit concluded, however, that denial of the severance
motion was no abuse of discretion. Id. at 96.
Finally, any prejudice that may have been generated
by the exclusion evidence against Florence Bikundi
was addressed in the instructions given to the jury
before the presentation of evidence and, again, in
final instructions that the jury must consider the
evidence against each defendant separately. Tr. (Oct.
15, 2015 AM) at 24 (Preliminary Instructions), ECF
No. 347; Jury Instructions at 7-8. Such instructions
have been held by the D.C. Circuit to afford adequate
protection against any prejudicial spillover effect
from evidence and charges brought against only one
defendant and not the co-defendants. See McGill,
2016 U.S. App. LEXIS, at *179, 2016 WL 790413
(affirming denial of severance where court gave
instructions “directing the jury to undertake an
individualized consideration of the guilt of each
defendant”); Gooch, 665 F.3d at 1336-37 (citing Zafiro,
506 U.S. at 540-41); Moore, 651 F.3d at 95-96; United
States v. Carson, 455 F.3d 336, 374-75 (D.C. Cir.
2006) (per curiam); United States v. Spriggs, 102
F.3d 1245, 1256 (D.C. Cir. 1996); Slade, 627 F.2d at
309-10. Thus, the fact that certain evidence was
admitted at trial solely against Florence Bikundi in
connection with her exclusion from participation in
federal health care programs does not warrant a new
and separate trial for Michael Bikundi.
Second, Michael Bikundi contends that certain
evidence warrants a new, severed trial, citing the

220a
2009 Medicaid Provider Agreement for Global, which
“Michael Bikundi was never alleged to have been
involved in negotiating[,] . . . to have signed[,] . . . to
have known anything about . . . [and] is not alleged
to have forged anyone’s signature on the agreement.”
Def. MB’s R. 33 Mot. at 48.31 According to Michael
Bikundi, testimony regarding the forged signatures
on this agreement “was powerfully prejudicial and
incriminating.” Id. This single, cherry-picked government exhibit out of a total of almost three hundred
government exhibits introduced at trial falls far
short of demonstrating the level of undue prejudice
that would warrant a new trial. Numerous other
documents presented at trial were proved to be
fraudulent due to forged signatures and/or fabricated
or altered information, including POCs, timesheets,
background checks for Global employees, as well as
their health certificates and training certificates, and
Global board of director meeting minutes. See supra
Part I.C-E. No evidence may have been presented of
Michael Bikundi’s direct involvement in the creation
or submission of Global’s 2009 Medicaid Provider
Agreement but ample evidence was submitted about
his involvement in managing this company in a
31 Michael Bikundi also mentions other evidence, including
that he “was not alleged to have any contact with Carolyn
Baldwin,” “merely drove Florence Bikundi to Ms. White’s home
and did not personally receive the plans of care,” “did not issue
blank CPR’s, was not involved in the alteration of timesheets
and was locked in his office when surveys were conducted.”
Def. MB’s R. 33 Mot. at 48. While this abbreviated summary
of evidence may be exculpatory, when viewed in the context
of other evidence presented about Michael Bikundi’s actions
at Global, the jury determined that his guilt was established
beyond a reasonable doubt, and the Court has concluded that
this evidence is sufficient to sustain the jury verdict. See supra
Part III.A.2, B.

221a
manner that facilitated the fraudulent payment of
millions of dollars by the D.C. Medicaid program.
Accordingly, Michael Bikundi’s motion for a new
trial due to the “disparity and attendant prejudice”
from certain charges and evidence against Florence
Bikundi is denied.
D. SELECTIVE PROSECUTION
In a last gasp effort to obtain a new trial and
judgmental of acquittal, Michael Bikundi accuses
the government, for the first time in this criminal
proceeding, of selective prosecution. See Def. MB’s
R. 33 Mot. at 50-54. Citing testimony of Donald
Shearer, from DHCA, that three health care agencies
other than Global were shut down upon execution of
search warrants of those companies’ premises, but
that those other companies were not prosecuted,
Tr. (Nov. 4, 2015 AM) at 104-05, 116-17 (Shearer),
ECF No. 344, Michael Bikundi claims that he was
“singl[ed] out,” Def. MB’s R. 33 Mot. at 50, since
“other agents of other home health agencies who
were also shut down for violations were not prosecuted,” id. at 53. This claim is not only untimely but also
utterly fails to meet the requisite standard to undo
the jury verdict and bar further process against him.
At the outset, any defense or objection raising
“a defect in instituting the prosecution, including . . .
selective or vindictive prosecution,” “must be raised
by pretrial motion if the basis for the motion is
then reasonably available . . . .” FED. R. CRIM. P.
12(b)(3)(A)(iv). The defendants did not raise this
claim at any time before or during trial, despite
extensive pretrial motion practice. See supra n.3.
Although the government does not raise a timeliness
objection to the defendant’s claim of selective prosecution, see Gov’t Opp’n MB’s R. 33 Mot. at 14, Rule

222a
12 is explicit that consideration of this type of
challenge to a prosecution must be made before trial
and, if not timely made, the court may consider the
defense or objection only “if the party shows good
cause.” FED. R. CRIM. P. 12(c)(3). Michael Bikundi
has made no effort to show any reason, let alone good
cause, for his belated selective prosecution claim. For
this reason alone, his selective prosecution claim may
be rejected. See United States v. Choi, 818 F. Supp.
2d 79, 89-90 (D.D.C. 2011) (holding that “[b]ecause
respondent did not submit a pre-trial motion to
dismiss on the basis of these [selective prosecution]
claims, he generally could not raise them following
the commencement of trial”); accord Jarkesy v. SEC,
803 F.3d 9, 26 (D.C. Cir. 2015) (noting that a selective
prosecution claim is usually raised and addressed
“pretrial”).
Even if the merits were considered, this selective
prosecution claim is insufficiently supported. A
selective prosecution claim “that the prosecutor
has brought the charge for reasons forbidden by
the Constitution” “is not a defense on the merits to
the criminal charge itself,” Jarkesy, 803 F.3d at 26
(quoting United States v. Armstrong, 517 U.S. 456,
463, (1996)), or a “refutation of the government’s case
in chief,” but rather operates as “an independent
constitutional bar to the prosecution,” United States
v. Rashed, 234 F.3d 1280, 1285 (D.C. Cir. 2000). To
prevail on such a claim, the defendant must prove
that he is “part of a protected class under the Equal
Protection Clause, U.S. CONST. amend. XIV, § 1,
and show not only that prosecutors acted with bad
intent, but also that ‘similarly situated individuals
[outside the protected category] were not prosecuted.’ ”
Fog Cutter Capital Grp. v. SEC, 474 F.3d 822, 826-27
(D.C. Cir. 2007) (quoting Armstrong, 517 U.S. at 465);

223a
see also Branch Ministries v. Rossotti, 211 F.3d 137,
144 (D.C. Cir. 2000) (“To establish selective prosecution, the Church must ‘prove that (1) [it] was singled
out for prosecution from among others similarly situated and (2) that [the] prosecution was improperly
motivated, i.e., based on race, religion or another
arbitrary classification.’ ” (alterations in original)
(quoting United States v. Washington, 705 F.2d 489,
494 (D.C. Cir. 1983))).
These requirements reflect the limits of judicial
review of the exercise of prosecutorial discretion,
which is “at the very core of the executive function
[and] has long been held presumptively unreviewable.” In re Sealed Case, 131 F.3d 208, 214 (D.C.
Cir. 1997). Thus, while prosecutorial decisions are
“subject to constitutional limitations that district
courts can enforce,” United States v. White, 71 F.3d
920, 923-24 (D.C. Cir. 1995), “[b]ecause such [selective prosecution] claims invade a special province
of the Executive—its prosecutorial discretion—we
have emphasized that the standard for proving them
is particularly demanding, requiring a criminal
defendant to introduce ‘clear evidence’ displacing the
presumption that a prosecutor has acted lawfully,”
Reno v. Am.-Arab Anti-Discrimination Comm., 525
U.S. 471, 489-90 (1999) (quoting Armstrong, 517 U.S.
at 463-65).
In this case, Michael Bikundi has made no effort
either to specify the protected class of which he is a
member that was the purported motivation for his
prosecution or to identify similarly situated individuals outside such protected category who were
not prosecuted. Rather, he merely points out limited
trial testimony that three health care companies
were shut down along with Global but no individuals
at those other companies appear to have been

224a
prosecuted. Clearly, all four of these companies
were criminally investigated and subjected to courtauthorized warrants for searches and seizures.
Merely because individuals at Global, including
the Florence and Michael Bikundi, who owned and
operated Global, were prosecuted along with many
of their employees, for serious criminal conduct, does
not demonstrate improper motive by the government.
To the contrary, the Supreme Court has made clear
that “the conscious exercise of some selectivity in
enforcement is not in itself a federal constitutional
violation so long as the selection was not deliberately
based upon an unjustifiable standard such as race,
religion, or other arbitrary classification.” Bordenkircher v. Hayes, 434 U.S. 357, 364-65 (1978) (internal
quotations, alteration and citation omitted). The
defendant Michael Bikundi has fallen far short of
making even a threshold showing of any improper
motive. Accordingly, his motions for a judgment of
acquittal or a new trial based on his claim of selective prosecution are denied.
IV. CONCLUSION
The defendants Florence and Michael Bikundi
operated Global Healthcare, Inc. for over four years,
reaping millions of dollars in reimbursement for
the provision of home personal care services to D.C.
Medicaid beneficiaries in the District of Columbia.
The overwhelming evidence at trial demonstrated
that Global’s receipt and maintenance of a license to
operate as a health care agency and its billing were
predicated on forged and fraudulent records, and
amply supports the jury findings that these two
defendants are guilty of conspiracy to commit and
committing health care fraud. In addition, evidence
at trial is sufficient to support their convictions of

225a
conspiracy to commit and committing money laundering. Moreover, none of the defendants’ other
challenges to their convictions merit disturbing the
jury verdict.
Accordingly, for the foregoing reasons, the defendants’ motions for a new trial or judgment of acquittal on their convictions are DENIED.
An appropriate Order accompanies this Memorandum Opinion.
SO ORDERED.

226a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
__________
No. 16-3066
(consolidated with No. 16-3067)
UNITED STATES OF AMERICA,
Appellee,
v.
MICHAEL D. BIKUNDI, SR.,
Appellant.
__________
Filed On: October 4, 2019
__________
BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas, and Rao, Circuit
Judges
ORDER
Upon consideration of Florence Bikundi’s petition
for rehearing en banc joined by Michael Bikundi,
and Michael Bikundi’s supplement to the petition for
rehearing en banc; the motion of Florence Bikundi to
join in the supplement to the petition for rehearing
en banc; and the absence of a request by any member
of the court for a vote, it is
ORDERED that the motion of Florence Bikundi
to join in the supplement be granted.
FURTHER ORDERED that the petition be
denied.

227a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

228a
STATUTORY PROVISIONS INVOLVED
1. The Speedy Trial Act of 1974, 18 U.S.C. § 3161
et seq., provides in relevant part:
§ 3161. Time limits and exclusions
***
(c)(1) In any case in which a plea of not guilty is
entered, the trial of a defendant charged in an information or indictment with the commission of an
offense shall commence within seventy days from
the filing date (and making public) of the information
or indictment, or from the date the defendant has
appeared before a judicial officer of the court in
which such charge is pending, whichever date last
occurs. If a defendant consents in writing to be tried
before a magistrate judge on a complaint, the trial
shall commence within seventy days from the date of
such consent.
***
(h) The following periods of delay shall be excluded
in computing the time within which an information
or an indictment must be filed, or in computing the
time within which the trial of any such offense must
commence:
(1) Any period of delay resulting from other
proceedings concerning the defendant, including
but not limited to—
(A) delay resulting from any proceeding,
including any examinations, to determine the
mental competency or physical capacity of the
defendant;

229a
(B) delay resulting from trial with respect to
other charges against the defendant;
(C) delay resulting from any interlocutory
appeal;
(D) delay resulting from any pretrial motion,
from the filing of the motion through the conclusion of the hearing on, or other prompt disposition of, such motion;
(E) delay resulting from any proceeding relating to the transfer of a case or the removal of any
defendant from another district under the Federal Rules of Criminal Procedure;
(F) delay resulting from transportation of any
defendant from another district, or to and from
places of examination or hospitalization, except
that any time consumed in excess of ten days
from the date an order of removal or an order
directing such transportation, and the defendant’s
arrival at the destination shall be presumed to be
unreasonable;
(G) delay resulting from consideration by the
court of a proposed plea agreement to be entered
into by the defendant and the attorney for the
Government; and
(H) delay reasonably attributable to any period,
not to exceed thirty days, during which any
proceeding concerning the defendant is actually
under advisement by the court.
(2) Any period of delay during which prosecution
is deferred by the attorney for the Government
pursuant to written agreement with the defendant,
with the approval of the court, for the purpose of

230a
allowing the defendant to demonstrate his good
conduct.
(3)(A) Any period of delay resulting from the
absence or unavailability of the defendant or an
essential witness.
(B) For purposes of subparagraph (A) of this
paragraph, a defendant or an essential witness
shall be considered absent when his whereabouts
are unknown and, in addition, he is attempting to
avoid apprehension or prosecution or his whereabouts cannot be determined by due diligence. For
purposes of such subparagraph, a defendant or an
essential witness shall be considered unavailable
whenever his whereabouts are known but his presence for trial cannot be obtained by due diligence or
he resists appearing at or being returned for trial.
(4) Any period of delay resulting from the fact
that the defendant is mentally incompetent or
physically unable to stand trial.
(5) If the information or indictment is dismissed
upon motion of the attorney for the Government
and thereafter a charge is filed against the defendant for the same offense, or any offense required
to be joined with that offense, any period of delay
from the date the charge was dismissed to the date
the time limitation would commence to run as to
the subsequent charge had there been no previous
charge.
(6) A reasonable period of delay when the defendant is joined for trial with a codefendant as to
whom the time for trial has not run and no motion
for severance has been granted.

231a
(7)(A) Any period of delay resulting from a continuance granted by any judge on his own motion
or at the request of the defendant or his counsel or
at the request of the attorney for the Government,
if the judge granted such continuance on the basis
of his findings that the ends of justice served by
taking such action outweigh the best interest of the
public and the defendant in a speedy trial. No such
period of delay resulting from a continuance granted by the court in accordance with this paragraph
shall be excludable under this subsection unless
the court sets forth, in the record of the case, either
orally or in writing, its reasons for finding that
the ends of justice served by the granting of such
continuance outweigh the best interests of the
public and the defendant in a speedy trial.
(B) The factors, among others, which a judge
shall consider in determining whether to grant a
continuance under subparagraph (A) of this paragraph in any case are as follows:
(i) Whether the failure to grant such a continuance in the proceeding would be likely to make
a continuation of such proceeding impossible, or
result in a miscarriage of justice.
(ii) Whether the case is so unusual or so
complex, due to the number of defendants, the
nature of the prosecution, or the existence of
novel questions of fact or law, that it is unreasonable to expect adequate preparation for pretrial
proceedings or for the trial itself within the time
limits established by this section.
(iii) Whether, in a case in which arrest precedes
indictment, delay in the filing of the indictment
is caused because the arrest occurs at a time

232a
such that it is unreasonable to expect return and
filing of the indictment within the period specified
in section 3161(b), or because the facts upon
which the grand jury must base its determination
are unusual or complex.
(iv) Whether the failure to grant such a continuance in a case which, taken as a whole, is not so
unusual or so complex as to fall within clause (ii),
would deny the defendant reasonable time to
obtain counsel, would unreasonably deny the
defendant or the Government continuity of counsel,
or would deny counsel for the defendant or the
attorney for the Government the reasonable time
necessary for effective preparation, taking into
account the exercise of due diligence.
(C) No continuance under subparagraph (A) of
this paragraph shall be granted because of general
congestion of the court’s calendar, or lack of diligent
preparation or failure to obtain available witnesses
on the part of the attorney for the Government.
(8) Any period of delay, not to exceed one year,
ordered by a district court upon an application of
a party and a finding by a preponderance of the
evidence that an official request, as defined in section 3292 of this title, has been made for evidence
of any such offense and that it reasonably appears,
or reasonably appeared at the time the request was
made, that such evidence is, or was, in such foreign
country.
***

233a
2. The Mandatory Victims Restitution Act of
1996, 18 U.S.C. § 3663A et seq., provides in relevant
part:
§ 3664. Procedure for issuance and enforcement
of order of restitution
***
(e) Any dispute as to the proper amount or type
of restitution shall be resolved by the court by the
preponderance of the evidence. The burden of demonstrating the amount of the loss sustained by a victim
as a result of the offense shall be on the attorney for
the Government. The burden of demonstrating the
financial resources of the defendant and the financial
needs of the defendant’s dependents, shall be on the
defendant. The burden of demonstrating such other
matters as the court deems appropriate shall be upon
the party designated by the court as justice requires.
***
3. The criminal forfeiture statute, 18 U.S.C.
§ 982, provides in relevant part:
§ 982. Criminal forfeiture
(a)(1) The court, in imposing sentence on a person
convicted of an offense in violation of section 1956,
1957, or 1960 of this title, shall order that the person
forfeit to the United States any property, real or
personal, involved in such offense, or any property
traceable to such property.
***
(7) The court, in imposing sentence on a person
convicted of a Federal health care offense, shall order

234a
the person to forfeit property, real or personal, that
constitutes or is derived, directly or indirectly, from
gross proceeds traceable to the commission of the
offense.
***

235a
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
SCOTT S. HARRIS
Clerk of the Court
(202) 479-3011

December 11, 2019
Mr. Andrew Edward Goldsmith
Kellogg, Hansen, Todd,
Figel & Frederick, P.L.L.C.
1615 M Street, NW
Suite 400
Washington, DC 20036
Re: Florence Bikundi, et vir
v. United States
Application No. 19A641
Dear Mr. Goldsmith:
The application for an extension of time within
which to file a petition for a writ of certiorari in
the above-entitled case has been presented to The
Chief Justice, who on December 11, 2019, extended
the time to and including March 2, 2020.
This letter has been sent to those designated on the
attached notification list.
Sincerely,
Scott S. Harris, Clerk
by /s/ Susan Frimpong
SUSAN FRIMPONG
Case Analyst
[attached notification list omitted]

